<html>
<title> - THE SCIENCE OF SCIENCE AND INNOVATION POLICY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                         THE SCIENCE OF SCIENCE
                         AND INNOVATION POLICY

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 23, 2010

                               __________

                           Serial No. 111-109

                               __________

     Printed for the use of the Committee on Science and Technology





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
  58-486PDF               WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. McCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
RUSS CARNAHAN, Missouri              PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               PETE OLSON, Texas
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
JOHN GARAMENDI, California
VACANCY
                                 ------                                

             Subcommittee on Research and Science Education

                HON. DANIEL LIPINSKI, Illinois, Chairman
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
BRIAN BAIRD, Washington              RANDY NEUGEBAUER, Texas
MARCIA L. FUDGE, Ohio                BOB INGLIS, South Carolina
PAUL D. TONKO, New York              BRIAN P. BILBRAY, California
RUSS CARNAHAN, Missouri                  
VACANCY                                  
BART GORDON, Tennessee               RALPH M. HALL, Texas
               DAHLIA SOKOLOV Subcommittee Staff Director
           MELE WILLIAMS Republican Professional Staff Member
            MARCY GALLO Democratic Professional Staff Member
           BESS CAUGHRAN Democratic Professional Staff Member
                   MOLLY O'ROURKE Research Assistant














                            C O N T E N T S

                           September 23, 2010

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Daniel Lipinski, Chairman, 
  Subcommittee on Research and Science Education, Committee on 
  Science and Technology, U.S. House of Representatives..........     8
    Written Statement............................................     9

Statement by Representative Vernon J. Ehlers, Minority Ranking 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    12

                               Witnesses:

Dr. Julia Lane, Program Director of the Science of Science and 
  Innovation Policy Program, National Science Foundation
    Oral Statement...............................................    13
    Written Statement............................................    14
    Biography....................................................    24

Dr. Daniel Sarewitz, Co-Director of the Consortium for Science, 
  Policy & Outcomes and Professor of Science and Society, Arizona 
  State University
    Oral Statement...............................................    24
    Written Statement............................................    26
    Biography....................................................    37

Dr. Fiona Murray, Associate Professor of Management, 
  Technological Innovation & Entrepreneur Group, MIT Sloan School 
  of Management
    Oral Statement...............................................    37
    Written Statement............................................    39
    Biography....................................................    50

Dr. Albert H. Teich, Director of Science & Policy Programs, 
  American Association for the Advancement of Science
    Oral Statement...............................................    51
    Written Statement............................................    52
    Biography....................................................    55

             Appendix 1: Answers to Post-Hearing Questions

Dr. Julia Lane, Program Director of the Science of Science and 
  Innovation Policy Program, National Science Foundation.........    66

             Appendix 2: Additional Material for the Record

Statement of the California Healthcare Institute (CHI) submitted 
  by Representative Brian P. Bilbray.............................    68

 
              THE SCIENCE OF SCIENCE AND INNOVATION POLICY

                              ----------                              


                      THURSDAY, SEPTEMBER 23, 2010

                  House of Representatives,
     Subcommittee on Research and Science Education
                        Committee on Science and Technology
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:07 p.m., in 
Room 2325 of the Rayburn House Office Building, Hon. Daniel 
Lipinski [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                     U.S. HOUSE OF REPRESENTATIVES

              The Science of Science and Innovation Policy

                      thursday, september 23, 2010
                          2:00 p.m.-4:00 p.m.
                   2325 rayburn house office building

1. Purpose

    On Thursday, September 23, 2010, the Research and Science Education 
Subcommittee will hold a hearing to examine the current state of 
science and technology policy research, how this research informs 
policymaking, and the role of the federal government in fostering 
academic research and education in this emerging interdisciplinary 
field.

2. Witnesses

        <bullet>  Dr. Julia Lane, Program Director of the Science of 
        Science and Innovation Policy program, National Science 
        Foundation.

        <bullet>  Dr. Daniel Sarewitz, Co-Director of the Consortium 
        for Science, Policy & Outcomes, Arizona State University.

        <bullet>  Dr. Fiona Murray, Associate Professor of Management 
        in the Technological Innovation & Entrepreneurship Group, MIT 
        Sloan School of Management.

        <bullet>  Dr. Albert H. Teich, Director of Science & Policy 
        Programs, American Association for the Advancement of Science.

3. Overarching Questions

        <bullet>  What is the ``science of science policy?'' How can 
        science and technology (S&T) policy research contribute to and 
        inform evidence-based local and national policy decisions? To 
        what extent are science and technology policies in the United 
        States being shaped by what has been learned from S&T policy 
        research?

        <bullet>  What new and continuing areas of research in this 
        area could significantly improve our ability to design 
        effective programs and better target federal research 
        investments? What are the most promising research opportunities 
        and what are the biggest research gaps? Is the Federal 
        government, specifically the National Science Foundation, 
        playing an effective role in developing the science of science 
        policy?

        <bullet>  What is the state of education in science and 
        technology policy at U.S. universities? What are the 
        backgrounds of students pursuing graduate degrees in S&T 
        policy? What career paths are sought by science and technology 
        policy program graduates? What are the fundamental skills and 
        content knowledge needed by science and technology policy 
        practitioners? Is the National Science Foundation playing an 
        effective role in fostering the development of science and 
        technology policy programs at U.S. universities?

4. Background

    During his keynote address in 2005 at the American Association for 
the Advancement of Science's Science and Technology Policy Forum, Dr. 
John Marburger, then science advisor to President Bush, called for the 
establishment of a ``science of science policy.'' The ``science of 
science policy'' (SoSP) as described by Dr. Marburger and others 
includes the development of scientific theories, analytical tools, and 
rigorous datasets that will assist policymakers in science policy 
decisions. The SoSP is an interdisciplinary field that draws together 
researchers from economics, political science, and the social and 
behavioral sciences to improve our understanding of the science and 
engineering enterprise, including the process of innovation in an 
effort to establish a more quantitative approach to science and 
technology policy decisions.
    While most believe that science, technology, and innovation are 
critical to the competitiveness and prosperity of the United States, we 
lack the rigorous tools to quantify that relationship. Therefore, it 
remains difficult to actually measure the economic impact, social 
benefits, and effectiveness of federal research and development (R&D) 
investments. In addition to improving our ability to target federal R&D 
investments, research in the area of SoSP holds the potential to 
provide insight into the effect of globalization on the U.S. science 
and engineering workforce, increase our understanding of technology 
development and diffusion, communicate the social and economic benefits 
of R&D spending to the general public, and shed light on the process of 
creativity and innovation.
    In 2006, in response to Dr. Marburger's call to action, an 
interagency working group, co-chaired by the National Science 
Foundation (NSF) and the Department of Energy, was formed within the 
Subcommittee on Social, Behavioral, and Economic Sciences under the 
National Science and Technology Council. The interagency working group 
conducted an assessment of the state of SoSP research and surveyed the 
Federal agencies about the tools, methods, and data they were using to 
make investment decisions. This work resulted in the release of a 
Federal SoSP research roadmap \1\ in 2008. The roadmap outlines three 
broad themes and poses 10 research questions to be addressed by 
federally-funded SoSP research.
---------------------------------------------------------------------------
    \1\ The Science of Science Policy: A Federal Research Roadmap 
http://www.whitehouse.gov/files/documents/ostp/NSTC%20Reports/
39924<INF>-</INF>PDF%20Proof.pdf

---------------------------------------------------------------------------
Theme 1: Understanding Science and Innovation

        Question 1:  What are the behavioral foundations of innovation?

        Question 2:  What explains technology development, adoption, 
        and diffusion?

        Question 3:  How and why do communities of science and 
        innovation form and evolve?

Theme 2: Investing in Science and Innovation

        Question 4:  What is the value of the Nation's public 
        investment in science?

        Question 5:  Is it possible to ``predict discovery''?

        Question 6:  Is it possible to describe the impact of discovery 
        on innovation?

        Question 7:  What are the determinants of investment 
        effectiveness?

Theme 3: Using the Science of Science Policy to Address National 
        Priorities

        Question 8:  What impact does science have on innovation and 
        competitiveness?

        Question 9:  How competitive is the U.S. scientific workforce?

        Question 10:  What is the relative importance of different 
        policy instruments in science policy?

Role of the National Science Foundation

    In 2006, NSF's Directorate for Social, Behavioral and Economic 
Sciences (SBE) held three workshops to ask for recommendations and 
guidance from the research community about the breadth of activities 
that should be supported under an NSF-funded SoSP program. In 2007, NSF 
allocated $6.8 million for a new Science of Science and Innovation 
Policy (SciSIP) program. SciSIP supports both single investigators and 
collaborations in two areas. First, the program supports research on 
data and the improvement of science metrics, including research to 
improve our ability to identify, characterize, and measure returns on 
federal R&D investments. Second, the program supports research directed 
toward the development of models and other statistical tools as well as 
qualitative studies that will improve our understanding of the process 
of innovation and science outcomes, both societal and economic. In 
addition to supporting research, the program supports workshops, 
conferences, and symposia to help foster a community of researchers in 
the SciSIP area.
    NSF's SciSIP budget request for fiscal year 2011 was $14.25 
million, of which $8.05 million will be devoted to SciSIP research and 
community building activities through SBE's Office of Multidisciplinary 
Activities and $6.2 million will be for the development of data survey 
tools through SBE's Division of Science Resource Statistics (SRS). The 
data compiled by SRS for the biennial Science and Engineering 
Indicators report serve a vital role in the SoSP as a long-term source 
of unbiased information about the science and engineering enterprise.
    NSF's current efforts in SciSIP are not its first. From the 1970's 
through the early 1990's NSF had a modest-sized staff carrying out 
policy research and analysis. These analysts worked in the Office of 
Research and Development Assessment, later the Division of Policy 
Research and Analysis (PRA), on specific tasks requested by the Office 
of Management and Budget, the Office of Science and Technology Policy, 
the Congressional Office of Technology Assessment, and other federal 
agencies. Additionally, PRA had a small budget to support academic 
research in areas directly relevant to their policy analysis tasks. In 
1992, PRA was involved in a scandal over the faulty assumptions used to 
predict a looming shortage in engineers. The scandal led to an 
investigation by the Committee on Science & Technology and the 
dismantling of PRA.

STAR METRICS

    The National Science Foundation and the National Institutes of 
Health are currently collaborating on a project known as STAR METRICS 
(Science and Technology for America's Reinvestment: Measuring the 
Effect of Research on Innovation, Competitiveness and Science), which 
is the first federal-university partnership to develop a data 
infrastructure that documents the outcomes of science investments for 
the public. An initial pilot project was recently completed with a 
handful of regionally and otherwise diverse institutions of higher 
education through the National Academies' Federal Demonstration 
Partnership. The pilot project validated the initiative's concept and 
its ability to collect relevant data from existing university 
databases. The full-scale project will proceed in two phases: Phase I 
will develop uniform, auditable and standardized measures of job 
creation resulting from science spending included in the American 
Recovery and Reinvestment Act; Phase II will develop measures of the 
impact of federal R&D spending on economic growth, workforce 
development, scientific knowledge, and social outcomes.

International Efforts

    The Organization for Economic Cooperation and Development (OECD) 
has been developing and collecting science and technology indicators 
from their member nations for nearly 50 years. In 2004, the Science & 
Technology Ministerial called for a ``new generation of indicators 
which can measure innovative performance and other related output of a 
knowledge-based economy'' emphasizing ``the data required for the 
assessment, monitoring and policy making purposes.'' \2\ Since that 
time the OECD has continued to refine its science and technology 
indicators, and improve the tools they use for analyzing the impact of 
science and technology. Earlier this year the OECD released a report 
entitled, ``Measuring Innovation: A New Perspective.'' \3\ The report 
identifies five areas for which international action is needed: the 
development of innovation metrics that can be linked to aggregate 
measures of economic performance; investment in a high-quality and 
comprehensive statistical infrastructure to analysis innovation at the 
firm-level; the promotion of innovation metrics in public sector and 
for public policy evaluation; the identification of new approaches to 
understand knowledge creation and flow; and the promotion of the 
measurement of innovation on social goals.
---------------------------------------------------------------------------
    \2\ What Indicators for Science, Technology and Innovation Policies 
in the 21st Century? Blue Sky II Forum--Background http://www.oecd.org/
dataoecd/9/48/37082579.pdf
    \3\ http://www.oecd.org/document/22/
0,3343,en<INF>-</INF>41462537<INF>-</INF>41454856<INF>-</INF>44979734<INF>-</INF>
1<INF>-</INF>1<INF>-</INF>1<INF>-</INF>
1,00.html
---------------------------------------------------------------------------
    On April 14, Dr. Julia Lane spoke to the European Parliament about 
the STAR METRICS effort, emphasizing the global nature of science and 
engineering and the common need for better tools to assess and predict 
the impact of science, technology, and innovation. During her speech, 
Dr. Lane indicated that creating a universal researcher identification 
system could be an important first step in a global effort to 
understand and measure the return on scientific investment. Niki 
Tzavela, a Greek Member of the European Parliament, who serves as Vice-
Chair of the European Parliament Delegation to the United States, and 
sits on the Parliament's Industry, Research, and Energy Committee 
(ITRE), has been a leader on the issue of improved science metrics in 
the European Union. Having indicated that the EU 8th Framework Program 
represents an opportunity to evaluate and improve science policy, Mrs. 
Tzavela introduced an initiative to the ITRE Committee proposing that 
the EU collaborate on this topic with the United States. The EU is now 
considering initiatives that would complement the STAR metrics project, 
and the Scientific Technology Options Assessment Panel within the EU 
has been designated to provide an in-depth analysis on Science 
Metrics.\4\
---------------------------------------------------------------------------
    \4\ http://www.euractiv.com/en/science/eu-looks-to-us-model-for-
measuring-rd-impact-news-448950

Education in Science & Technology Public Policy

    According to the AAAS Guide to Graduate Education in Science, 
Engineering and Public Policy \5\ there are more than 25 U.S. 
universities that offer a graduate degree in the interdisciplinary 
field of science and technology public policy. These degree programs 
draw from a number of fields, including economics, sociology, political 
science, and engineering; however the coursework associated with each 
program varies and is dependent upon the academic department or school 
that houses the program.
---------------------------------------------------------------------------
    \5\ http://www.aaas.org/spp/sepp/

---------------------------------------------------------------------------
5. Questions for Witnesses

Dr. Julia Lane
        1.  Please describe NSF's Science of Science Policy and 
        Innovation program, including a description of the Foundation's 
        overall vision and strategy for research and education in this 
        area.

                Specifically,

                        How is NSF fostering collaboration between 
                        social and behavioral scientists and 
                        researchers from other disciplines, including 
                        computer scientists, engineers, and physical 
                        scientists, in science and technology policy 
                        research?

                        How is NSF fostering the development of science 
                        and technology policy degree programs and 
                        courses of study at colleges and universities? 
                        What is the current scope and level of support 
                        for such programs?

                        How is NSF encouraging the development of a 
                        community of practice in science of science 
                        policy and the dissemination of research 
                        results to policy makers?

        2.  As a Co-Chair of the Science of Science Policy Interagency 
        Group under the National Science and Technology Council, please 
        briefly describe the work of that group and how the various 
        federal science agencies are collaborating on the development 
        and implementation of science of science policy tools to 
        improve the management and effectiveness of their R&D 
        portfolios and other science and technology-related programs.

        3.  Please provide a brief description and update on the status 
        of the OSTP led project on science metrics, known as STAR 
        Metrics, including a description of international engagement 
        and interest in this effort.

Dr. Albert Teich

        1.  How can research on innovation and the scientific 
        enterprise also known as the science of science and innovation 
        policy (SciSIP) be used to inform the design of effective 
        federal programs and the management of federal research 
        investments? Do you believe the results of science and 
        technology policy research are being effectively incorporated 
        into national policy decisions?

        2.  What are the challenges to the incorporation of science and 
        technology research in the decision making process? What is 
        AAAS's role in mitigating those barriers? Specifically, how is 
        AAAS helping to build a community of practice in the SciSIP? 
        What recommendations, if any, do you have for the National 
        Science Foundation's SciSIP program? Do you believe SciSIP 
        research is being effectively coordinated across the federal 
        agencies? If not, what if any recommendations do you have 
        regarding interagency coordination?

        3.  As you know there are more than 25 U.S. universities that 
        offer graduate degrees in science, engineering and public 
        policy. In your opinion, are these programs having the intended 
        effect of producing graduates with the skills necessary to 
        shape science and technology policies? What type of education 
        and training should science and technology policy practitioners 
        receive? Is the National Science Foundation playing an 
        effective role in fostering the development of science and 
        technology policy programs at U.S. universities? If not, what 
        recommendations, if any, do you have for NSF and/or the 
        universities with such programs?

Dr. Daniel Sarewitz

        1.  Please provide an overview of the research activities of 
        the Consortium for Science, Policy, and Outcomes. How are you 
        facilitating interdisciplinary collaborations within the 
        Consortium? What new and continuing areas of research in the 
        science of science and innovation policy (SciSIP) could 
        significantly improve our ability to design effective programs 
        and better target federal research investments? What are the 
        most promising research opportunities and what are the biggest 
        research gaps?

        2.  Is the Federal government, specifically the National 
        Science Foundation, playing an effective role in fostering 
        SciSIP research and the development of a community of practice 
        in SciSIP? What recommendations, if any, do you have for the 
        National Science Foundation's SciSIP program?

        3.  Please describe the education and outreach activities of 
        the Consortium for Science, Policy, and Outcomes.

        4.  How can the dissemination of SciSIP research findings be 
        improved so that policymakers are better informed of the 
        current state of research? Are there best practices that can be 
        implemented by the Federal government and/or the research 
        community to improve the incorporation of science and 
        technology policy research into the decision making process?

        5.  What are the fundamental skills and content knowledge 
        needed by SciSIP researchers and practitioners? What are the 
        backgrounds of students pursuing graduate degrees in science 
        and technology policy and what careers paths are sought by 
        these graduates? Is the National Science Foundation playing an 
        effective role in fostering the development of science and 
        technology policy degree programs at U.S. universities? If not, 
        what recommendations, if any, do you have for NSF and/or the 
        universities with such programs?

Dr. Fiona Murray

        1.  Please provide an overview of your research. What new and 
        continuing areas of research in the science of science and 
        innovation policy (SciSIP) could significantly improve our 
        ability to design effective programs and better target federal 
        research investments? What are the most promising research 
        opportunities and what are the biggest research gaps?

        2.  Is the Federal government, specifically the National 
        Science Foundation, playing an effective role in fostering 
        SciSIP research and the development of a community of practice 
        in SciSIP? What recommendations, if any, do you have for the 
        National Science Foundation's SciSIP program?

        3.  What are the fundamental skills and content knowledge 
        needed by SciSIP researchers and practitioners? What are the 
        backgrounds of students pursuing graduate degrees in science 
        and technology policy and what careers paths are sought by 
        these graduates? Is the National Science Foundation playing an 
        effective role in fostering the development of science and 
        technology policy degree programs at U.S. universities? If not, 
        what recommendations, if any, do you have for NSF and/or the 
        universities with such programs?
    Chairman Lipinski. This hearing will now come to order. 
Good afternoon and welcome to today's Research and Science 
Education Subcommittee hearing on the Science of Science and 
Innovation Policy, also known as SciSIP. For those of you who 
may not be familiar with the phrase, the Science of Science 
Policy is a field of interdisciplinary research that focuses on 
understanding how our policy decisions impact innovation and 
science and engineering research. Given the magnitude of the 
federal investment in science and technology, there is a need 
for objective analysis and evaluation of federally funded R&D 
programs. And given the size of the budget deficit, 
Congressional decision makers need the best information 
possible to make sure we are spending taxpayer dollars 
optimally.
    Today we will be hearing from a diverse panel of witnesses 
about the current state of research and education in this 
emerging field. This topic is of particular interest to me 
since it goes to the core of why I joined the Science and 
Technology Committee when I first came to Congress. Like most 
members of this committee, I believe that science and 
engineering research, and education have driven long term 
economic growth and improved the quality of life for all 
Americans. I have viewed science and innovation policy as 
critical for maintaining our international competitiveness and 
creating jobs.
    But the best policies are not self-evident. As someone who 
was trained as an engineer and a social scientist, I believe we 
need data and proper analysis of this data to be able to 
determine as best we can the optimal policy. We are going to 
hear today about some of the research that is being done on 
science policy. I am eager to hear to the panel's thoughts on 
what is being found, how well these findings are being 
disseminated, and whether research in this area is actually 
helping policymakers.
    While many of us would agree that science has had a 
positive impact on our lives, I think we know very little about 
how the process of innovation works. What kinds of research 
programs or institutional structures are most effective? How do 
investments in R&D translate to more jobs, improved health, and 
overall societal well-being? How should we balance investments 
in basic and applied research? With millions of Americans out 
of work it becomes more critical than ever that we find answers 
to these questions.
    We will also take a closer look at the state of education 
in science and technology policy and how these degree programs 
and courses of study are contributing by educating the next 
generation of researchers and science policy practitioners. 
There are a variety of science and technology programs that are 
popping up across the country. They can be found in public 
policy schools, economics departments, business schools, and 
other places, even philosophy departments. I am looking forward 
to hearing more about these programs, including what kinds of 
students they attract and where those students go upon 
graduation.
    Finally, I hope to hear recommendations from today's 
witnesses about how the Federal Government, particularly the 
National Science Foundation, can foster interdisciplinary 
research in this area, and how it can continue to improved 
education and training for students who want to pursue a career 
at the intersection of science, technology, and public policy. 
I thank the witnesses for being here this afternoon, especially 
as we have had to move this hearing back from the morning. I 
look forward to your testimony.
    Now before I recognize Dr. Ehlers, I--this will likely be 
the last hearing of this subcommittee, the last meeting of this 
subcommittee. It may not be, but just in case it is the last 
for this Congress, I wanted to say that I think we should all 
recognize Dr. Ehlers for his contributions in Congress and 
especially on this committee through the years. It has been 
certainly--I have had a great partner working on this as I have 
chaired the Subcommittee for the last two years. He is someone 
who really, truly is dedicated to the issues that we are facing 
here and we deal with here in the Committee. Too many things 
right now are becoming partisan footballs, and Dr. Ehlers 
really has kept his eye on what is best and trying to find what 
is best for our country. And I want to thank you for the years 
that you have put in here and wish you the best in your next 
endeavors, but it has been a pleasure to work with you, 
especially over these last few years.
    [The prepared statement of Chairman Lipinski follows:]
             Prepared Statement of Chairman Daniel Lipinski
    Good afternoon and welcome to today's Research and Science 
Education Subcommittee hearing on the science of science and innovation 
policy, also know as SciSIP. For those of you who might not be familiar 
with the phrase, the ``science of science policy'' is a field of 
interdisciplinary research that focuses on understanding how our policy 
decisions impact innovation and science and engineering research. Given 
the magnitude of the federal investment in science and technology, 
there is a need for objective analysis and evaluation of federally 
funded R&D programs. And given the size of the budget deficit, 
Congressional decision makers need the best information possible to 
make sure we are spending taxpayer dollars optimally. Today we'll be 
hearing from a diverse panel of witnesses about the current state of 
research and education in this emerging field.
    This topic is of particular interest to me since it goes to the 
core of why I joined the Science and Technology Committee when I came 
to Congress. Like most Members of this committee, I believe that 
science and engineering research and education have driven long-term 
economic growth and improved the quality of life for all Americans. I 
view science and innovation policy as critical for maintaining our 
international competitiveness and creating jobs.
    But the best policies are not self-evident. As someone who was 
trained as an engineer and a social scientist, I believe we need data 
and proper analysis of this data to be able to determine--as best we 
can--the optimal policy to implement. We are going to hear today about 
some of the research that is being done on science policy, and I am 
eager to hear the panel's thoughts on what is being found, how well the 
findings of this research are being disseminated, and whether research 
in this area is actually helping policy makers.
    While many of us would agree that science has had a positive impact 
on our lives, I think we actually know very little about how the 
process of innovation works. What kinds of research programs or 
institutional structures are most effective? How do investments in R&D 
translate to more jobs, improved health, and overall societal 
wellbeing? How should we balance investments in basic and applied 
research? With millions of Americans out of work, it becomes more 
critical than ever that we find answers to these questions.
    We'll also take a closer look at the state of education in science 
and technology policy and how these degree programs and courses of 
study are contributing by educating the next generation of researchers 
and science policy practitioners. There are a variety of science and 
technology policy programs that are popping up across the country. They 
can be found in public policy schools, economics departments, business 
schools, and other places, even philosophy departments. I'm looking 
forward to hearing more about these programs, including what kind of 
students they attract and where those students go upon graduation.
    Finally, I hope to hear recommendations from today's witnesses 
about how the Federal government, particularly the National Science 
Foundation, can foster interdisciplinary research in this area and how 
it can contribute to improved education and training for students who 
want to pursue a career at the intersection of science, technology, and 
public policy.
    I thank the witnesses for being here this afternoon and look 
forward to their testimony.

    Chairman Lipinski. And with that I will now recognize Dr. 
Ehlers for an opening statement.
    Mr. Ehlers. Thank you for those kind words, Mr. Chairman. I 
think my biggest challenge will be learning how to sleep in, 
but I very much appreciate those comments. I always just try to 
do a good job wherever I am. It is a trade I learned from my 
parents and I never, never, never, ever expected to be in the 
Congress or in politics. My mother never quite got over it. As 
she put it, what are you doing with all those nasty people? But 
it turns out my colleagues are not nasty people, and I 
appreciate your leadership on the Subcommittee. And you have 
done a great job of leading us in the right direction, and it 
has been a pleasure to work with you. Thank you.
    With that I will proceed to the opening statement. Today we 
will explore the current state of science and technology policy 
research and the role it plays in informing our policy 
decisions. And I have to insert a little comment in here, that 
is, when I first arrived here and was assigned to the Science 
Committee, which made obvious sense since I was at that time I 
think one of the very few, if the only, scientist in the 
Congress, at least on the Republican side. And at the first 
meeting of the Science Committee I asked the Chair, how many 
scientists do you have on staff? And the answer was none. And I 
said really? How can you function without--and he said well, we 
don't really need people who understand science. We need people 
who understand science policy.
    Well, as a scientist I had never thought much about science 
policy and little did I know that in conversation with Newt 
Gingrich where I commented that I thought it a bit strange that 
the science policy we were operating under in the government 
and in the Congress was by Vannevar Bush's 1945 book, and I 
said that is a little out of date. Things change rapidly in 
science. It is a great book, ``The Endless Frontier''. Vannevar 
Bush was a great man. He had done a lot of good works 
especially during World War II. But I talked to Newt Gingrich 
about that, that that was the latest science policy book that 
was guiding the Government, so he did as Newt Gingrich always 
did and said hey, it is time to get another one. Why don't you 
do it? So I learned after a couple of years never to suggest 
anything to Newt because he always dumped the burden on me.
    In any event, I did proceed to work on a book, which just 
walked in the door with my aide, and some of you have seen it 
already. It is called ``Unlocking Our Future''. Now this is not 
a great science policy book. I knew absolutely nothing about 
science policy when we proceeded to write it but it seemed to 
me that there were certain things that were obvious and we put 
them in here. And I deliberately said ``Unlocking Our Future'' 
because I felt we had so much to do and I was not able to do it 
in this thin little volume. It did get some notice, and it 
inspired some science policy individuals to engage more 
seriously in this. And some of them, many of them are 
represented here. But it was a real education to me. You should 
try that sometime, writing a book about something you know 
nothing about. It is a great way to learn and fortunately as a 
child I was homeschooled because of illness, so all the 
learning I did was things that I learned and learned on my own. 
So that was good preparation for this.
    We clearly, badly need something like this again and it is 
one case where the author is delighted to say this is too old 
now. It is time to get busy. Someone else better start writing 
a better thing.
    Let me continue with my opening statement. When Dr. John 
Marburger, who was science advisor to President Bush, called 
for the establishment of a Science of Science Policy in 2005, 
we embarked on a new journey into this emerging field of 
interdisciplinary research by establishing an interagency 
working group, the Science and Science of Innovation Policy 
program at the National Science Foundation--the shorthand for 
it was SciSIP--and most recently, the Science and Technology 
for America's Reinvestment, which is the emphasis that I and 
others, including the authors of ``The Gathering Storm,'' have 
been emphasizing, because it is important for us to measure the 
effects of research and innovation competitiveness and science 
which has come to be called STAR METRICS. I hope this hearing 
will provide us with a detailed measurement of how far we have 
come on that journey as well as an encouraging picture of the 
progress we have made.
    I have spent many years on this Committee working to 
strengthen U.S. innovation and science education, and I have 
been a long time advocate of increased federal funding for 
basic research. I wish the entire Congress was receptive to 
that notion as they--but this funding produces the 
technological innovations that will keep America competitive in 
the global market and it is essential for us to educate 
American workers in the skills needed for 21st century jobs.
    As with any program, sustained Congressional oversight is 
required to insure that the Science of Science Policy Programs 
are effective and that they progress in a timely and fiscally 
responsible manner. I am encouraged by efforts which seek to 
maximize our current investments in scientific research, and I 
believe it is very important that those are the investments 
that provide us with measureable returns. And that is why I 
have worked so hard to try and make the research and 
development tax credit permanent, because that is one good way 
to encourage industry to work on these issues. We must be 
mindful of that fact as Congress deliberates the best ways to 
use American taxpayer funds in this difficult economic climate.
    To that end I am very interested in learning more about the 
progress and potential of the STAR METRICS program and its 
recently completed project. I hope--I look forward to learning 
more about the status of science affecting science policy and 
the advancements which have been made since 2005. And I wanted 
to thank our panel of witnesses for being here today, for 
accommodating our last second scheduling change, and I look 
forward to hearing their insights on this topic. There is much 
work to be done to help our nation recover its lead in 
technological development, and in manufacturing, and in science 
in general.
    And so I am looking forward to the testimony today and I 
hope you can enlighten us, and out of this will come first of 
all a new version of this, and secondly there is some 
improvement in our judgments about science and also science 
education in this Nation. Thank you very much.
    [Statement of Mr. Ehlers follows:]
         Prepared Statement of Representative Vernon J. Ehlers
    Today, we will explore the current state of science and technology 
policy research, and the role it plays in informing our policy 
decisions. When Dr. John Marburger, then science advisor to President 
Bush, called for the establishment of a ``science of science policy'' 
(SoSP) in 2005, we embarked on a new journey into this emerging field 
of interdisciplinary research by establishing an interagency working 
group, the Science of Science and Innovation Policy (SciSIP) program at 
the National Science Foundation (NSF), and, most recently, the Science 
and Technology for America's Reinvestment: Measuring the Effect of 
Research on Innovation, Competitiveness and Science (STAR METRICS) 
project. I hope this hearing will provide us with a detailed 
measurement of how far we have come on that journey, as well as an 
encouraging picture of the progress we have made.
    I have spent many years on this committee working to strengthen 
U.S. innovation and science education, and I have been a long time 
advocate of increased federal funding for basic research. This funding 
produces the technological innovations that will keep America 
competitive in the global market, and it is essential for us to educate 
American workers in the skills needed for 21st-century jobs.
    As with any program, sustained Congressional oversight is required 
to ensure the SoSP programs are effective, and that they progress in a 
timely and fiscally responsible manner. I am encouraged by efforts 
which seek to maximize our current investments in scientific research, 
and I believe it is very important that those R&D investments provide 
us with measurable returns. We must be mindful of that fact as Congress 
deliberates the best ways to use American taxpayer funds in this 
difficult economic climate. To that end, I am very interested in 
learning more about the progress and potential of the STAR METRICS 
program and its recently completed pilot project.
    I look forward to learning more about the status of science 
affecting science policy and the advancements which have been made 
since 2005. I want to thank our panel of witnesses for being here 
today, for accommodating our last-second scheduling change, and I look 
forward to hearing their insights on this topic.

    Chairman Lipinski. Thank you, Dr. Ehlers. Maybe we can make 
that a best seller now. Now if there are Members who wish to 
submit additional opening statements, their statements will be 
added to the record at this point. And at this time I want to 
introduce our witnesses. Dr. Julia Lane is the Program Director 
of the Science of Science and Innovation Policy program at the 
National Science Foundation. Dr. Daniel Sarewitz is the Co-
Director of the Consortium for Science, Policy & Outcomes and 
Professor of Science and Society at Arizona State University. 
Dr. Fiona Murray is an Associate Professor of Management in the 
Technological Innovation & Entrepreneur Group at MIT Sloan 
School of Management. And Dr. Albert H. Teich is the Director 
of Science & Policy Programs at the American Association for 
the Advancement of Science.
    As our witnesses should know, you will each have five 
minutes for your spoken testimony. Your written testimony will 
be included in the record for the hearing. When you all have 
completed your spoken testimony we will begin with questions. 
Each Member will have five minutes to question the panel. And 
before we begin I just want to mention that we will be having 
votes coming up soon, so probably what the most important thing 
is if everyone could hold to their five minutes it will help us 
so we don't have--hopefully won't have an interruption in the--
at least in the testimony part here. But with that, we will 
start with Dr. Lane.

  STATEMENT OF JULIA LANE, PROGRAM DIRECTOR OF THE SCIENCE OF 
    SCIENCE AND INNOVATION POLICY PROGRAM, NATIONAL SCIENCE 
                           FOUNDATION

    Dr. Lane. Chairman Lipinski, Ranking Member Ehlers, Members 
of the Subcommittee, it is my distinct pleasure to be with you 
here today to discuss NSF's Science of Science and Innovation 
Policy Program, the activities of the Science of Science Policy 
Inter-Agency Group, and the STAR METRICS program, the last of 
which is a new federal and university partnership to document 
the scientific, social, economic, and work force outcomes of 
science investments to the public. I am Dr. Julia Lane. I am 
the Program Director of the SciSIP program at NSF and Co-Chair 
of NSTC working group on the Science of Science Policy.
    I submitted a written statement to supplement or to 
accompany my oral testimony. So the focus of these three 
efforts is to provide, as you noted, better methods and data to 
inform science--federal science investment decisions. They 
represent the first efforts to construct a scientific framework 
that is supported by multiple agencies and multiple 
institutions, all jointly engaged. It represents a true all-out 
effort to providing an evidence basis for U.S. science policy. 
Its success is important for policy makers because, in a 
nutshell, you can't manage what you can't measure, and what you 
measure is what you get.
    Developing a scientific framework involves several things. 
It requires the engagement of scientists from many disciplines 
to address science policy issues. The NSF does this through the 
SciSIP program. The overarching goal of this effort is to 
conduct basic research that creates new objective models, 
analytical tools, and data sets to inform our nation's basic 
research, and to inform public and private sectors about the 
processes through which investments in science and engineering 
work their way through the outcomes we have mentioned. It funds 
researchers from a wide range of disciplines and it funds 
students to study science policy issues in a scientific manner. 
As you also know, it supports the redesign of surveys 
undertaken by the National Science Foundation's Science 
Resource Statistics. It is the statistical agency charged with 
describing the science and innovation enterprise. For example, 
the new business and innovation survey, the BRDIS [Business R&D 
and Innovation Survey] survey, has been completely redesigned 
from a 1950s structure to something that captures the new R&D 
innovation activities.
    So it is not just the academic community that is advancing 
the Science of Science Policy. It is also policymakers in the 
Executive and Legislative branches who recognize that we need 
these better approaches. That is why the National Science and 
Technology Council established the Science of Science Policy 
Inter-Agency Task Group. That task group, the science policy 
Agencies that were represented on that, created a road map that 
characterized our current system of measuring the science and 
engineering enterprise as inadequate. We can do better. There 
is enormous potential to do better. The first step to doing 
better is to get better data. Just as good bricks need straw, 
good research in an empirical field like science and innovation 
policy requires good data. So to that end, the SciSIP Program 
and the Science of Science Policy Inter-Agency Group initiated 
the development of the STAR METRICS program to which you have 
already alluded. The benefits of this program is that rather 
than having organized data sets that different agencies and 
different institutions use to answer the types of questions 
that the American people are asking, we can develop a common, 
bottom-up, empirical infrastructure that will be available to 
all recipients of federal funding and to science agencies to 
quickly respond to state, congressional, and OMB requests. It 
is critical that we take a bottom-up effort in order to develop 
these approaches--one that is domain specific, generalized, and 
replicable.
    Phase one started in March, jointly sponsored by NIH, the 
lead agency, NSF, and OSTP. And that is collecting the data 
required to, with no burden, respond to questions about the 
jobs associated with science funding. Phase two, which is 
trying to collect broader data on a wide range of outcomes--not 
just jobs, but social, scientific, economic, and work force 
outcomes--is beginning this fall with formal consultations with 
research institutions.
    Furthermore, science is fundamentally an international 
endeavor. We have engaged with the European Union, with the 
Japanese, with the Brazilians, with many countries in order to 
document the impact of science investments. In fact, the 
Japanese Government has recently set aside funding for a 
Japanese equivalent of a SciSIP program. The European Union has 
also shown considerable interest in what we have been up to, 
and is considering emulating the bottom-up, no burden endeavor 
that the SciSIP, the Science of Science Policy, and the STAR 
METRICS Program have pushed forward. And the Brazilian 
Government has also requested briefings on the SciSIP, Science 
of Science Policy, and STAR METRICS Program.
    This concludes my testimony, Mr. Chairman. I look forward 
to answering any questions you or the Members of the Committee 
might have.
    [The prepared statement of Dr. Lane follows:]
                  Prepared Statement of Julia I. Lane
    Chairman Lipinski, Ranking Member Ehlers, and Members of the 
Subcommittee, it is my distinct privilege to be here with you today to 
discuss NSF's Science of Science and Innovation Policy (SciSIP), the 
activities of the Science of Science Policy Interagency Group, and the 
STAR METRICS program--a new federal effort designed to create a 
scientific quantifiable measurement of the economic and social impacts 
of federal research spending. I am Dr. Julia Lane, the program Director 
of the SciSIP program at the National Science Foundation, and co-chair 
of the NSTC working group on Science of Science Policy (SOCP).
    At the outset, I would like to express my appreciation to all the 
Members on the House Committee on Science and Technology for their 
unstinting support to advance both the cause, and the frontiers of 
science. This Committee has long held steadfast in the knowledge that 
America's present and future strength, prosperity and global 
preeminence depend directly on fundamental research.
    The National Science Foundation has always believed that optimal 
use of limited Federal funds relies on two conditions: Ensuring that 
research is aimed--and continuously re-aimed--at the frontiers of 
understanding; and certifying that every dollar goes to competitive, 
merit-reviewed, and time-limited awards with clear criteria for 
success. When these two conditions are met, the nation gets the most 
intellectual and economic leverage from its research investments.
    Yet our portfolio keeps changing. We have a minimal vested interest 
in maintaining the status quo, and pride ourselves on an ability to 
shift resources quickly to the most exciting subjects and most 
ingenious researchers.
    Moreover, we regard it as an essential part of our mission to 
constantly re-think old categories and traditional perspectives. This 
ability is crucial now, because conventional boundaries are 
disappearing--boundaries between nations, boundaries between 
disciplines, boundaries between science and engineering, and boundaries 
between what is fundamental and what is application. At the border 
where research meets the unknown, the knowledge structures and 
techniques of life science, physical science, and information science 
are merging.
    Additionally, our scope is extremely wide, extending across all the 
traditional mathematics, science and engineering disciplines. That is a 
major advantage in today's research climate, where advances in one 
field frequently have immediate and important applications to another. 
The same mathematics used to describe the physics of turbulent air 
masses may suddenly explain a phenomenon in ecology or in the stock 
market, or the changes in brain waves preceding an epileptic seizure. 
The same algorithms used by astronomers to discern patterns in the 
distant heavens can aid radiologists to understand a mammogram, or 
intelligence systems to identify a threat. Only an agency that sees the 
``big picture'' can assure this kind of interdisciplinary synergy.
    For all of these reasons, the National Science Foundation is 
fostering the development of the knowledge, theories, data, tools and 
human capital needed to cultivate a Science of Science and Innovation 
Policy program. The program has three major aims: advancing evidence-
based science and innovation policy decision making; developing and 
building a scientific community to study science and innovation policy; 
and developing new and improved datasets.
    The overarching goal in this effort, however, is to conduct basic 
research that creates new objective models, analytic tools, and 
datasets to inform our nation's public and private sectors about the 
processes through which investments in science and engineering research 
may be transformed into scientific, social and economic outcomes.
    We need to better understand the contexts, structures, and 
processes of scientific and engineering research, to evaluate reliably 
the tangible and intangible returns from investments in research and 
development (R&D), and to predict the likely returns from future R&D 
investments.
    It is not only leaders in the scientific and engineering fields, 
but policymakers as well in the Executive and Legislative Branches who 
recognize that we need better approaches for developing science policy, 
which is why the National Science and Technology Council established 
the Science of Science Policy Interagency Task Group. That task group's 
roadmap characterized our current systems of measurement of the science 
and engineering enterprise as inadequate. There is enormous potential 
to do better.
    To begin to create a scientific, quantifiable measurement of the 
economic and social impacts of our federal research investments, this 
Administration has initiated an innovative new program, STAR METRICS 
(Science and Technology in America's Reinvestment--Measuring the 
EffecTs of Research on Innovation, Competitiveness and Science). This 
initiative is led by the National Institutes of Health and the National 
Science Foundation under the auspices of the White House Office of 
Science and Technology Policy. The goal is to develop a system that can 
be used to track the impact of federal science investments. I will 
return to the topic of STAR METRICS later in my testimony.

1) The overall vision and strategy for research and education in the 
                    `Science of Science and Innovation Policy.

    Federally funded basic and applied scientific research has had a 
significant impact on innovation, economic growth and America's social 
well-being. We know this in the broad sense from numerous economic 
analyses but it is difficult to disentangle the impact of Federal 
investment versus private, state and industrial investments. We have 
little information about the impact of individual projects and 
programs, whether federally or privately funded. We have little 
information about the impact of science agencies. Thus, although 
determining which federally funded research projects yield solid 
results and which do not is a subject of high national interest, since 
American taxpayers invest more than $140 billion annually in research 
and development (R&D), there is little evidence to support such 
analysis. In short, although Congressional and Executive Branch policy 
decisions are strongly influenced by past practices or data trends that 
may be dated, or have limited relevance to today's economic situation. 
A deeper understanding of the changing framework in which scientific 
and technical innovation occurs would help policymakers decide how best 
to make and manage limited public R&D investments to exploit the most 
promising and important opportunities.
    The lack of analytical capacity in science policy is in sharp 
contrast to other policy fields that focus on workforce, health and 
education. Debate in these fields is informed by the rich availability 
of data, high quality analysis of the relative impact of different 
interventions and computational models that often allow for forward-
looking analyses with impressive results. For example, in workforce 
policy, the evaluation of the impact of distinct education and training 
programs has been transformed by careful attention to issues such as 
selection bias and the development of appropriate comparison groups. 
The analysis of data about geographic differences in health care costs 
and health care outcomes has featured prominently in guiding health 
policy debates. And education policy has moved from a ``invest more 
money'' and ``launch a thousand pilot projects'' imperative to a more 
systematic analysis of programs that actually work and that promote 
local and national reform efforts.
    Each of those efforts, however, has benefited from an understanding 
of the systems that are being analyzed. In the case of science policy, 
no such agreement currently exists. NSF's Science of Science & 
Innovation Policy (SciSIP) program is designed to advance the 
scientific basis of science and innovation policy.

Vision
    The principal goal is to advance the scientific basis of making 
science policy decisions, particularly those involving budgets, through 
the development of improved data collection, theoretical frameworks, 
computational models and new analytic tools.
    A major component of the SciSIP program is the funding of 
investigator initiated research. Through direct engagement of the 
federal policy community with the research community, it is hoped that 
future policy decisions can be informed by empirically validated 
hypotheses and informed judgment. Our aim, as noted in the program's 
description, is to ``engage researchers from all of the social, 
behavioral and economic sciences as well as those working in domain-
specific applications such as chemistry, biology, physics, or 
nanotechnology in the study of science and innovation policy. The 
program welcomes proposals for individual or multi-investigator 
research projects, doctoral dissertation improvement awards, 
conferences, workshops, symposia, experimental research, data 
collection and dissemination, computer equipment and other 
instrumentation, and research experience for undergraduates. The 
program places a high priority on interdisciplinary research as well as 
international collaboration.''
    The program explicitly fosters a multi-level science (in addition 
to more obviously being an interdisciplinary science) that spans from 
the study of cognitive phenomena in individual scientists (e.g., the 
study of fixation, insight, reasoning, and decision making) to the 
study of whole industries and policies at the industry level. What 
makes the overall effort a potentially transformative effort is the 
support of research at multiple levels: industry level policies are 
only successful if it has individual-level effects (i.e., that 
engineers and scientists change), and individual-level effects are only 
important if they scale to produce industry-level differences.
    Another focus of the SciSIP program is the redesign of the surveys 
undertaken by NSF's Science Resources Statistics, the federal 
statistical agency responsible for collecting and disseminating data on 
the U.S. science and engineering enterprise. The most visible activity 
has been the redesign of the Business R&D and Innovation Survey (BRDIS) 
which collects information from a nationally representative sample of 
about 40,000 companies, including companies in both manufacturing and 
nonmanufacturing industries. This survey is the primary source of 
information on business, domestic and global R&D expenditures, and 
workforce. The new structure enables respondents to provide detailed 
data on the following:

        <bullet>  How much is a company investing in its domestic and 
        worldwide R&D relationships, including R&D agreements, R&D 
        ``outsourcing,'' and R&D paid for by others?

        <bullet>  What is the strategic purpose of a company's 
        worldwide R&D activities and what are their technology 
        applications?

        <bullet>  What are the details of a company's patenting, 
        licensing, and technology transfer activities, and companies' 
        innovative activities?

    In addition, a limited number of questions are asked about 
activities related to new or improved products or processes. These are 
intended to serve as basis for collecting an expanded set of innovation 
metrics in the future. The results of this data collection are now 
being published as part of SRS's ongoing reporting activity:

Strategy
    The focus of the program's strategy has been to convince the 
academic community that the study of science policy is a worthwhile 
academic endeavor. This has taken three main forms. The first has been 
to engage in a substantial amount of outreach through presenting at 
professional workshops and conferences (an average of five or six a 
year), through supporting specific workshops on various science policy 
topics (two or three a year), through establishing a very active 
listserv (which has grown to over 720 members in less than two years) 
and through supporting a Science of Science Policy website (http://
scienceofsciencepolicy.net).
    The second part of the strategy has been to invest in high quality 
research datasets. Good bricks need straw, and good research in an 
empirical field like science and innovation policy requires good data. 
Fields as disparate as biotechnology, geosciences, and astronomy have 
been transformed by both data and knowledge access. NSF hopes to 
similarly transform the study of science policy by improving science 
data. Such a transformation will occur in three ways. First, the 
scientific challenge is compelling: the way in which scientists create, 
disseminate and adopt knowledge in cyberspace is changing in new and 
exciting ways. Collaborations between computer scientists and social 
scientists, fostered by SciSIP, can capture these activities using new 
cybertools. Second, new and exciting data attract new researchers to 
the field. This in turn attracts new graduate students, who see new 
ground being broken and exciting opportunities for research. Finally, 
we aim to actively engage the federal science policy community through 
a variety of workshops, as well as direct engagement through the 
Science of Science Policy Interagency Group.
    The program has made a total of 99 awards: 19 in 2007, 23 in 2008, 
31 in 2009, and 26 in 2010. The program began to accept doctoral 
dissertation proposals in 2010; five of those were funded. The success 
rate for standard proposals is currently about 25%; higher for doctoral 
dissertation proposals. A total of 182 principal investigators have 
been supported--of those 147 are scientists from Social, Behavioral and 
Economic Science domains and the balance are from areas as diverse as 
Computer and Information Sciences, Education, Physics, Biology and Law.

Results
    The program is beginning to achieve some of its ambitious goals. A 
SciSIP Principal Investigator (PI), who is a Business School Dean at a 
university with a strong focus on publicly-funded research, has noted 
``I know full well that this new program provides unique grant 
opportunities for faculty members in management, information systems, 
and other fields of business administration. He cites the following 
from his personal experience `` . . . in the field of business 
research, and business management, the Science of Science & Innovation 
Policy papers are featured in some of the best sessions at the Academy 
of Management Meetings. This innovative program has sparked 
considerable interest in public policy among management scholars, and 
particularly in business schools. The impact of the research you are 
funding struck home when I read the latest issue of BizEd, the magazine 
of The Association to Advance Collegiate Schools of Business (AACSB, an 
association of educational institutions, businesses, and other 
organizations devoted to the advancement of higher education in 
management education. It is also the premier accrediting agency of 
collegiate business schools and accounting programs worldwide. The 
research you have funded was prominently featured in their magazine, 
which is circulated to thousands of business schools worldwide.''
    Additionally, the impact of the SciSIP program has influenced 
several National Research Council studies, and thus impacted public 
policy with respect to technology commercialization and academic and 
public sector entrepreneurship. One is the Congressionally-mandated 
evaluation of the Small Business Innovation Research Program. Another 
is a committee entitled ``Best Practices in National Innovation 
Programs for Flexible Electronics'' and a third is ``Management of 
University Intellectual Property: Lessons from a Generation of 
Experience, Research, and Dialogue''
    In another example, a major part of the science and innovation 
policy debate has been the role of R&D and research tax credits whose 
budgetary cost is about $15 billion each year \1\. The obvious policy 
question is how effective are these tax credits in stimulating 
innovation? SciSIP funded PIs have examined changes in R&D tax credit 
generosity across countries and US states over time to evaluate 
business firms' response. They estimate that for every $1 of tax 
credits firms spend about $1 more on R&D. However, the research also 
extends to the impact of firms' response to the uncertainty about the 
duration of the federal Research and Experimentation (R&E) tax credit, 
which is not currently permanent and in fact expired at the end of 
2009. The uncertainty about renewal has offsetting effects--one is to 
increase short-term expenditures because firms think they need to do 
R&D now to get the credit. The reverse is to reduce overall R&D 
expenditures since uncertainty is detrimental to the expected payoffs 
from long-term investments such as fundamental R&D. The sign of the net 
effect is an empirical question, and again something the SciSIP PI has 
been working on--he finds a strong negative effect of uncertainty on 
general investment and employment, and is currently extending this work 
to R&D. The same PI presented in September 2009 to the Federal Reserve 
Bank Board of Governors, including Governor Bernanke; the Fed was 
trying to understand why the IT ``productivity miracle'', which was a 
major driver of US economic growth in the late 1990s, has slowed down 
by the late 2000s. One possible reason is that better use of IT is 
associated with organizational change, and the rate of organizational 
change has potentially slowed down; a major SciSIP-funded grant 
supports collecting a large national survey to try to examine why and 
how that change has occurred.
---------------------------------------------------------------------------
    \1\ http://www.ncseonline.org/NLE/CRSreports/08Aug/RL31181.pdf, 
CRS-3
---------------------------------------------------------------------------
    We can also learn from history. Another SciSIP PI has looked at two 
case studies in depth: the invention of the airplane and Edison's 
invention of the electric light. In both cases, the invention took a 
long period of time--110 years and 80 years, respectively. In both 
cases even the earliest attempts were based on many years [of work on 
mathematics and technology and hundreds of years of work of science. To 
illustrate, Sir Humphry Davy first demonstrated incandescence of 
materials in 1808. His work drew on the Voltaic pile (battery) invented 
in 1800, the Leyden jar developed in 1744, and carbon produced as 
charcoal during the Roman Empire no later than 25 A.D. Leyden jars 
depended on work by the ancient Greeks in 600 B.C. Thus, the foundation 
of the science behind electric light dates back 2400 years before 
incandescence, after which it took 80 more years of R&D to develop an 
effective electric light. The airplane also has a similarly long 
foundational period and duration of invention. In looking at various 
inventions, research has shown that there are several different weak 
methods but also some powerful strategies that vastly speed things 
along. Edison succeeded simply because he had enormous resources (the 
Edison Electric Light Company was capitalized at $300,000--about $30 
million today. The Wright Brothers were far more efficient at 
developing the airplane than Edison was in developing the electric 
light.

How is the NSF fostering collaboration between social and behavioral 
                    scientists and researchers from other disciplines, 
                    including computer scientists, engineers and 
                    physical scientists in science and technology 
                    policy research?

    This is being done in a number of ways: through the program call, 
through workshops, and through successful and visible interdisciplinary 
projects.

Program Description
    The SciSIP program explicitly encourages interdisciplinary 
cooperation in the program description. In particular, the program 
states

         ``The SciSIP program invites the participation of researchers 
        from all of the social, behavioral and economic sciences as 
        well as those working in domain-specific applications such as 
        chemistry, biology, physics, or nanotechnology. The program 
        welcomes proposals for individual or multi-investigator 
        research projects, doctoral dissertation improvement awards, 
        conferences, workshops, symposia, experimental research, data 
        collection and dissemination, computer equipment and other 
        instrumentation, and research experience for undergraduates. 
        The program places a high priority on interdisciplinary 
        research as well as international collaboration.''

Workshops
    Most of the workshops that have been hosted have been explicitly 
interdisciplinary in nature, bringing together domain scientists and 
social, behavioral and economic scientists, and have resulted in calls 
for proposals (called Dear Colleague Letters) supported by multiple NSF 
programs.
    Examples include:

        <bullet>  A two-day workshop to advance the scientific study of 
        federally funded centers and institutes as key elements in the 
        innovation ecosystem. The workshop brought together engineers 
        and natural, physical, and social scientists to address central 
        questions relating to the role of NSF-funded centers and 
        institutes in science and innovation policy.

        <bullet>  Two separate workshops studying innovation in 
        organizations. One of these, hosted by the Conference Board and 
        supported by four Social, Behavioral and Economic (SBE) 
        Sciences and three Computer and Information Science and 
        Engineering (CISE) programs, was attended by computer 
        scientists, SBE scientists and representatives from the 
        business community to examine the potential for cyber data to 
        better inform our understanding of innovation. A second 
        conference brought together 20 leading computer scientists 
        (from the fields of data management, data mining, security/
        privacy, social networks) and social/organizational scientists 
        (that included economists, sociologists, psychologists, 
        anthropologists) to identify emerging major challenges in the 
        collection and use of confidential data collection for the 
        study of innovation in organizations. SciSIP led the reusulting 
        development of a Dear Colleague Letter whose purposes was to 
        gather and create new Cyber-enabled data on innovation in 
        organizations, supported by six SBE and four CISE programs as 
        well as the Office of Cyber Infrastructure.

        <bullet>  A workshop in conjunction with the NSF's Chemistry 
        Division that examined the impact of science R&D in the United 
        States, focusing on chemical sciences and related industries. 
        This led to a Dear Colleague Letter from SciSIP and the 
        Chemistry Division reaching out to the chemistry and the social 
        science communities advising them of funding opportunities 
        related to assessing and enhancing the impact of R&D in the 
        chemical sciences in the United States.

        <bullet>  An interdisciplinary workshop which examined the 
        potential for new visualization tools to track the impact of 
        investments in science. These possibilities include tracing the 
        impact of basic research on innovation, examining the changing 
        structure of scientific disciplines, studying the role of 
        social networks in the dispersion of scientific innovations as 
        well as making comparisons of how the U.S. compares 
        internationally in science. That workshop brought together 
        researchers from a broad range of disciplines to examine such 
        key questions, and to engage the federal science community in a 
        discussion about whether and how the tools could be used in the 
        federal context.

        <bullet>  Three workshops have directly engaged CISE and SBE 
        researchers in enhancing NSF's ability to describe its research 
        portfolio. The SciSIP program worked with the CISE directorate 
        to form an Advisory subcommittee to provide advice on 
        approaches to improving the way NSF interacts with its proposal 
        and award portfolio. Although NSF staff still rely on 
        traditional methods to do their jobs, such methods are becoming 
        less practical given the rapidly changing nature of science, 
        the increased recognition of the importance of funding 
        interdisciplinary and potentially transformative research, and 
        the significant increase in the number of proposals submitted. 
        Individuals with research expertise in machine learning, data 
        mining, information visualization, human-centered computing, 
        science policy, and visual analytics were recruited for this 
        effort. Nine teams were put together and charged with providing 
        advice to NSF on identifying and demonstrating techniques and 
        tools that characterize a specific set of proposal and award 
        portfolios. Their report, in turn, will advise NSF on how to 
        better structure existing data, improve use of existing machine 
        learning, analysis, and visualization techniques to complement 
        human expertise and better characterize its programmatic data. 
        The results should help NSF identify tools that will help 
        fulfill its mission including identifying broader impacts, as 
        well as funding transformative and interdisciplinary research. 
        NSF has also engaged program managers across the federal 
        government so that our collective approaches can inform not 
        only us, but other science agencies.

        <bullet>  A workshop responding to Congressman Holt's request 
        for better ways to measure the economic impact of federal 
        research investments. SciSIP, together with NIH and other 
        agencies, is supporting the National Academy of Sciences' Board 
        on Science, Technology, and Economic Policy (STEP) and 
        Committee on Science, Engineering, and Public Policy (COSEPUP) 
        2011 workshop on science measurement. This workshop is aimed at 
        discussing new methodologies and metrics that can be developed 
        and utilized for assessing returns on research across a wide 
        range of fields (biomedical, information technology, energy, 
        and other biological and physical sciences, etc.), while using 
        background papers that review the methodologies used to date as 
        a starting point.

    As one SciSIP PI has noted, ``SciSIP.. creates a domain around 
which researchers from a variety of disciplines--biology and physics 
and economics as well as information science and public policy--can 
coalesce to pursue research topics in this domain for their own sake, 
rather than in the interstices of other projects in their home 
disciplines. As such, it acts as an attractor for top researchers 
across the natural and social sciences, allowing them to pursue their 
interests in SciSP topics''

Successful Examples
    There are a number of examples of the fruits of these activities. 
For example, SciSIP funded research supports a University of Michigan 
research team consisting of a sociologist, a bioethicist specializing 
in informed consent and stem cell regulation, a bioethicist trained as 
a molecular biologist who is working on cell banking, and a post-doc in 
stem cell biology. The combination is a powerful one as it matches 
expertise with social scientific data and analysis methods, with deep 
knowledge about both the policy and the science.
    Similarly, the interdisciplinary work of two SciSIP Pis has helped 
developed new metrics of the transmission of knowledge. These metrics 
go beyond citation metrics to usage metrics and help us better 
understand the impact that federal investment in research is having on 
research results. By mapping the structure of science and looking at 
how this structure changes over time, we can see the shifting landscape 
of scientific collaboration and understand the new emerging 
disciplines. That will enable us to to anticipate these changes and 
properly target research funding to new and vibrant areas. For 
instance, their work provides a striking example of the emergence of 
neuroscience over the past decade--changing from an interdisciplinary 
specialty to a large and influential stand alone discipline on a par 
with physics, chemistry, or molecular biology.

How is NSF fostering the development of science and technology policy 
                    degree programs and courses of study at colleges 
                    and universities? What is the current scope and 
                    level of support for such programs?

    As with many NSF programs, the SciSIP program explicitly encourages 
submissions that support graduate student development. While there is 
no direct targeting of funds to policy programs, SciSIP supported 28 
researchers from science and technology policy programs. In an example 
of the type of support that has been provided to expand the course of 
study, over 250 undergraduate students from Economics (behavioral 
economics), Cognitive Science, Electrical and Computer Engineering, and 
Industrial Engineering have participated in a project at Purdue 
University, which is an interdisciplinary collaboration linking social 
scientists and computer scientists and engineers.
    A further example is the work done by Marcus Ynalvez at Texas A&M 
International University, which has the explicit goal of mentoring 
TAMIU Graduate Students (Students from Historically Underrepresented 
Populations): The hands-on training and mentoring of TAMIU graduate 
students represents an attempt to engage Hispanic students in 
international scientific research activities with the intention of 
introducing them to the possibilities of developing professional 
careers in science and technology. These students are currently 
gathering, synthesizing and reviewing literature materials for the 
project's manuscripts, publications, and reports. With the data from 
the Japan, Singapore, and Taiwan surveys, these students will be 
analyzing data using a number of statistical software such as: 
Statistical Packages for the Social Sciences (SPSS), STATA, and 
Statistical Analysis System (SAS). They will learn how to interpret 
statistical results associated with the family of generalized linear 
regression models, namely: linear, logistic, and negative binomial 
regression models, analysis of variance, and path analysis. Not only 
have the TAMIU graduates gained actual research experience, they have 
also developed professional relationships with students and professors 
from the prestigious National University of Singapore

How is NSF encouraging a community of practice in science of science 
                    policy and the dissemination of policy to policy 
                    makers

    A major avenue has been the linkage with the Science of Science 
Policy Interagency group, which is discussed in more detail below. In 
addition, the listserv and the website have been very important 
dissemination vehicles.
    However, the most important vehicle has been two PI workshops with 
the explicit goal of fostering further collaboration among the PIs 
actively engaged in the study of Science of Science & Innovation Policy 
and the link to the federal community. The 2009 workshop had three 
overarching goals:

        <bullet>  to provide NSF with an early opportunity to organize 
        a collegial discussion of work in progress under SciSIP's two 
        rounds of awards well before this work will begin to appear in 
        professional forums and publications;

        <bullet>  to begin to develop from among the purposefully 
        diverse set of disciplinary perspectives reflected in SciSIP's 
        two solicitations and subsequent awards, a ``community of 
        experts across academic institutions and disciplines focused on 
        SciSIP;'' and

        <bullet>  To identify new areas of emphasis for support in 
        future SciSIP solicitations.

    The 2010 workshop, scheduled for October 19, 2010 seeks to focus on 
two objectives that flow from the National Science and Technology 
Council's 2008 report: The Science of Science Policy: A Federal 
Research Roadmap. The first task, as called for in the Roadmap report, 
is ``to advance the scientific basis of science policy so that limited 
Federal resources are invested wisely.'' The second is to build a 
``community of practice'' between Federal science and technology 
policymakers and researchers engaged in the development of new 
theories, tools of analysis, and methods for collecting and analyzing 
data.
    This October 2010 workshop will consist of brief presentations by a 
number of SciSIP grantees who have been invited to participate via a 
competitive peer review of abstracts previously submitted based on 
their ongoing research. These presentations will be followed by 
roundtable discussions led by federal policymakers who will comment on 
the relevance of the research, followed then by open discussions among 
all participants. A networking session will be scheduled at the close 
of the formal sessions to allow for continued discussion.

2) As a Co-chair of the Science of Science Policy Interagency Group 
                    under the NSTC please briefly describe the work of 
                    that group and how the various federal science 
                    agencies are collaborating on the development and 
                    implementation of science of science policy tools 
                    to improve the management and efficiency of their 
                    R&D portfolios and other science and technology 
                    related programs.

    In 2006, the National Science and Technology Committee's 
Subcommittee on Social, Behavioral and Economic Sciences (SBE) 
established an Interagency Task Group on Science of Science Policy 
(ITG) to serve as part of the internal deliberative process of the 
Subcommittee. In 2008, this group developed and published The Science 
of Science Policy: A Federal Research Roadmap which outlined the 
Federal efforts necessary for the long-term development of a science of 
science policy, and presented this Roadmap to the SoSP Community in a 
workshop held in December 2008. The ITG's subsequent work has been 
guided by the questions outlined in the Roadmap and the action steps 
developed at the workshop.
    The development of the STAR METRICS (Science and Technology for 
America's Reinvestment: Measuring the EffecT of Research on Innovation, 
Competitiveness and Science) program is the number one priority of the 
interagency group. The initiative is a multi-agency venture led by the 
National Institutes of Health, the National Science Foundation (NSF), 
and the White House Office of Science and Technology Policy (OSTP).
    Another major activity is sponsoring a series of workshops to bring 
the science agencies together to share what is already established in 
the field, identify gap areas and outline steps forward for the 
creation of better tools, methods, and data infrastructure.
    The first of these workshops was held in October, 2009 to delve 
into the issues surrounding performance management of federal research 
and development portfolios. The focus was on sharing current practices 
in federal R&D prioritization, management, and evaluation. Over 200 
agency representatives attended. The conference featured 27 speakers 
and panelists, representing 20 federal agencies, offices, and 
institutions, and over 30 poster presenters, representing more than 25 
agencies and institutions. Topics that were discussed included:

        <bullet>  Methods to set federal research priorities and 
        strategic directions;

        <bullet>  The use of metrics to improve federal R&D efficiency; 
        and

        <bullet>  Ways in which research evaluations can inform current 
        and future R&D decisions.

    It addressed the following key questions:

        <bullet>  How do federal science and technology agencies 
        systematically identify and prioritize research and development 
        alternatives? How can these processes be strengthened?

        <bullet>  How can research-performance metrics be used to 
        improve research efficiency? How can these metrics be improved?

        <bullet>  How do research-performance evaluations inform and 
        improve R&D investment decisions? How can these feedback loops 
        be reinforced?

    While the 2009 workshop developed a dialogue within the federal 
science policy community, the ITG has a workshop planned for December 
2010 that engages the federal community with the academic community in 
advancing the ``Science of Science Measurement''. The first goal is to 
create a dialogue between the Federal S&T agencies and the research 
community about relevant models, tools, and data that advance 
scientific measurement in key areas of national S&T interest. The 
second objective is to identify a joint Science of Science Policy 
(SoSP) research agenda for the Federal S&T agencies and the research 
community. The workshop has four modules intended to advance 
measurement in: 1) Economic benefits; 2) Social, health and 
environmental benefits; 3) S&T workforce development; and 4) Technology 
development and deployment. Four academic researchers will be 
presenting in each module, with a rapporteur synthesizing the 
presentation at the end of each module.
    The audience will be primarily science policy practitioners from 
the Federal agencies who are interested in very practical issues, such 
as: getting new ideas about how to manage their portfolios in a more 
scientific manner; developing performance and outcomes metrics; 
measuring the return on investment; and using science to identify 
emerging trends in the U.S. scientific enterprise.
    Another activity has been the establishment of a website to provide 
information on best practices to Federal and non-Federal agencies. The 
website (http://scienceofsciencepolicy.net) was launched in January 
2010, and has become a model for other interagency groups (including 
the Forensic Science interagency group). The web site serves as a 
repository for data, documents, research papers, and communication 
tools for the communities of users. , The site receives over 2,000 hits 
a month. The associated Listserv is the highest visibility listserv in 
science policy, and has over 720 members.
    The interagency group meets monthly, and has active participation 
by over 15 agencies. It is actively providing input to the Center of 
Excellence on Science Policy being established by the State Department 
in the Middle East.

3) Please provide a brief description and update on the status of the 
                    OSTP led project on science metrics, known as STAR 
                    METRICS, including a description of international 
                    engagement and interest in this effort

    The STAR METRICS project is a federal and university partnership to 
document the outcomes of science investments to the public. The 
benefits of STAR METRICS are that a common empirical infrastructure 
will be available to all recipients of federal funding and science 
agencies to quickly respond to State, Congressional and OMB requests. 
It is critical that this effort takes a bottom up approach that is 
domain specific, generalizable and replicable.
    Currently, the project is structured in two phases:

        -  Phase I: The development of uniform, auditable and 
        standardized measures of the initial impact of ARRA and base 
        budget science spending on job creation.

        -  Phase II: The development of broader measures of the impact 
        of federal science investment, grouped in four broad 
        categories:

                <bullet>  Scientific knowledge (such as publications 
                and citations) and, later,

                <bullet>  Social outcomes (such as health and 
                environment),

                <bullet>  Economic growth (through patents, firm start 
                ups and other measures),

                <bullet>  Workforce outcomes (through student mobility 
                and employment),

    Phase I of the STAR METRICS project began in earnest in March of 
2010 with funds formally designated for the project. The participation 
agreement was signed in May 2010, and a press release was issued by the 
three lead agencies: NIH, NSF and OSTP \2\. As noted in that press 
release:
---------------------------------------------------------------------------
    \2\ http://www.whitehouse.gov/sites/default/files/microsites/ostp/
STAR%20METRICS
%20FINAL.pdf

         ``A new initiative promises to monitor the impact of federal 
        science investments on employment, knowledge generation, and 
        health outcomes. The initiative--Science and Technology for 
        America's Reinvestment: Measuring the EffecT of Research on 
        Innovation, Competitiveness and Science, or STAR METRICS--is a 
        multi-agency venture led by the National Institutes of Health, 
        the National Science Foundation (NSF), and the White House 
---------------------------------------------------------------------------
        Office of Science and Technology Policy (OSTP).''

    In Phase I, through a highly automated process, with essentially no 
burden on scientists and minimal burden for administrators, STAR 
METRICS collects longitudinal employment data from the participating 
institutions to be able to assess the number of jobs created or 
retained (or lost) through federal funding support. The system is set 
up such that all jobs will be captured and not just principal 
investigators and co-principal investigator. In addition, in Phase I, 
STAR METRICS can provide estimates of jobs supported through facilities 
and administration (F&A) costs and through various procurement 
activities in the institutions.
    STAR METRICS will also help the Federal government document the 
value of its investments in research and development, to a degree not 
previously possible. Together, NSF and NIH have agreed to provide $1 
million in funding a year for the next five years.
    More agencies are joining the STAR METRICS consortium. While 
meetings of the Consortium are convened by OSTP, the lead agency is 
NIH, which is hosting the data infrastructure. The official STAR 
METRICS website will be available September 30 2010. NSF is providing 
key leadership in engaging the scientific community, particularly 
through the SciSIP program.
    Phase II of the project expands the data infrastructure to 
incorporate the broader impact of science investments on scientific, 
social, economic and workforce outcomes. In keeping with the bottom up 
approach of the program, STAR METRICS is beginning a formal set of 
consultations with the scientific community to understand what data 
elements and what metrics the community would find useful to find in 
STAR METRICS. The first of these will occur October 22, 2010, with a 
meeting with Vice Presidents for Research of interested institutions. 
Other meetings will follow with research agencies and other interested 
groups.
    In a very short period of time since formalizing the project, over 
100 research-intensive universities, mostly from the Federal 
Demonstration Partnership (FDP), have expressed interest in 
participating in STAR METRICS; about 20 are contributing data. 
Universities have expressed enthusiasm and support for the project.
    Science is fundamentally an international endeavor. And so must be 
its evaluation. In fact, there has been substantial international 
interest. Members of the STAR METRICS team have provided information or 
directly briefed Brazilian and Japanese science and technology 
agencies. The State Department is actively interested in learning about 
the program to advance the science of science policy in the Middle 
East.
    Our most active international counterpart, however, is the European 
Union. A major presentation was given to the European Parliament in 
April \3\. A joint EU/US conference has been proposed for March 2011 in 
the Rockefeller Foundation's Bellagio Center. The goal is to produce a 
roadmap that will outline a path for creating a US/European 
collaboration in developing a common theoretical and empirical 
infrastructure to describe and assess the outcomes of science 
investments. To achieve this, it will bring together key European and 
US science policy experts and makers, administrators and academic 
researchers. The group is carefully chosen to consist of the key 
players from the US side who have the experience in developing such an 
infrastructure in the US. The European attendees will consist of 
individuals who have both the deep understanding of the issues and the 
ability to effect change in Europe in a collaborative framework with 
the US.
---------------------------------------------------------------------------
    \3\ http://www.euractiv.com/en/science/eu-looks-to-us-model-for-
measuring-rd-impact-news-448950
---------------------------------------------------------------------------
    The outcomes will include a roadmap that represents a combined 
effort to build on and extend existing efforts in both regions: notably 
the US investment in the STAR METRICS program and the European efforts 
to build better assessments for their investments. It is hoped that the 
roadmap will have the same success that the Science of Science Policy 
Interagency Roadmap had in the United States and that in the EU the 
road map will be the basis for including assessment measures in future 
legislation implementing science programs.

Conclusion

    The NSF's Science of Science and Innovation Policy program, the 
NSTC's Interagency SOSP ITG, along with STAR METRICS, represent the 
first efforts to construct a scientific framework that is supported by 
multiple agencies and multiple institutions--all jointly engaged. It 
represents a true bottom up approach to providing an evidence basis for 
U.S. science policy. Its success is important for decision-makers: in a 
nutshell, you can't manage what you can't measure and what you measure 
is what you get.
    NSF's innovative Science of Science and Innovation Policy program, 
and STAR METRICS, can help all of us do a better job in explaining this 
essential symbiosis.
    This concludes my testimony, Mr. Chairman. I look forward to 
answering any questions you or Members may have.

                      Biography for Julia I. Lane
    Dr. Julia I. Lane is the Program Director of the Science of Science 
& Innovation Policy program at the National Science Foundation. Her 
previous jobs included Senior Vice President and Director, Economics 
Department at NORC/University of Chicago, Director of the Employment 
Dynamics Program at the Urban Institute, Senior Research Fellow at the 
U.S. Census Bureau and Assistant, Associate and Full Professor at 
American University.
    Julia has published over 60 articles in leading economics journals, 
and authored or edited six books. She became an American Statistical 
Association Fellow in 2009. She has been the recipient of over $20 
million in grants; from foundations such as the National Science 
Foundation, the Sloan Foundation, the MacArthur Foundation, the Russell 
Sage Foundation, the Spencer Foundation, the National Institute of 
Health; from government agencies such as the Departments of Commerce, 
Labor, and Health and Human Services in the U.S., the ESRC in the U.K., 
and the Department of Labour and Statistics New Zealand in New Zealand, 
as well as from international organizations such as the World Bank.
    She has organized over 30 national and international conferences, 
received several national awards, given keynote speeches all over the 
world, and serves on a number of national and international advisory 
boards. She is one of the founders of the LEHD program at the Census 
Bureau, which is the first large scale linked employer-employee dataset 
in the United States. A native of England who grew up in New Zealand, 
Julia has worked in a variety of countries, including Australia, 
Germany, Malaysia, Madagascar, Mexico, Morocco, Namibia, Sweden, and 
Tunisia.
    Her undergraduate degree was in Economics with a minor in Japanese 
from Massey University in New Zealand; her M.A. in Statistics and Ph.D. 
in Economics are from the University of Missouri in Columbia. She is 
fluent in Swedish and German and speaks conversational French.

    Chairman Lipinski. Thank you, Dr. Lane. Dr. Sarewitz.

STATEMENT OF DANIEL SAREWITZ, CO-DIRECTOR OF THE CONSORTIUM FOR 
    SCIENCE, POLICY & OUTCOMES AND PROFESSOR OF SCIENCE AND 
               SOCIETY, ARIZONA STATE UNIVERSITY

    Dr. Sarewitz. Thank you, Chairman Lipinski and Ranking 
Member Ehlers. I very much appreciate the invitation and the 
opportunity to testify. So, my name is Daniel Sarewitz. I am a 
Professor of Science and Society at Arizona State University 
where I Co-Direct the Consortium for Science Policy and 
Outcomes, which works to understand and improve the linkages 
between science and technology and social outcomes. We are 
located on ASU's Tempe campus. We also have a location here in 
DC. We are a highly interdisciplinary and collaborative 
organization involving researchers at dozens of other 
institutions. We are also fortunate to receive generous grant 
funding from NSF, including from the Science of Science and 
Innovation Policy Program, so I declare my vested interest in 
the outcomes of this hearing.
    I would like to make three brief points in support of my 
over-extensive written testimony. The first is about the 
importance of the SciSIP Program itself. With shrinking 
discretionary budgets, vibrant economic competitors, and 
daunting challenges to our well-being, the Nation needs 
effective tools for making better decisions about how to 
design, assess, and set priorities for our science and 
innovation enterprise. For the most part, we lack these tools, 
as we have already heard. As former Presidential Science 
Advisor Jack Marburger said in 2005, ``the nascent field of 
social Science of Science Policy needs to grow up, and 
quickly.''
    With modest resources, SciSIP is mobilizing a community of 
researchers to focus on the complex problem of how to bring the 
most out of our public investment in R&D. SciSIP reacted 
quickly to support research assessing the impacts of stimulus 
funding for R&D, and is beginning with NIH to take on the 
incredibly complex problem of evaluating what the nation gets 
for its enormous investment in bio-medical R&D. These are 
really difficult challenges and it is hard to see how this 
committee and others at the helm of the R&D enterprise can 
guide it effectively in the absence of such efforts.
    A second point is that outputs are not outcomes. And SciSIP 
needs to focus on outcomes. Outputs are immediate products of 
R&D like publications, and patents, and Ph.D's. Outcomes are 
what people care about, not just economic growth, but of course 
economic growth, but also secure and affordable food supplies 
and energy supplies, high quality public health, a clean 
environment, expanding job opportunities and strong national 
defense. The 40-year war on cancer has yielded the output of 
remarkable new scientific knowledge yet very modest gains in 
public health outcomes despite the tens of billions spent. 
Thirty years of energy R&D output have done little to advance 
the outcome of reducing our vulnerability to energy-based 
threats to security, economy, and environment. Research on 
science and innovation policy to date has given us a pretty 
good idea how to design and assess science policies to advance 
outputs. But we still have a lot to learn about how to 
implement and assess successful outcome-based science and 
innovation policies.
    My final point is that research on outcome-based science 
and innovation policies and the use of such research by 
decision makers are not separate problems. While the SciSIP 
Program is commendably serious about disseminating its research 
and its results to policy makers, the dissemination problem is 
also structural. That is it is built into the way we organize 
much research including SciSIP, and its great strength in 
supporting bottom-up inquiry on fundamental problems is also a 
weakness when there is an urgent need for new knowledge, the 
need that Dr. Marburger pointed out. Such cases require close 
ties between those who do research and decision makers who 
might use research results. We already heard from Julia Lane 
about her efforts to create those ties. Now on the one hand, 
these ties allow researchers to understand the needs of 
decision makers and to recognize the types of information that 
will be both usable and used. But at the same time, close ties 
allow decision makers to understand what research can and 
cannot do for them. Such mutual understanding breeds trust and 
value, and usable science.
    There are many examples of federal programs that link 
research performance and research use, including USDA's 
Agricultural Extension Service, the USGS Earthquake Hazards 
Program, and NOAA's Regional Integrated Sciences and 
Assessments Program. Similarly, DARPA is justifiably well 
regarded for its capacity to connect the technology needs of 
DOD to research groups in academia and the private sector. 
These and other examples are discussed in the handbook ``Usable 
Science'', which I just happened to have brought along with me, 
which summarizes the results of CSPO's [Consortium for Science, 
Policy & Outcomes] five year NSF Decision Making Under 
Uncertainty project, carried out jointly with researchers of 
the University of Colorado.
    These lessons can be applied to SciSIP. Let me mention 
three possibilities. First, NSF could sponsor one or more large 
centers for SciSIP research, education, and outreach with a 
core requirement to build strong, ongoing collaborative links 
between researchers and science policy decision makers. Second, 
NSF could work with mission-oriented R&D agencies to integrate 
SciSIP activities into a range of existing outcome-oriented 
programs. Third, NSF could require all of its center-scale 
awardees, such as Science and Technology Centers and 
Engineering Research Centers, to be designed from the outset to 
include integrated SciSIP components.
    Through these sorts of approaches, SciSIP could enhance its 
capacity to produce usable knowledge for the near to medium 
term and help accelerate a convergence between science and 
innovation policy research and policy decisions across a range 
of R&D outcome priorities. Thank you for your attention. I look 
forward to discussing these issues more.
    [The prepared statement of Dr. Sarewitz follows:]
                 Prepared Statement of Daniel Sarewitz
    Mr. Chairman, Members of the Committee, thank you for inviting me 
to testify today. My name is Daniel Sarewitz, and I am co-founder and 
co-director of the Consortium for Science, Policy, and Outcomes at 
Arizona State University, as well as Professor of Science and Society 
at ASU. My formal training was in geosciences, but for more than 20 
years I have worked in science and technology policy, first as a AAAS 
Congressional Science Fellow and then a staffer on this Committee, 
working for Chairman George E. Brown, Jr., and more recently as an 
academic, at Columbia University and now at ASU. So I'm very pleased to 
return to the place that launched me on a new and incredibly 
interesting and exciting career path and intellectual journey, and 
honored that you have asked for my input to the Committee's 
deliberations on the status of the science of science and innovation 
policy.

Introduction: Input-Output Science and Innovation Policy

    Most people agree that government support of research and 
development is an essential foundation of today's complex, knowledge-
based, high technology society. Yet the problem of how to make the most 
out of the nation's investment in R&D remains amazingly poorly 
understood. This problem has been actively debated in Congress since 
World War II. In the interim the annual public investment in R&D has 
grown from a few tens of millions of dollars to about 140 billion 
dollars. Yet, throughout this period of remarkable growth--and, I 
should say, remarkable bipartisan support for such growth, exemplified 
by this Committee--the basic principles, terms of debate, and policy 
tools for guiding investment and measuring its effects have changed 
remarkably little.
    For more than sixty years, the core of science policy has been the 
belief that more money for R&D translates into more benefits for the 
nation. Science policy has, above all else, been science budget policy. 
The capacity of the nation to solve problems related to science and 
technology has been measured by the incremental growth of the R&D 
budget. The idea that the size of the R&D budget is a measure of the 
social value of science and technology remains the bedrock of science 
policy.
    Three other powerful beliefs have dominated science policy decision 
making. The first is that research becomes valuable for society as part 
of a linear progression starting with basic discovery and leading to 
application, either in the form of technological innovation, or 
information to inform decision making. The second, related belief is 
that there is a clear distinction between research activities aimed at 
creating new knowledge, and research aimed at applying that knowledge 
to solving problems. The third belief is that scientific excellence, as 
defined and assessed by scientists themselves, typically through the 
peer review process, is the best measure of the potential value of 
science for society.
    The result of these beliefs has been a national R&D enterprise that 
is largely understood and discussed in terms of simple inputs--how much 
money is being spent on which type of science?--and simple outputs--how 
much scientific knowledge is being produced? That this simple input-
output way of understanding science and technology policy led to the 
world's largest and most productive R&D enterprise is, however, much 
more of a happy historical accident than an endorsement of this way of 
looking at R&D policy.
    Coming out of World War II, the U.S. simply had no serious 
scientific or economic competitors, so we had a huge head start that 
only began to be seriously eroded in the 1980s. Moreover, the U.S. R&D 
enterprise as a whole was--and still is--so much bigger than that of 
any other nation that simply as a function of scale it could--and still 
does--outperform everyone else. An additional crucial point is that by 
far the dominant player in translating the public R&D investment into 
tangible societal outcomes was the Department of Defense. The core of 
DOD's approach was the cultivation of very powerful linkages between 
high-tech private sector firms, research universities, and the DoD 
itself, an arrangement that was responsible for creating most of the 
important technological systems that undergird our society and our 
economy today.
    I present this thumbnail sketch to explain how we have arrived at 
the situation in which we find ourselves today. The limits of the post-
War input-output approach, as I have said, became increasingly clear 
starting in the 1980s, with the rise of serious economic and 
technological competitors, especially in east Asia; with the end of the 
Cold War, and the decline of DoD's catalytic role in civilian 
technological innovation; and with the increasing awareness of an array 
of social challenges that seemed to demand scientific and technological 
solutions--from cancer and emerging infectious diseases to energy 
security and environmental quality. Yet if one looks at the endless 
series of reports over the past decades sounding the alarm bells about 
the nation's science and technology enterprise, one finds the problem 
still discussed predominantly in terms of the same old input-output 
measures: how much are we spending, how many scientists are we 
producing, how many publications or patents are issued, and how do 
these input-output numbers compare to our economic competitors?
    The problem with the input-output model is that it can't tell us 
very much about what actually matters: how the size, organization, and 
productivity of the R&D enterprise itself relates to the achievement of 
the societal outcomes that we desire and expect. Because pretty much 
everyone assumed that these outcomes flowed automatically from the R&D 
enterprise, as long as it was big and scientifically productive, there 
seemed to be no reason to worry about how the enterprise worked. These 
assumptions put a damper on research, as well as debate, about the 
complex relations between scientific advance, technological innovation, 
and the well-being of society. Why try to understand these issues if 
the only thing that really mattered was the size of the budget?
    But in an era of constrained resources and mounting challenges to 
our well-being, the limits of the input-output approach have become 
impossible to ignore. We cannot ignore them because we need to make 
difficult choices about how to allocate scarce resources. We also 
cannot ignore them because we are faced with strong prima fascia 
evidence that the input-output approach is leading to significant 
science and innovation policy failures. For example, the National 
Institutes of Health's forty year War on Cancer has yielded remarkable 
new scientific knowledge, yet remarkably modest public health benefits 
for the tens of billions spent. The devastation of New Orleans by 
Hurricane Katrina occurred despite the existence of comprehensive 
scientific knowledge about the inevitability and precise consequences 
of such an event. Thirty years of energy R&D has left the nation no 
less vulnerable to energy-based security, economic, and environmental 
threats than it was when the Department of Energy was created. These 
are not input-output problems, but they are science and innovation 
policy problems.
    In 1992, this Committee issued a brief ``Chairman's Report'' 
entitled the ``Report of the Task Force on the Health of Research,'' 
which pointed at the need to re-think basic assumptions about science 
and innovation policy. (As a Committee staffer at the time, I was 
privileged to be one of the members of that Task Force.) While there 
certainly were, at that time, small pockets of academic scholarship on 
the links between science policy and societal outcomes, and while some 
federal S&T programs had of course had great success in achieving the 
outcomes that the public expected from them, the fact is that there 
existed in the United States at the end of the 20th century an 
extraordinarily modest capacity to develop knowledge, tools, and human 
resources that would allow the nation to improve its capacity to turn 
progress in S&T into progress toward desired societal outcomes.
    A turning point in achieving high level attention and action came 
in 2005, when President Bush's science advisor, John Marburger, 
speaking at the Science and Technology Policy Colloquium of the 
American Association for the Advancement of Science, declared that 
``The nascent field of the social science of science policy needs to 
grow up, and quickly.'' His point was that the nation could no longer 
afford to set policy for one of it's most important areas of public 
investment on the basis of simplistic ideas that had arisen in a very 
different world, half-a-century ago. The National Science Foundation 
responded to the urgency of Dr. Marburger's call by creating the 
Science of Science and Innovation Policy (SciSIP) program.

Committee Question 1. (A) Please provide an overview of the research 
                    activities of the Consortium for Science, Policy, 
                    and Outcomes. (B) How are you facilitating 
                    interdisciplinary collaborations within the 
                    Consortium? (C) What new and continuing areas of 
                    research in the science of science and innovation 
                    policy (SciSIP) could significantly improve our 
                    ability to design effective programs and better 
                    target federal research investments? (D) What are 
                    the most promising research opportunities and what 
                    are the biggest research gaps?

Background to CSPO:
    The Consortium for Science, Policy, and Outcomes (CSPO) was 
conceived in 1997 during discussions between myself and Michael M. 
Crow, who was then Executive Vice Provost at Columbia University, and 
formally launched in 1999. The decision to create CSPO was made for 
much the same reasons that SciSIP was created: despite the overwhelming 
importance of science and technology in our society, policy makers and 
scholars almost completely lacked the knowledge and tools necessary to 
make informed and effective decisions. CSPO was founded as one small 
effort to begin to reverse this lack of capacity.
    When Michael Crow became President of Arizona State University he 
asked me to move to ASU as well, and gave me the opportunity to help 
transform CSPO from a small research and policy center to a broader 
consortium with expanded ambition and reach. Today this consortium 
operates at three organizational levels: First, there is a core group 
of fifty or so faculty, researchers, students, and staff who work 
directly in CSPO, mostly in Arizona but with several of us located here 
in Washington, DC. Second, there is a significantly expanded group of 
collaborators throughout ASU as a whole, ranging from many of the 
university's top scientists and engineers, to faculty and students in 
ASU's programs on public policy, law, business, architecture and 
design, communications, journalism and even the arts. Third, we have 
deep and persistent collaborations with researchers and students at 
other universities in the U.S. and around the world. Virtually all of 
our major research thrusts are carried out in collaboration with 
individuals or groups at other universities, and CSPO hosts an 
continual stream of visiting scholars and students, many from foreign 
universities and research institutions, for periods of up to two years.
    In briefly describing CSPO's major research activities, I want to 
emphasize a point that should be obvious but is often lost in 
discussions of the Science of Science and Innovation Policy. Public 
support for science and innovation is justified for a wide range of 
reasons, many of which are non-economic. For example, we count on 
science to provide a safe, abundant, and tasty food supply for a 
growing population; ensure the protection of our natural environment 
and the provision of reliable and affordable energy; protect and 
improve our health; help ensure national security; and create new and 
challenging work opportunities. The reason I belabor this obvious point 
is that in fact we are particularly empty-handed when it comes to 
understanding how best to design and assess S&T policies aimed at 
advancing these non-economic outcomes. This is the arena where CSPO 
focuses most of its efforts.
    CSPO is engaged in a wide range of research activities that seek to 
advance knowledge, real-world practice, and human resources in this 
broad domain of science and innovation policy for social outcomes. And 
I want to gratefully acknowledge the National Science Foundation's 
generosity in providing peer-reviewed grant support for many of our 
most important and I would say high-risk, high-pay-off ideas, through a 
variety of its programs, including SciSIP.
    At the core of all of our research is a commitment to looking at 
S&T activities as part of larger social systems. Trying to understand 
and assess the outcomes of science and innovation by studying and 
measuring research and development activities alone is like analyzing a 
family's home life by studying lumber mills and brick kilns. What makes 
a given line of research valuable for society? Of course the science 
itself must be of high quality, just like a fine home needs to be 
constructed of quality materials. But for investments in science and 
innovation to support desired social outcomes, many other elements will 
come into play: the ways that scientists choose projects; the culture 
and organization of research institutions; public-private interactions; 
economic incentives and regulatory structures; public preferences and 
behavioral norms--all this and more make up the process by which 
knowledge, innovation, and social benefit are connected.

1. (A) Please provide an overview of the research activities of the 
                    Consortium for Science, Policy, and Outcomes.

    With this background, let me outline some of our efforts, in four 
areas of direct relevance to the science of science and innovation 
policy.
    (1) CSPO's flagship research program is our Center for 
Nanotechnology in Society (CNS), an NSF Nano-scale Science and 
Engineering Center which has just been renewed for a second and final 
five-year grant period, under the directorship of CSPO co-director 
Professor David Guston. CNS takes a systems view of technological 
innovation to ask: what are the factors that may influence whether an 
emerging domain of technology, in this case nanotechnology, is able to 
move toward areas of social need and desired outcomes? CNS involves 
multiple universities and researchers from multiple disciplines 
bringing numerous specialties to bear on what we call ``real-time 
technology assessment,'' or a capacity to understand linkages between 
new knowledge, emerging innovations, and societal outcomes--as they are 
unfolding.
    Among the many specific research activities encompassed by CNS are 
relatively traditional tools for assessing scientific productivity such 
as citation and patent analysis, as well as proven methods for tracking 
public opinions and preferences. But we also bring social scientists 
together with nanoscale scientists and engineers to reflect on the 
choices available to them for advancing nanotechnology, and to develop 
and discuss future scenarios of nanotechnology-enabled society. We 
cultivate ongoing discussions with the public about potential benefits, 
problems, and dilemmas of nanotechnology. We bring graduate students 
working on nanotechnology into discussions of science policy and social 
outcomes. We work with science and technology museums to create 
programs and exhibits that go beyond technical explanations to help 
people understand the ways that nanotechnology and society influence 
each other.
    In total, what we are trying to create with CNS is a test-bed for 
developing a more holistic understanding of science, innovation, and 
social outcomes, where the choices made about science, innovation, and 
their application in society are brought out in the open and discussed 
even at the earliest stages of the innovation process, to bring into 
better alignment the directions of science and innovation, and the 
aspirations and needs of society. I also hope it is clear from this 
brief description that standard categories of ``basic research,'' 
``applied research,'' ``education,'' and ``outreach'' are not pursued 
separately, but are part of an integrated approach at CNS.
    I want to emphasize three elements of U.S. science policy that made 
this research program possible. First was the explicit desire of this 
Committee and the Congress in general, as expressed in the 21st Century 
Nanotechnology Research and Development Act of 2003, to ensure that 
nanotechnology advanced along with a capacity to understand unfolding 
social implications. Second was the complementary recognition by the 
National Nanotechnology Initiative, under Mihail Roco's early 
leadership, and the National Science Foundation, that understanding the 
social aspects of nanotechnology should be an important aspect of the 
overall nanotech research agenda. And third was ASU itself, a 
university that has made huge strides in reducing the barriers to true 
interdisciplinary collaboration, and that is simultaneously committed 
to connecting the work of its faculty and students to the needs of 
society.
    (2) A second project I want to mention is Science Policy Assessment 
and Research on Climate (SPARC), funded through NSF's Decision Making 
Under Uncertainty program. SPARC is a collaboration with the Center for 
Science and Technology Policy Research at the University of Colorado, 
and we are finishing the project up after a five-year funding period. 
SPARC explores a question that lies at the heart of science and 
innovation policy: what makes the results of a scientific research 
project useful, and usable? While the broad context for this project 
was the nation's considerable investment in research related to 
climate, our research looked at science policy decision making aimed at 
many different problems, including water management, weather and 
natural hazards, nanotechnology, technological standards, agriculture, 
and ecology.
    SPARC results reinforce a major point: science policies tend to be 
more successful when they are carried out through institutional 
arrangements that allow scientists and decision makers to understand 
each other's needs and capabilities. Fostering close, ongoing, trusting 
relations between those who produce new knowledge and those who might 
benefit from it seems to be an essential attribute of science policies 
that lead to new knowledge quickly moving into society for public 
benefit. Drawing on the lessons of this major project, we produced a 
short handbook for science policy decision makers, called ``Usable 
Science.'' We released this report last April at a meeting here in DC 
that attracted about 100 participants, many from federal agencies. The 
handbook is available at: http://cstpr.colorado.edu/sparc/outreach/
sparc<INF>-</INF>handbook/.
    (3) A third project, called Public Value Mapping, or PVM, has been 
supported by the SciSIP program, as well as the V. Kann Rasmussen 
Foundation and the Rockefeller Foundation. The idea behind PVM draws on 
my previous point that most publicly funded S&T activities aim to 
advance a variety of social outcomes, not just economic ones. PVM finds 
that these desired social outcomes--what we call ``public values''--are 
clearly expressed at many levels across the science and innovation 
policy endeavor--in legislation and laws; in the strategic plans and 
budget documents of R&D agencies; in the websites and press releases of 
individual R&D programs and even projects.
    Because public values are harder to characterize, measure, and 
assess than economic values, they are often given short shrift both in 
debates about science and innovation policies, and in research to 
evaluate the outcomes of such policies. Yet a key concept for PVM is 
that the public values associated with science and innovation policies 
may conflict with one another, and with economic values. For example, a 
new medical technology may create profit for a corporation and benefit 
from those who have access to the technology, even as it contributes to 
health care outcome disparities and over-diagnosis and unnecessary 
treatment. PVM seeks to unravel and clarify such complexities, in order 
to help view and assess the full range of social outcomes tied to 
science and innovation policies.
    In brief, our research aims first to identify public values across 
a particular area of science and innovation policy. We then analyze how 
various value statements actually relate to each other (for example, 
are they complementary or contradictory?) and assess whether the 
research activities are in fact organized in ways that may allow them 
to achieve those values. Our work is still preliminary. During three 
years of NSF-supported research, we have completed a set of detailed 
case studies, looking at S&T policy issues such as technology transfer, 
nanotechnology for cancer treatment, and environmental chemistry. One 
intriguing, but still quite preliminary, result of our work is that we 
think we can say something about the potential for a major research 
program to achieve desired social outcomes based in part on how public 
values are articulated across the program's various levels and 
components. For example, our study of natural hazards research at the 
U.S. Geological Survey shows a strong coherence among public values 
expressed by scientists, the agency, legislative mandates, and various 
stakeholders, whereas our analysis of Federal climate change research 
shows considerable diversity and even conflict among values within and 
across these various levels of activity. We are now working to test the 
hypothesis that the relations among public values may in fact be 
predictive of a program's performance. If this turns out to hold up 
after further research, it could offer a powerful tool for assessing 
the capabilities of science and innovation policies.
    (4) As one final example, I want to mention CSPO's growing work on 
energy technology innovation. This is a cross-cutting theme that works 
its way into a number of our research projects, but I think it helps to 
communicate our overall approach. Consider, for example, solar energy 
technologies, which may have particular potential to serve energy needs 
in a desert state like Arizona. Yet to understand the potential for 
solar energy R&D to contribute to Arizona energy needs, one also needs 
to understand issues of regulatory incentive, land use, water access 
and availability, public lands management, agricultural policies, 
transmission corridors, military bases, Indian reservations, even 
immigration. Each of these variables may play a crucial role in 
determining the outcomes of solar energy science and innovation 
policies--and policies that do not attend to these variables run the 
risk of failing to achieve their desired social outcomes, regardless of 
levels of funding or scientific productivity.

1. (B) How are you facilitating interdisciplinary collaborations within 
                    the Consortium?

    CSPO facilitates interdisciplinary collaboration in three main 
ways. First, we organize our activities around problems, not around 
disciplines, and then we bring into our research teams the expertise 
that we need to help us understand what's going on and how to make 
progress.
    Second, as an administrative matter, CSPO is located in ASU's 
College of Liberal Arts and Sciences, so it does not have a 
disciplinary affiliation. Our core faculty members have advanced 
degrees in fields ranging from earth sciences and electrical 
engineering to political science and philosophy. Core faculty are 
jointly appointed between CSPO and a variety of academic units, 
including the Schools of Life Sciences; Government, Politics, and 
Global Studies; Human Evolution and Social Change; Geographical 
Sciences and Urban Planning; Sustainability; Communications; and Social 
Transformation. If these don't sound like familiar names for 
traditional academic disciplines, that's because ASU itself has moved 
to reorganize standard departments into interdisciplinary units in 
order to bring appropriate intellectual force to bear on complex 
problems.
    Third, we have worked hard to cultivate long-term collaborations 
with natural scientists and engineers across the university, many of 
whom are affiliate faculty members at CSPO. We work with these 
colleagues to design new educational and research projects and programs 
that return value both to CSPO and to our science and engineering 
partners. These activities create familiarity and trust that allow us 
to engage in higher-stakes collaborations. For example, many of the 
major science-and-engineering grant proposals submitted by ASU to 
funding agencies now include an integrated set of activities aimed at 
understanding and enhancing societal outcomes. We have even been funded 
by NSF, partly with the support of the SciSIP program, to study the 
impacts of natural science-social science collaborations in labs at ASU 
and around the world.

1. (C) What new and continuing areas of research in the science of 
                    science and innovation policy (SciSIP) could 
                    significantly improve our ability to design 
                    effective programs and better target federal 
                    research investments? (D) What are the most 
                    promising research opportunities and what are the 
                    biggest research gaps?

    CSPO faculty members have been brainstorming over the past few 
weeks to develop a short list of ``foundational/transformative'' 
research challenges in response to a call for ideas issued by NSF's 
directorate for Social, Behavioral, and Economic Sciences. Given CSPO's 
orientation, our ideas, not surprisingly, are directly relevant to the 
SciSIP program.
    1. Science and innovation policies often aim to help transform 
existing technological systems to achieve particular societal outcomes: 
for example, to move the nation's energy system toward a more 
economically, environmentally, and geopolitically secure technology 
base; or to move the nation's health care system to achieve better 
health outcomes at lower cost. New scientific and technological advance 
are obviously going to be key drivers of such transitions. Yet modern 
societies have very little understanding of how to catalyze and steer 
these sorts of complex system changes, and well-intentioned efforts can 
often lead to unanticipated consequences whose benefits are very 
difficult to assess, as we have seen, for example, in efforts to 
advance alternative biofuels. A key SciSIP research priority should be 
to gain fundamental understanding about the drivers and dynamics of 
transitions in complex socio-technical systems.
    2. Science and innovation policies are, in one sense, a bet on the 
future: that a certain type of knowledge or technology will prove 
useful or valuable. Yet the future of social and technological change 
is impossible to predict in detail. To try to deal with this 
unpredictability, a relatively small number of forward-thinking 
companies, academic units, and non-profit organizations employ a 
variety of techniques and tools that can allow them to better 
visualize, understand, and discuss a range of alternative possible 
futures. Such activities can inform decision making by helping to make 
clear the broad array and potential implications of scientific, 
technical, and social options and pathways available for addressing 
social challenges. SciSIP should support the study and assessment of 
existing tools, and the development and testing of a range of new 
tools, to bring future-visioning techniques to bear on science and 
innovation policy making processes.
    3. In general, SciSIP should emphasize support for research and 
education programs that foster integration between natural sciences and 
engineering, and social sciences. Such integration can help to ensure 
that science and engineering activities are conceived and carried out 
with a realistic understanding of the social context in which knowledge 
and innovation are pursued and applied. In turn, social scientists will 
gain a deeper, and earlier, understanding of the potential futures that 
cutting edge R&D programs are making possible. The result should be a 
growing capacity to design and conduct science and innovation 
activities that are better able to contribute to desired social 
outcomes.
    4. SciSIP should consider supporting the development of a set of 
case studies to identify and characterize the key attributes of S&T 
institutions and programs that strongly link science and innovation 
activities to desired social outcomes. Case studies should range across 
the S&T enterprise, sampling a variety of sectors, scales, structures, 
and desired outcomes. Such a program would need to be coordinated to 
ensure comparability between the methods and organization of the cases. 
Its institutional and programmatic focus would make it distinct from, 
and complementary with, the STAR METRICS approach that NSF and sister 
agencies are already taking. This case-based effort should focus on the 
development of a set of key organizational principles that science and 
innovation policy makers can use to guide investment strategies and 
priorities.

Committee Question 2: Is the Federal Government, specifically the 
                    National Science Foundation, playing an effective 
                    role in fostering SciSIP research and the 
                    development of a community of practice in SciSIP? 
                    What recommendations, if any, do you have for the 
                    National Science Foundation's SciSIP program?

    Overall, I believe that NSF is doing a good job in building the 
SciSIP program and community. But this is a very difficult task. The 
community of researchers working in the SciSIP domain is rather small 
and very diffuse. In fact, it does not really identify itself as a 
single community, but rather as several independent communities, for 
example, innovation economics, science and public policy, and science 
and technology studies. So there's simply not a lot of capacity yet in 
this domain, and what capacity there is needs to be better integrated. 
Moreover, most of the quantitative data available for analysis of 
science and innovation policy is input-output data--budget levels, 
numbers of scientists and graduate students, publication numbers, 
patents, and citations, and so on. Such data can be subjected to highly 
sophisticated data mining and analysis techniques using ever-improved 
software packages designed for this purpose, so it is very attractive 
to researchers. But this kind of input-output data can offer only an 
incomplete and in many ways distorted view of the societal value of the 
S&T enterprise, a view that does not allow us to escape the simplistic 
beliefs of the past.
    Now it's clear that those running the SciSIP program understand 
these problems. They brought together a good cross section of the 
community to help plan the program in the spring and summer of 2005; 
they have sought to attract grant applications from a wide array of 
researchers; they have organized or otherwise supported events to bring 
together SciSIP researchers to build a sense of integrated community; 
they have provided grant support to a diverse set of research 
approaches and problems; and they are working through the STAR METRICS 
program to try to build better quantitative data sets that can assist 
certain types of analytical work. All this is very positive.
    To some extent, however, NSF's institutional strength is also a 
weakness here. The agency prides itself on its bottom-up approach to 
setting its research agendas. While the SciSIP program does reflect a 
top-down decision to create a new program area, in part as a response 
to concerns repeatedly expressed by then-Presidential science advisor 
Marburger, the shape and direction of SciSIP has significantly been 
dictated by the existing research community. Much of that community 
continues to work within the input-output model of science and 
innovation policy, due, as I've said, to existing data sources and 
tools. For similar reasons of measurement ease, the community also 
tends to focus on economic outcomes to the significant exclusion of the 
much broader range of societal outcomes that the nation seeks to derive 
from its S&T investment. Because researchers and peer reviewers are 
drawn from the same general communities, such tendencies can be 
difficult to escape.
    A range of tools are potentially available for building the 
community and its coherence, and driving the intellectual agenda away 
from an input-output framework, and toward a systems-oriented, 
outcomes-focused approach. Not all of these tools require new money. 
SciSIP should use program guidelines and requirements to transform and 
build the research community; indeed, this year's program announcement 
is notable for its openness to a wide range of approaches to SciSIP 
research. SciSIP could also consider using some of its budget to 
support training grants, similar in spirit, if not in scale, to NSF's 
successful IGERT (Integrated Graduate Research and Traineeship) 
program, as a way to more quickly build up capacity. However, if the 
Committee, and NSF, believe that the science and innovation policy 
research community needs to be significantly larger and more coherent, 
this will probably require more resources. To reinforce my position 
throughout this testimony (also see my comments on ``dissemination,'' 
below), any claim to a bigger budget must be matched by programmatic 
design elements to help ensure that knowledge created by SciSIP is both 
usable and used. This would likely require a commitment to fund 
integrated Science and Technology Center-type science and innovation 
policy research organizations that can create and support ongoing 
interaction between SciSIP researchers and policy makers, perhaps 
analogous to NOAA's Regional Integrated Science and Assessment program.

Committee Question 3. Please describe the education and outreach 
                    activities of the Consortium for Science, Policy, 
                    and Outcomes.

    CSPO sponsors a wide variety of education and outreach activities, 
ranging from formal degree programs and intensive, short-term training 
activities, to public outreach events and products targeted at science 
and innovation policy makers.

1. Graduate Degree Programs
    The ASU Professional Science Masters in Science and Technology 
Policy was initiated in 2009. It provides professional education for 
students seeking advanced public, non-profit, or private sector careers 
in science and technology policy and related fields in the United 
States or abroad. Students learn essential skills, knowledge, and 
methods for analyzing innovation, expertise, and large-scale 
technological systems. Particular emphasis is placed on the political 
and societal contexts and impacts of science and technology policy. The 
program is a one-year, 30-credit cohort-based program designed to 
attract students of the highest caliber in their early to mid-careers. 
Key learning outcomes of the program include:

        <bullet>  Understanding of the theoretical foundations of the 
        interactions among science, technology, and society.

        <bullet>  Understanding of US and, where appropriate to a 
        student's career interests, international science and 
        technology policies and the policy processes that generate 
        them.

        <bullet>  Analysis of knowledge systems supporting policy 
        decisions.

        <bullet>  Analysis of the social and policy dimensions and 
        implications of large-scale technological systems.

        <bullet>  Analysis of scientific and technological innovation 
        systems.

        <bullet>  Skills in collaborative, team-based analysis of 
        science and technology policy problems.

        <bullet>  Skills in effective professional communication.

    Ph.D. Program in the Human and Social Dimensions (HSD) of Science 
and Technology. Here CSPO collaborates with ASU's Center for Biology 
and Society and Center for Law, Science, and Technology to offer a 
highly interdisciplinary and integrative program of advanced study. We 
aim at training scholars and practitioners to understand and inform the 
conceptual and philosophical foundations of scientific research; to 
analyze and assess the increasingly powerful roles of science and 
technology as agents of change in society and the economy; and to 
challenge universities to become leaders in fostering the new science 
and technology policies necessary to meet the problems and 
opportunities of the 21st century.
    The HSD curriculum is flexible, combining a strong, integrated, 
first-year experience, with substantial freedom for students, in 
conjunction with their advisors, to design carefully crafted programs 
of study relevant to their own areas of interest and expertise. The 
curriculum trains researchers with the necessary skills and preparation 
to analyze three key aspects of the study of the human and social 
dimensions of science and technology: 1) the historical, philosophical, 
and conceptual foundations of science and technology; 2) the social and 
institutional foundations of scientific research and technological 
systems; and 3) the political, ethical, and policy foundations of 
science and technology.
    Research projects of current HSD students supported by CSPO 
include:

        <bullet>  Social and ethical challenges of smart grid 
        development

        <bullet>  Leadership training in graduate science and 
        engineering education

        <bullet>  Comparative analysis of interdisciplinary research 
        fields in the US and China

        <bullet>  The emergence and stabilization of legal regimes in 
        online communities

        <bullet>  The role of non-governmental organizations in energy 
        siting decisions in the United States

        <bullet>  Public values and public engagement in energy policy 
        in the United States

        <bullet>  The organization and management of international 
        scientific assessment processes

        <bullet>  Connecting knowledge to decision making in water 
        policy

        <bullet>  information technology in learning & inequality

2. Non-Degree Programs and Training
    Ph.D. plus. This integrative, non-degree program offers advanced 
graduate students in science and engineering the chance to consider how 
their research relates to the world of science policy and the 
relationship between science, technology and societal outcomes. Science 
and engineering students work with a CSPO faculty member to write an 
additional chapter of their dissertation that explores the social 
implications, political context, or ethical concerns of their work. The 
Ph.D. plus process is informal, and is arranged by discussions between 
the student, her or his dissertation advisor, and the CSPO advisor. 
Most Ph.D. plus students take one or more classes offered by CSPO 
faculty; attend seminars and other activities sponsored by CSPO; and in 
general interact closely with the CSPO community for an academic year 
or more.
    In the annual DC Summer Disorientation, cohorts of about 15 science 
and engineering graduate students spend two weeks in Washington, DC 
interacting with the government officials, lobbyists, staffers, 
regulators, journalists, academics, museum curators, and others who 
fund, regulate, shape, critique, and study science and technology. 
Students participate in interactive role-playing experiences where they 
may testify at mock Congressional hearings; work under tight deadlines 
to write briefing papers for senior officials; or write op-ed pieces 
for a demanding editor. The goal is to help future scientists develop 
an understanding of the political and social context of their research. 
CSPO has recently expanded this program and now accepts graduate 
students from outside of ASU.
    The Next Generation of Science and Technology Policy Leaders. Here 
we are seeking to catalyze a community of early-career science policy 
scholars who can span the terrains of intellectual inquiry and real-
world practice, communicate effectively to general audiences, and 
contribute to effective decision making on key issues of science, 
technology, and society. We organized a national competition to select 
a dozen early-career science policy researchers and practitioners (5 
years or less since Ph.D). This ``Next Gen'' group prepared draft 
papers, and each scholar was then paired with an early career 
``communicator'' (typically a writer working through new media). The 
scholar and the communicator collaborated to craft a compelling, non-
scholarly description of the scholar's work--something that would 
appeal to a general audience. Next Gen scholars also led a roundtable 
discussion where each presented her/his research to a group of about 40 
people at a major CSPO-sponsored conference, to allow the scholars to 
hone the more technical aspects and presentation of their work, and to 
interact intensively with an engaged audience. Next Gen scholars are 
now working on two versions of their research papers, one for a policy-
making audience, and one for an academic audience. This project was 
supported by grants from NSF's programs on Science, Technology, and 
Society, and Informal Science Education.

3. Outreach
    CSPO views outreach as an integral part of its operations at all 
levels--not as a separate, add-on, or late-stage activity. As described 
above, our research and education programs often involve policy makers, 
members of the public, and scientists and engineers, and so also serve 
an outreach function by creating and strengthening links and 
communication between CSPO scholars and these other groups. Indeed, in 
many cases it is difficult to know where research ends and outreach 
begins. For example, much of our work on energy innovation policy is 
presented to policy makers and the media in briefings and policy 
reports at the same time as it is written up for academic audiences 
(see: http://www.cspo.org/projects/eisbu/). Similarly, SPARC involved 
numerous workshops that brought scientists and science policy makers 
together in a way that enhanced both communication and learning.
    The integration of outreach and education is apparent in CSPO's 
growing collaboration with science museums and science centers. We view 
these collaborations as ways of reaching wider audiences and increasing 
the ability of our graduate students--social scientists as well as 
natural scientists and engineers--to communicate to broader audiences. 
Our Center for Nanotechnology in Society has fostered a national 
strategic partnership with the NSF-funded Nano-Scale Informal Science 
Education Network to develop programs and exhibition materials and 
plans that incorporate societal interests and outcomes in communicating 
about emerging technologies. CSPO opens science communication 
opportunities for scientists and engineers through its monthly Science 
Cafe series with the Arizona Science Center and incorporates museum-
floor experience into its integrated training of doctoral scientists 
and engineers. CSPO is also working with the Museum of Science, Boston 
and the National Academy of Engineering to plan a national educational 
campaign to focus on climate change and engineered systems, to prepare 
the next generation of engineers, citizens, and leaders to meet the 
challenge of adapting the nation's technological infrastructure to 
climate change.
    Overall, we are continually engaged in a wide variety of efforts to 
make our ideas accessible to the public and policy makers, through 
informal and formal meetings and briefings in the Phoenix area and in 
Washington, DC; through ``handbooks'' for decision makers; through 
ongoing contact with the media; as well as by writing op-eds and 
articles for non-technical magazines, websites, and blogs. We have just 
received a small supplement to our SciSIP grant on Public Value Mapping 
to produce engaging, instructional web-based videos for science policy 
practitioners. New outreach products and activities are promoted via 
CSPO's monthly electronic newsletter, which goes to over 3000 people in 
academia, government, and industry. In all, I think it is fair to say 
that CSPO views outreach, education, and research as equally necessary 
foundations for pursuing its mission.

Committee Question 4. How can the dissemination of SciSIP research 
                    findings be improved so that policymakers are 
                    better informed of the current state of research? 
                    Are there best practices that can be implemented by 
                    the Federal government and/or the research 
                    community to improve the incorporation of science 
                    and technology policy research into the decision 
                    making process?

    SciSIP program officers, in collaboration with their grantees, with 
organizations like the American Association for the Advancement of 
Science, and with other federal agencies, has made an impressive effort 
to ensure that research results are made available to science and 
innovation policy makers, through the SciSIP website and listserve, and 
through a variety of workshops, including one to be held this coming 
December.
    SciSIP and NSF more broadly face something of a dilemma here, 
however. As I'm sure the Committee well appreciates, academic 
researchers are generally not rewarded for communicating their work to 
policy makers, or even for making the results of their work 
comprehensible to non-experts. I'm extraordinarily fortunate to work at 
a university where this is not the case. Moreover, given the 
fundamental nature of much of the research supported by SciSIP, the 
extent to which project results can translate into results immediately 
useful to decision makers may be highly variable. At the same time, 
it's fair to say that science and innovation policy decision makers may 
not always be either receptive to, or able to act on, the results of 
research conducted under SciSIP.
    In line with many of the comments I've already made, and consistent 
with research done by CSPO and many other groups, the best way to 
further improve the value of SciSIP research for decision makers would 
be to increase the level of interaction between the researchers and 
decision makers. This point should not be interpreted as a criticism of 
the current SciSIP program, which as far as I can tell is effectively 
pushing the boundaries of typical NSF practice, and working at the 
limits of its human and fiscal resources, to try to maximize 
dissemination.
    Yet ensuring that researchers are providing knowledge that decision 
makers can actually use is not only a matter of ``dissemination,'' it 
is also structural. For SciSIP results to be both usable and used, 
researchers and decision makers must each come to understand the needs, 
capabilities, and languages of the other--a process that we have 
termed, in our SPARC project, ``reconciling the supply and demand of 
research.'' Such a reconciliation takes time and ongoing interaction. 
It can certainly be pursued along multiple paths--through joint 
committees, workshops, personnel exchanges, interviews and surveys, and 
so on--but the key is ongoing and meaningful interaction leading to 
mutual understanding. An NSF research program, even one advanced with 
the creativity and vigor that characterizes SciSIP, is unlikely to be 
able, by itself, to provide the sort of institutional infrastructure 
that leads to the production of consistently usable knowledge. The idea 
of integrated SciSIP centers, previously mentioned, could be one way to 
create a greater capacity to move ideas into use. Federal agencies and 
programs that sponsor mission-oriented research, and that have a proven 
record of producing usable knowledge, might also be able to play a role 
here to help achieve the necessary integration.

Committee Question 5: What are the fundamental skills and content 
                    knowledge needed by SciSIP researchers and 
                    practitioners? What are the backgrounds of students 
                    pursuing graduate degrees in science and technology 
                    policy, and what career paths are sought by these 
                    graduates? Is the National Science Foundation 
                    playing an effective role in fostering the 
                    development of science and technology policy degree 
                    programs at U.S. universities? If not, what 
                    recommendations, if any, do you have for NSF and/or 
                    the universities with such programs?

    As I've suggested, the domain of SciSIP research and practice 
cannot and should not be defined by any particular set of skills or 
area of knowledge. In fact, given the complexity and diversity of the 
challenges facing SciSIP policy makers, it will be important to keep 
the field as open and flexible as possible, where the necessary skills 
and knowledge are determined based on the problem at hand, and on the 
evolution of the field itself, rather than some arbitrary boundary. 
I've already mentioned the varied backgrounds of CSPO's core faculty 
group, and our graduate students are if anything even more diverse, 
coming to us with degrees in business, information systems, science and 
technology studies, astrophysics, political science, law, English, 
public policy, library and information science, philosophy, physics, 
biology, environmental science, geology, anthropology, sociology, and 
industrial management.
    Graduate training in science and technology policy is also diverse, 
occurring in many different types of programs, with many institutional 
and administrative arrangements, in many U.S. universities. There is no 
standard-model science and technology policy graduate degree, and given 
the complexity of the field perhaps that is just as well, but it does 
create challenges in terms of attracting resources, creating an 
identity, and setting priorities. Similarly, while many career paths 
are open to those who have advanced training and degrees in science and 
technology policy, there is no formula for how to build or advance a 
career in this field, as there is in, say, law, medicine, or 
engineering. In CSPO's brief experience with graduate education, we do 
see our students and post-docs progressing on traditional academic 
paths, but they are also going into the private sector, working at 
nongovernmental organizations, and taking up positions in government 
agencies and think tanks. I also want to emphasize the importance that 
we place on ``continuing education'' via our professional Masters 
program, which we hope will reach mid-career professionals already 
working in areas related to science and technology policy, and equip 
them with tools to do their jobs more effectively, or to move into more 
complex jobs, in the public, private, and nongovernmental sectors.
    As I discussed in my response to Question 2, NSF's SciSIP program, 
as well as its Science, Technology, and Society Program, are working 
hard to build a sense of community and identity among science and 
technology policy researchers, and to provide support for research 
across a broad domain of problems and applications. However, as 
discussed at length by about 75 members of the community at this 
summer's Gordon Conference on Science and Technology Policy, the 
traditional academic structure of universities remains a considerable 
obstacle to building long-term capacity in the field, and most science 
and technology policy programs exist in the margins and spaces of 
standard disciplinary schools and departments. I am fortunate enough to 
work at a university whose leadership has a strong commitment to 
cultivating interdisciplinary, problem-based research that can link 
knowledge creation to solutions for complex societal problems. Yet even 
at ASU the long-term future of science and technology policy research 
probably depends on finding a way to more closely knit CSPO into the 
fabric of the formal academic units on campus.
    One conclusion here is that NSF's ability to foster the development 
of the field of science and technology policy is partly dependent on 
incentivizing universities to recognize SciSIP as a field worth 
cultivating. While the SciSIP program is certainly of a scale 
sufficient to mobilize and motivate individual researchers working on 
science and innovation policy, it is probably not big enough to get the 
attention of university administrators. I have already emphasized the 
potential value of applying an integrated Science and Technology Center 
model to building the SciSIP community and moving its research results 
into use. An NSF commitment to supporting one or more such centers 
would also send a strong signal to university leaders that the science 
of science and innovation policy is a national priority, deserving of 
strong focused effort and investment from our universities.

                     Biography for Daniel Sarewitz
    Daniel Sarewitz is Professor of Science and Society, and co-
director and co-founder of the Consortium for Science, Policy, and 
Outcomes (CSPO), at Arizona State University (http://www.cspo.org). His 
work focuses on revealing the connections between science policy 
decisions, scientific research and social outcomes. How does the 
distribution of the social benefits of science relate to the way that 
we organize scientific inquiry? What accounts for the highly uneven 
advance of know-how related to solving human problems? How do the 
interactions between scientific uncertainty and human values influence 
decision making? How does technological innovation influence politics? 
And how can improved insight into such questions contribute to real-
world practice? He is the author of Frontiers of Illusion: Science, 
Technology, and the Politics of Progress (Temple, 1996), an exploration 
of the public myths that underlie decisions about science and 
technology; the co-editor of three other books; and the author of many 
articles about the interactions of science, technology, and society. In 
addition to scholarly journals his work has appeared in The Atlantic 
Monthly, The New Republic, and many newspapers; from December 2009 
until September 2010 he wrote a monthly column on science policy for 
the journal Nature. His work has also received featured coverage on 
NPR's Morning Edition, in the New York Times and the Chronicle of 
Higher Education. From 1989-1993 he worked on R&D policy issues for the 
U.S. House of Representatives, first as a AAAS Fellow in the office of 
Congressman George E. Brown, Jr., and then as a staffer on the 
Committee on Science, Space, and Technology. He received a Ph.D. in 
Geological Sciences from Cornell University in 1986. He now directs the 
Washington, DC, office of CSPO, and focuses his efforts on a range of 
activities to increase CSPO's impact on federal science and technology 
policy processes. His new book, The Techno-Human Condition (co-authored 
with Braden Allenby; MIT Press) will be published in March 2011.

    Chairman Lipinski. Thank you, Dr. Sarewitz. And it is the 
beginning of votes, but we should be able to get to the 
testimony in here. Dr. Murray.

 STATEMENT OF FIONA MURRAY, ASSOCIATE PROFESSOR OF MANAGEMENT, 
TECHNOLOGICAL INNOVATION & ENTREPRENEUR GROUP, MIT SLOAN SCHOOL 
                         OF MANAGEMENT

    Dr. Murray. Okay. Thank you very much. Thank you, Chairman 
Lipinski and other Members of the Subcommittee, for the 
opportunity for being here. My name is Fiona Murray as you 
heard before I am a Professor of Innovation and 
Entrepreneurship at the MIT Sloan School and I am also 
Associate Director of the MIT Entrepreneurship Center.
    Now to start my remarks I thought I would just describe the 
perspective I bring. Briefly, I am the grateful recipient of 
two SciSIP Grants. I worked on what I would think of as a 
SciSIP oriented research agenda for more than a decade, 
although I really only discovered the SciSIP research community 
in about 2006. As a faculty member of a business school I also 
engage on these issues with managers, scientists themselves who 
are also interested, sometimes at the lower levels, in how to 
organize effectively to ensure the productivity and impact of 
their research.
    I should also just say something about my own training. I 
have a background, a Bachelor's, Master's, and Ph.D. in 
Chemistry. That is a very unusual training for somebody who 
does SciSIP. I think it enables me to bring a unique 
understanding of the bench science to this research, although 
as I do note in my written remarks I am not sure that this is 
an ideal past to learn the rigorous social science methods that 
one really needs. I have had to rely on again self-education 
and some very patient co-workers to get me over what I think is 
a quite high bar to make a serious contribution to this 
endeavor, and in particular to do it in a way that contributes 
to the policy and the scholarly debate.
    I want to just take my time to see if I can make three 
points. I will make two if time--if only time permits. 
Something about the vision of SciSIP that--from what I think 
that means about the kinds of gaps there are in the research. 
And then also how I think the scientific community might more 
effectively be organized to really have an impact in terms of 
research links to the community and in particular education.
    So I think that SciSIP is not completely about doing 
science and technology analysis. I think there's already an 
excellent scholarship describing policy initiatives, the 
government attitude toward science, and the politics of science 
and innovation policy. But I think that what SciSIP brings, 
which is unique, is this sort of scientific lens to the 
problem. And what I mean by that is that it is a serious and I 
think important attempt to undertake causal analysis and 
evidence-based analysis asking whether and how particular 
policy interventions actually have an impact, whether it is in 
the short run or the long run. And so I think that good 
scientific research defines impact richly: it is about the 
level of the rate and the direction of scientific progress and 
innovation, but it is also about long run impact on economic 
growth.
    But I also want to emphasize this causal piece of what 
kinds of policies we think make a difference. I think that at 
its best, SciSIP defines policy broadly but precisely in 
particular research instances. And so it can mean everything 
from high level national policies, the laws, but also agency 
implementation processes, agency selection processes, but below 
that, community behaviors, things like the Bermuda Laws and so 
on. And even at some microlevel, lab level choices around how 
we choose to organize the scientific research at the ground 
level.
    I think a key approach to SciSIP has been grounded in two 
recent developments. One is the data development which has 
already been discussed. But I would also say it has been 
enabled, actually, by a massive scientific data infrastructure 
investment, so some of my own work has really been enabled by 
investments in things like GEN Bank and that ability to 
interrogate genetic data to then do science policy analysis.
    But also I think a second piece of social science methods 
is in program evaluation. Actually, you are familiar with this 
from the work that you do on evaluating education policy. But I 
think that the ability to use experiments and causal analysis 
and so on from that policy evaluation tool kit is extremely 
important to pushing SciSIP forward.
    So I think that SciSIP has really been critical and 
attracted serious cause, but in my view there are still some 
gaps. To pick up the ``straw and bricks'' analogy, it strikes 
me that while we need bricks, if we want to cross the bridge 
from data to understanding we actually have to build a bridge 
with those bricks. And what does that mean? I think that does 
mean more analysis as well as just measurement. I think at the 
moment a lot of the scientific work, including my own, is 
intrinsically focused on biologists and on funding at the 
National Institutes of Health. That is critical, but not the 
only arena, and I think that there is--we do need to understand 
how other disciplines and other agencies are working.
    I think that there has been a focus on national-level rules 
and specific agencies and less on these community-level choices 
about how to organize structure, collaborations, and more 
informal efforts. I think we also need to focus on 
distributional issues. So not just how many more papers are 
produced, but what kind of a breakthrough or everyday science, 
what kinds of research, are they American or foreign, and so 
on. I don't think we have focused enough on that.
    And let me in the last few seconds just say something about 
the SciSIP community. I think that the community actually needs 
to do more of its own bottom-up organizing. The NSF has done a 
tremendous job in kind of structuring it in a top-down way, but 
that is a huge amount of work for one agency to do. And I think 
as a community we need to do a more bottom-up in order to both 
engage in more knowledge exchange among ourselves and to focus 
on education. And I think the educational imperative at the 
Ph.D. level does need to be organized across a number of 
campuses. And then, as I think at the policy level of our 
links, the policy makers again have to be organized in a more 
community-based way. So I would suggest that that needs to be 
done through a consortium of universities but with this 
tripartite mission of research, education, and then links to 
policy. And I will leave my remarks there. Thank you very much.
    [The prepared statement of Dr. Murray follows:]
                   Prepared Statement of Fiona Murray
    According to the National Science Foundation (NSF), the Science of 
Science & Innovation Policy (SciSIP) program ``supports research 
designed to advance the scientific basis of science and innovation 
policy \1\. The program is an important and bold attempt to build a 
strong intellectual foundation for science and technology policy making 
regarding the laws and rules that shape the institutional environment 
in which scientific research and innovation takes place. It does so by 
adopting recently developed, leading-edge methodological approaches 
based on both large scale empirical data analyses and complementary 
qualitative analyses. The explicit goals of the program are to fund 
research that ``develops, improves and expands models, analytical 
tools, data and metrics that can be applied in the science policy 
decision making process''. From my perspective as a SciSIP scholar, I 
conceptualize the SciSIP agenda as the systematic, evidence-based and 
causal analysis of the impact of policy interventions on the rate, 
direction and impact of scientific knowledge production and innovation. 
If successful in research and in coupling to policy decisions then this 
agenda will enable Federal and state policymakers, as well as others 
engaged in shaping the production and translation of scientific 
knowledge (including scientists themselves, universities, Foundations 
and scientific communities), to design more effective policies and 
practices that ensure that investments in science and innovation have 
rapid and extensive scientific, social, and economic impact.
---------------------------------------------------------------------------
    \1\ Accessed from http://www.nsf.gov/funding/
pgm<INF>-</INF>summ.jsp?pims<INF>-</INF>id=501084&org=sbe 9/16/2010.
---------------------------------------------------------------------------
    In this testimony I lay out my personal views of the SciSIP program 
from the perspective of an NSF-SciSIP scholar (and grant recipient), 
and as a Faculty member in a leading School of Management who engages 
routinely with scientists concerned with the impact of their research, 
policy students as well as MBA students and executives hoping to work 
effectively at the academic-commercial interface.
    In what follows I examine some recent breakthroughs that have 
enabled SciSIP research, outline some of the key research emerging from 
SciSIP to date and critical gaps. I then turn my attention to what I 
observe as the need for greater community building and finally, the 
potential for a significant educational initiative.
    The notion that there can be a ``science'' of science and 
innovation policy is relatively recent (Marburger 2005). There is a 
long and distinguished traditional of science policy research 
nonetheless, the current focus on measuring the causal influence of 
science and innovation policy levers at different levels (national 
policy, agency interventions as well as community and lab-level 
actions) can be linked to advances in economics and related fields in 
the early 1990s. During this period, leading economic historians 
including Paul David, Joel Mokyr and Nathan Rosenberg developed 
critical conceptual breakthroughs in understanding the economics of 
science and innovation as grounded both in institutions (policy levers) 
but also in the micro-level behaviors and incentives of scientists and 
engineers themselves. Building on economics as well as the sociology of 
science, they came to view Science as a distinctive institution in 
several ways: as a knowledge production system, as an input into 
technological innovation, and as a reward system.
    The empirical promise of this conceptual agenda was taken forward 
by a group of economists and sociologists who aimed to evaluate the 
impact of public policies on research behavior, research outputs, and 
associated economic outcomes (Marburger, 2005; Jaffe, 2006). In 
following this agenda, scholars confront a number of key challenges. In 
particular is it possible to separate the influence of a particular 
policy or institution from the underlying nature of the scientific 
knowledge that is being developed? To put it more simply, in the policy 
``whodunit'' it is often hard to say whether it is the policy that had 
the effect of speeding up scientific progress in a particular area or a 
chance in our understanding of a scientific problem. Without a parallel 
universe for policy experiments, when one observes the production or 
diffusion of a piece of knowledge within a given policy environment, 
one cannot directly observe the counterfactual production and diffusion 
of that knowledge had it been produced and diffused under alternative 
policy conditions. To resolve these challenges, SciSIP scholars have 
combined methodological advances in program evaluation- particularly a 
``natural experiments'' approach--with novel data techniques. The 
experiments-based approach (with which the committee is likely familiar 
from its work on education) relies upon methods pioneered in public 
finance and program evaluation (Meyer, 1995; Bertrand, Duflo, and 
Mullainathan, 2004; Angrist and Pischke, 2008). To complement these 
methods, SciSIP scholars have made extensive use of novel datasets 
including data on publications, patents and most recently citations. 
This approach uses these ``documents'' as the core objects of analysis, 
assuming that they represent ``pieces of scientific knowledge,'' and 
citation analysis to investigate the impact of institutions on the 
cumulativeness of discovery and innovation (Garfield, 1955, De Solla 
Price, 1970; Jaffe, et al, 1993; Griliches, 1990, 1998). When placed 
within a framework to evaluate science and innovation policy, these 
elements constitute a robust approach to analyzing and tracking the 
causal impact of public policies on science and innovation inputs and 
outputs.
    The power of the emerging SciSIP agenda is to incorporate these 
novel approaches and therefore move beyond description and observation 
of science at work or particular policies towards the more systematic 
analysis of particular institutional interventions. Thus pioneering 
SciSIP research typically combines three elements:

        i)    Providing clear theoretical foundations for understanding 
        the ways in which institutional change (at any level) might 
        influence the behavior of scientists and therefore the rate and 
        direction of their knowledge production.

        ii)   Building careful empirical designs that enable causal 
        analysis, and undertaking these empirical studies using 
        systematic data gathering methods at different levels 
        (including quantitative data but also including qualitative 
        studies).

        iii)  Grounding the analysis in a deep understanding of the 
        phenomenon--the details of the particular policy changes or 
        organizational choices as well as the ways in which these shape 
        scientists daily life.

    As a contributor to the broader SciSIP agenda and approach, my 
research in the past few years has focused on the conflicts and 
compromises shaping the boundary between academic science and the 
commercial world--especially the impact of intellectual property (IP) 
rights and IP licensing strategies over basic scientific research in 
areas as diverse at human genetics, stem cells and cancer biology. More 
recently I have expanded my research to examine the community and 
organizational-level interventions that scientists can make including 
understanding how research quality is governed (through retractions) 
and how projects are selected and evaluated). In my own work, I have 
found that my training as a scientist provides aids in the third 
element of the SciSIP approach but my work is strongly based on the 
theories and methods of economics and sociology of science and 
therefore links the three aspects outlined above.
    A research project of mine recently completed with a series of co-
authors illustrates the SciSIP approach to the analysis of science 
policy. It was designed to adjudicate one policy element of the 
institutional complex--the impact of intellectual property rights on 
research tools (and the licenses that shape access to such tools) on 
scientific productivity and diversity. Rather than theorizing broadly, 
it focuses specifically on one controversial episode in the genetics 
community initiated by the discovery, patenting and then exclusive 
licensing of mouse genetics technology (the Oncomouse approach and the 
related Cre-lox approach) and the subsequent licensing agreement made 
among DuPont, the Jackson Laboratories and the National Institutes of 
Health to enable greater access to these key research tools.
    In The Oncomouse that Roared (Murray 2010), I take a qualitative 
approach to the question of whether and how the Oncomouse patent 
influenced the scientific community. Rather than compare the mouse 
genetics community to another scientific field (which may have any 
number of inherent differences), I compare the periods before and after 
the Oncomouse patent was granted and licensed. For 3-4 years, with no 
intellectual property rights yet granted the mice were subject only to 
the informal norms that characterize a competitive, but collegial, 
scientific community. After the grant of the patent, DuPont (exclusive 
licensee) strongly enforced its property rights on scientists. Through 
detailed interviews and documentary analysis comparing the pre- and 
post- patent period, I follow the SciSIP approach and closely analyzed 
the impact of the Oncomouse patent on mouse geneticists. I find that 
some scientists reluctantly acquiesced, dealing with complex contracts. 
Others defied DuPont, sharing mice informally in the face of opposition 
from their universities. Behind the scenes other more complex changes 
were also taking place as scientists sought to reshape the role patents 
in their scientific life. This is reflective of broader changes in the 
scientific community in the face of higher levels of commercial 
interest and engagement and the resistance to the encroachment of high-
powered commercial interests. Such a grounded perspective highlights 
the importance of understanding how scientists respond to policy 
interventions and has a number of policy implications. However it also 
raises a more SciSIP-oriented question about the causal impact of the 
compromise (when the NIH persuaded DuPont to sign a Memorandum of 
Understanding making Oncomice open for experimentation) on the level 
and type of research using these genetically modified mice i.e. do such 
policy interventions shape the rate and direction of science.
    I examine the causal impact of these shifts to greater openness in 
``Of Mice and Academics'' (Murray et al. 2010). The ``dependent 
variable'' in this paper is the level and type of scientific research 
publications that use genetically engineered mice in each year from 
1990 until 2006--based on a dataset of over 20,000 publications that 
are coded by their level of basicness, the rating of the journal in 
which they are published, the rank of the school affiliations of the 
authors etc. The ``independent variable'' is the timing of the policy 
shift in the openness of particular types of transgenic mice (Onco mice 
and Cre-lox mice). To aid in the interpretation of the data we also 
include a control group of papers that build on mice never influenced 
by intellectual property rules. A central idea of this research design 
is that while research discoveries (such as engineered mice) are 
developed at a given point in time, their use by subsequent researchers 
takes place over time. This insight motivates a differences-in-
differences approach to the analysis of follow-on scientific research: 
If the policy environment governing the incentives and/or ability to 
build on published discoveries changes over time (and affects only some 
discoveries but not others), it is possible to identify the impact of 
the policy change by examining how the pattern of follow-on research 
(captured in published articles) changes after the policy intervention. 
In other words, policy changes that impact one group of articles and 
not another can constitute a natural experiment. This paper exemplifies 
the SciSIP approach by linking (microeconomic) theory about the way 
researchers respond to openness, with data/empirics that allow for 
causal analysis, and a sufficiently detailed understanding of the 
policies and practices of scientists to enable appropriate research 
design. We find that the NIH MoU did indeed increase not only the level 
of research using these mice but also spurred a greater diversity of 
researchers to move into the field, follow novel paths and take new 
approaches.
    Taken together these two papers address questions of how 
institutional and organizational changes shape the rate and direction 
of scientific knowledge. They follow the three key elements of the 
SciSIP approach by carefully and precisely focusing on the phenomenon 
at hand, using that detailed understanding to link theories of 
scientists' behavior to careful data, and building empirical strategies 
in a way that enables causal analysis, normative conclusions and 
theoretical contributions.

ASSESSING THE GAPS IN SciSIP KNOWLEDGE

    As outlined above, the SciSIP agenda presents far reaching research 
opportunities for scholars whose goal is to contribute to the social 
sciences, to our understanding of science and innovation in the economy 
and to have policy impact. A number of significant gaps in the current 
state of knowledge remain and can be usefully considered around the 
organizing framework laid out below. This describes SciSIP research 
according to the level of analysis at which the policy interventions 
are taking place: national rules and regulations, agency-level 
interventions, community norms and practices and organizational 
actions. I then propose three cross-cutting questions that apply to 
each level (see below). To illustrate this perspective and the gaps it 
reveals, I first describe research on high level rules and regulations 
then move to more micro-level analysis of organizational interventions.

        <bullet>  National rules and regulations: This includes 
        research on the effectiveness of national rules and regulations 
        on the rate and direction of scientific progress. A major area 
        of focus includes research on the influence of the Bayh-Dole 
        Act on university researchers (Owen-Smith and Powell 2003). In 
        my own recent research, we have examined the impact of US 
        regulations with regards to the funding of research in the area 
        of human embryonic stem cells (Furman, Murray and Stern 2010). 
        Gaps at this level of analysis remain with regards to the role 
        of international rules and regulations on science in the United 
        States, and the ability of U.S. researchers to remain highly 
        competitive and at the knowledge frontier in the light of 
        growing global spending on scientific research. In addition it 
        would be valuable to understand how the particular funding 
        levels, structure and incentives of university systems in 
        different countries impact downstream outcomes, such as 
        scientific production, firm founding, and health & welfare, and 
        how they contour the impact of government policies such as 
        those related to intellectual property rights.

        <bullet>  Agency or University-level rules and norms: Funding 
        agencies, especially the Federal government, have a variety of 
        opportunities to shape the rate and direction of scientific 
        progress. Both areas have up to now been poorly understood. 
        Recent work funded by SciSIP has made significant progress 
        along these two dimensions but gaps remain. In particular the 
        influence of non-Federal funding sources particularly corporate 
        funding and the growing foundation funding is poorly documented 
        and understood.

                  Shaping the Direction of Research: Funding agencies, 
                as they select among research projects and shape the 
                expectations and controls they place on researchers 
                have a variety of opportunities to influence knowledge 
                production. This has often been thought of as a black-
                box with the scientific community utilizing the peer 
                review system as the best mechanism to self-regulate 
                and shape direction. Pioneering analysis by my MIT 
                colleagues shows that exceptional scientists are much 
                more likely to produce innovative breakthrough science 
                when using long-term grants that allow them exceptional 
                freedom in the lab (Azoulay et al, 2010) \2\. This 
                study raises the question of how researchers are 
                encouraged to move into new and emerging research 
                areas, and how to encourage ideas at the high-quality 
                high-risk tail of the distribution.
---------------------------------------------------------------------------
    \2\ They do this by comparing the research profiles of similar 
biologists some of whom receive more open ended long-term funding from 
Howard Hughes while others receive more traditional R01-style grants 
from the NIH.

                   We must encourage more research to understand the 
                impact of funding choices and funding incentives on the 
                type of research outcomes. This agenda could also 
                benefit from the analysis of scientists outside the 
                U.S. in settings where different types of incentive 
                systems exist. In line with recent interest in 
                Challenges (prizes) as an alternative incentive 
                mechanism, we should also extend this analysis to 
---------------------------------------------------------------------------
                include other funding mechanisms or reward systems.

                  Shaping the Disclosure and Sharing of Knowledge and 
                Materials: Funding agencies have an opportunity to 
                shape the rate and effectiveness with which knowledge 
                that is generated as a result of grant-making is shared 
                among scientists and is diffused into the economy along 
                productive routes. Among the most important and 
                controversial rules shaping such impact of scientific 
                research are the rules around intellectual property 
                rights. This has been the topic of vigorous debate 
                particularly with regards to the increasing levels of 
                patenting within the scientific community. This is the 
                research arena in which SciSIP researchers have made 
                one of the greatest contributions, with their research 
                informing policy discussions at the National Academies 
                of Science, within the National Institutes of Health 
                (NIH) and elsewhere. In particular, research has 
                explored the impact of patenting on the rate at which 
                that research is diffused within the scientific 
                community and on the rate at which commercial or 
                socially-beneficial products are developed (Murray and 
                Stern 2007; Huang and Murray 2009; Walsh et al. 2003, 
                2005). Extensive research documents the impact of IP, 
                licensing and material sharing practices on scientists, 
                but gaps in our knowledge exist with regards to the 
                impact of these policies on both scientific knowledge 
                production and economic impact (few studies examine 
                both with Williams (2010) a notable exception). We also 
                have a less systematic understanding of how to design 
                the ``intellectual commons'' in an efficient and 
                effective manner so as to promote and rapid follow-on 
                research and commercialization. There is also a 
                significant opportunity to extend these studies beyond 
                the study of life scientists to explore differences 
                across research communities in a range of disciplines 
                such as chemistry, computer science, materials science 
                etc.

        <bullet>  Community level activities: The policies and 
        practices that emerge from the scientific community also play a 
        critical role in scientific progress and impact. Thanks to more 
        systematic analysis of resource-sharing arrangements both 
        informally (see Hauessler et al. 2009; Waltsh et al., 2005) and 
        through formal mechanisms such as Biological Resource Centers, 
        there is definitive evidence that investments in community-
        based infrastructure such as materials repositories and data 
        repositories have a significant positive impact on the rate of 
        scientific progress by enabling access, certification and 
        sharing (Furman and Stern 2010). More recent analysis of the 
        self-governance of scientific communities through the system of 
        retractions has also pointed out the role of the community as a 
        crucial analytic lens (Furman and Murray 2009). In another 
        stream of research grounded in organizational theory and 
        sociology, scholars have examined whether and how different 
        community structures emerge in order to undertake the complex 
        task of horizontal collaboration (e.g. Powell et al. 2004, 
        O'Mahony and Bechky 2008) and collective work (Ferraro and 
        O'Mahony forthcoming).

           At this level of analysis, critical questions remain 
        unanswered: how are scientific communities formed? How do they 
        coalesce around new research areas and what role might policy-
        makers play in such community formation? For example do 
        mechanisms such as those used in DARPA enable community 
        building and how does this shape the long run effectiveness of 
        scientific communities?

        <bullet>  Organizational Interventions: Scientific research is 
        an activity increasingly undertaken by collections of 
        scientists organized into teams, networks, collaborations and 
        networks. Recent scholarship highlighted the potential for 
        significant productivity benefits of specific organizational 
        choices (Cummings and Keisler 2005, 2007, Wutchy et al. 2007, 
        Jones et al. 2008) \3\. Recent work on open source computer 
        science communities highlights the complex and sophisticated 
        nature of the organizational and governance choices that these 
        groups of scientists can make (Dahlander and O'Mahony 
        forthcoming) and their implications for the nature of the 
        knowledge production (MacCormack et al. 2006, 2008). However, 
        there remained only limited research that examines the 
        organizational choices of scientists for specific research 
        projects--they choice of collaborations, organization of tasks 
        in the lab, governance of the laboratory. In part this gap 
        arises because of the historic perspective of the scientist as 
        ``loan genius.'' Moreover, the strong sense of autonomy among 
        the scientific community has limited the research on choices 
        that scientists themselves make.
---------------------------------------------------------------------------
    \3\ Ben Jones, a leading scholars in the SciSIP field and author of 
several key papers in this area is currently a senior economist at the 
Council on Economic Advisors.

    Opportunities for further research also cut across these levels of 
---------------------------------------------------------------------------
analysis with three of key importance:

        i)    On what field has the SciSIP research been focused? In 
        other words, is the analysis focused on a particular scientific 
        discipline or sub-field e.g. biology, high-energy physics, 
        nanotechnology? In my opinion, too large a share of current 
        SciSIP research (including my own) highlights the biologists to 
        the exclusion of other arenas. For example we have little 
        knowledge of the influence of policies on material scientists 
        who, like biologists, rely on complex materials, data, images 
        etc. Our knowledge of chemistry, computer science & engineering 
        remains fragmented.

        ii)   On what outcomes has the SciSIP research been focused? Is 
        the analysis focused on academic publications, patents or 
        marketed products? As noted above, these outcomes are now well 
        documented in the SciSIP literature. More emphasis however 
        should be placed on linking up different measures i.e. 
        publications and patents and finding metrics that capture 
        commercializable or commercialized products (see Williams 2010) 
        or measures that capture the broader knowledge landscape such 
        as recent analysis of the patenting of the entire human genome 
        (Jensen and Murray 2005). In this regard, data on licensing 
        would be more valuable than patenting data alone and yet such 
        information (for ideas developed using Federal funding) is not 
        available. I would strongly recommend that this be changed to 
        facilitate greater and more systematic analysis using measures 
        closer to the outcomes and impacts of economic interest.

        iii)  On what part of the outcome distribution are SciSIP 
        analyses focused? It is important that SciSIP researcher 
        evaluate which researchers and which institutions were most 
        affected by particular policy interventions rather than simply 
        highlighting the average impact of particular policies. How do 
        policy interventions impact the distribution of knowledge 
        outcomes? While there may be no impact on the mean perhaps 
        interventions influence the distribution of outcomes--with more 
        high and low quality research. How might policy-levers all 
        levels influence different researchers? What is their marginal 
        impact on different groups of scientists: those at elite highly 
        funded schools versus elsewhere, or those with international 
        co-authorship ties \4\. Studies that emphasize these 
        distributional outcomes should be encouraged by SciSIP because 
        it is from the richness and diversity of the scientific 
        community that novel breakthrough outcomes arise. Studies could 
        also fruitfully include analysis of the differential impact of 
        policies on male versus female scientists \5\.
---------------------------------------------------------------------------
    \4\ A distributional approach would enable SciSIP scholars to 
assess the impact of policies on numerous dimensions: researcher and 
institution status, nature of the researchers' institution (university, 
private firm, government lab, etc.); researcher cohort; collaboration 
type (e.g., within vs. across institution, state, country, and/or 
field); basic vs. applied research; journal status; article breadth 
(multiple subjects vs. single subject); journal reputation (``impact 
factor''); and network characteristics.
    \5\ Some of my own work has examined the theme of gender in 
scientific research. In ``An Empirical Study of Gender Differences in 
Patenting among Academic Life Scientists'' (Ding, Murray & Stuart 2006) 
we show that for over 4,000 life science faculty, after accounting for 
the effects of productivity, networks, field, and employer attributes, 
the net effect of gender remains: women patent at 40% the rate of 
comparable men. Other research in this spirit includes Ding et al. 
(2009).

SciSIP COMMUNITY

    The SciSIP, led by the National Science Foundation with critical 
input from Program Officer Julia Lane has made tremendous progress in 
spurring a group of scholars to pioneer studies in the science of 
science and innovation policy. For some of these scholars, this 
represented an increase in their commitment to a field in which they 
already had an interest. For others, SciSIP was a new departure and an 
opportunity to move into a new and burgeoning field of great policy 
relevance and with significant intellectual challenges. The time is now 
ripe to move from funding of individual researchers to extending and 
emphasizing the SciSIP community. A stronger scholarly community--once 
established--will provide a number of critical benefits. It will be in 
a position to design and implement its own common pool resources and 
data sharing infrastructure to ensure that research methods, data and 
analytic tools are widely and effectively shared among scholars. At the 
moment there only a limited data-sharing infrastructure: the STARS 
program represents a key effort to gather new data, however many 
studies rely on complex historical datasets that incorporate rich and 
varied data sources but which are not shared across the community. 
While issues of confidentiality do arise, it is imperative that we 
follow the lead of the scientific communities we study and build a more 
effective infrastructure, norms and rules for data exchange and reuse 
\6\.
---------------------------------------------------------------------------
    \6\ See Murray and O'Mahony (2007) for a detailed examination of 
the need for incentives for disclosure, reuse and accumulation in 
different knowledge communities and how these incentives are provided.
---------------------------------------------------------------------------
    Community building will also enable a richer interchange across 
scholars whose disciplinary training and identify lies in different 
areas. At the present time, my perspective on SciSIP is that there 
exist various sub-communities largely within disciplinary silos who 
communicate but with little exchange across these traditional 
boundaries. For example, those who take an economics oriented approach 
gather as a community under the rubric of the Innovation Policy Working 
Group of the Bureau of Economic Research Productivity Program 
(including the Summer Institute Innovation Policy and the Economy 
activities). Not surprisingly however, this is not a forum in which 
sociologists, historians of science and technology or science and 
technology studies (STS) scholars share their research. In sociology 
there are few if any systematic gatherings of scholars with science 
policy interests and SciSIP researchers from STS and organizational 
behavior share similar concerns. One strong recommendation I have is 
for the NSF SciSIP program to fund the establishment of a ``knowledge 
hub'' that can orchestrate annual or biannual research meetings for 
interested SciSIP scholars. As I outline below in my comments on 
structuring SciSIP education, an effective cross disciplinary hub (that 
could be modeled on the Consortium on Cooperation and Competitiveness 
(CCC)) with governance from faculty from a number of key universities 
and rotating responsibility for cross-university research meetings and 
some (limited) cross-university doctoral training. Such a forum should 
also enjoy strong input from the NSF but overall would be most 
effective if it was organized with ``bottom-up'' support from faculty 
rather than managed directly by the NSF or other agency.
    Building stronger linkages between the SciSIP research community 
and the community of science policymakers is another key pillar of the 
broader SciSIP community that remains to be constructed. At the present 
time, there is limited awareness of the key findings of SciSIP research 
among policymakers, and SciSIP scholars have only been engaged in a 
limited way in recent debates over key changes in science policy. For 
example, in the recent discussions over the role of innovation grand 
Challenges there was very little scholarly input from the SciSIP 
community; many prize and challenge designers and implementers were 
involved but there was little or no discussion of the tradeoffs 
associated with the use of challenges and the characteristics of the 
most effective problems that might be solved using challenges (and 
whose which are less likely to be tractable with this incentive 
system). Building stronger links to the policy community is a long-term 
task that starts with the education of a new generation of policy 
makers to become critical consumers and co-producers of SciSIP 
research. However in the short run, links could be established with 
different government research funding agencies through a series of 
targeted workshops that bring policymakers, agency employees and SciSIP 
researchers to focus either on the issues, problems and successes of a 
particular agency or to focus on cross-cutting issues of mutual 
interest. This is likely to require sustained engagement through a 
series of regular meetings and dialogues in order to build up trust, 
mutual respect and an appreciation of the problems and opportunities 
that our nation's research agencies, researchers and policymakers 
confront and the tools and insights that might guide them going 
forward.

SciSIP EDUCATION

    Education is a critical element of the SciSIP agenda and should be 
a central pillar of SciSIP going forward. To date the program has 
focused largely on research and establishing a community of scholars 
among established academics. There is a pressing need to determine the 
best mechanisms through which to build up the educational aspects of 
SciSIP and to fund this education. The challenge of SciSIP education 
can be considered along two dimensions--education of producers of 
SciSIP research and education of consumers/practitioners of SciSIP 
research.

PRODUCERS

    The educational requirements of SciSIP researchers are intensive; 
the approach requires strong disciplinary foundations in the social 
science. These must then be complemented by three other elements: 
theory, phenomenon, data/empirics:

        <bullet>  Theory: A perspective of the theoretical foundations 
        that ground our understanding of the behavior of scientists, 
        the scientific community, and scientific progress (these can 
        include a microeconomic approach based on understanding 
        incentives, the role of control rights etc. as well as a 
        sociological focus on norms and practices or a psychological 
        view)

        <bullet>  Data/Empirics: Strong data and empirical skills 
        specific to science and science policy. SciSIP is grounded in a 
        belief that while every scientific research project is 
        different, systematic data gathering, the use of both large-
        scale analysis (with publication, patent, citation, 
        collaboration data) and granular field-data, and careful 
        empirical design will enable scholars to draw causal inferences 
        regarding the impact of specific policy levers (at the 
        national, regional, agency, university and lab level) on 
        scientific productivity and impact. Therefore education must 
        give researchers the ability to identify, gather and analyze 
        such data

        <bullet>  Phenomenon: A deep appreciation for the nature of 
        scientific work and for the ways in which particular 
        interventions in scientific progress have shaped productivity, 
        impact or direction. This is challenging for scholars without a 
        scientific training but is essential if scholars are to find 
        the most effective research settings for their studies and if 
        they are to make their work relevant to scientists and to 
        science policy practitioners.

    The education of the ``producers'' of SciSIP research is a critical 
challenge that should be a high priority for the SciSIP community. 
Specifically, we must strengthen the education of PhD students who will 
become the leading scholars in the field developing the research 
agenda, pushing forward and filling research gaps and pioneering new 
methods for the scientific and rigorous analysis of science and 
innovation policy. The skills needed to push this agenda forward are 
two-fold--first a strong disciplinary grounding in the ``home' 
discipline--economics, sociology, social psychology etc. and second, an 
in-depth understanding of the theories, data/empirics, and the 
phenomenon (as outlined above).
    Establishing PhD ``SciSIP field concentrations'' within traditional 
disciplinary PhDs: In my opinion, it is not fruitful to try and 
establish a new discipline within universities termed the ``science of 
science and innovation policy''. Instead I believe that it would be 
extremely valuable establish a ``SciSIP field focus'' within a variety 
of PhD programs within traditional disciplines including economics, 
sociology, public policy etc. At the present time, Public Policy 
schools are offering PhD degrees with a S&T policy focus. However, the 
promise of building a ``science'' of S&T policy is to extend the 
intellectual community well beyond the usual confines of policy 
analysis and ground the empirical and theoretical study of scientific 
productivity and impact in economics and sociology, as well as 
psychology and other adjacent disciplines. Therefore, as a complement 
to S&T Policy PhD education in Public Policy Schools it is critical to 
establish the field of ``SciSIP'' within the traditional education of 
PhD social scientists within their traditional departments. [It is 
worth noting that this is not an effective educational path for those 
from a scientific background to move into SciSIP. To do so requires a 
switch into a social science program to learn the foundations of the 
particular social science discipline followed by a SciSIP field focus].
    Let me illustrate the proposal of a ``SciSIP field focus'' with the 
case of economics: Building a ``SciSIP field focus'' within economics 
would involve establishing a suite of courses and educational materials 
at a small number of leading departments (who could share materials, 
exercises, data etc.). This could then be complemented by educational 
`bootcamps' which would bring these PhD students together (from across 
schools) in a common forum to build their skills, build community and 
hear from leading SciSIP scholars. Such an approach would mirror the 
development of entrepreneurship as a field of study within economics--
an area that was pioneered by the ``Entrepreneurship Bootcamp'' funded 
by the Kauffman Foundation and taught at the National Bureau of 
Economics. The National Bureau of Economic Research has played an 
important role in coalescing much of the activity around education in 
the economic foundations of entrepreneurship through the 
Entrepreneurship Working Group now part of the Productivity Program. 
This has enabled vibrant cross-school collaboration not only on 
research but also teaching. At the PhD level this has helped to build 
up and educate a community of young scholars within economics 
departments and management schools who now have additional training 
allowing them to pursue this field within their discipline.
    Hub and Spoke Approach: To build a strong and effective SciSIP-
oriented PhD educational program will require using Federal education 
funding to actively seed a ``SciSIP'' field focus within at least 4 to 
5 schools per disciplinary area (with at least two disciplines 
represented)--the Spokes. This should be supplemented by funding to 
develop an effective SciSIP `Hub' for PhD education. The SciSIP Hub 
would coordinate activities that encourage coordination across these 
educational efforts, community building activities for the students 
involved, and the community ``Bootcamp''. One model to develop and 
effective SciSIP `Hub' for PhD education is the Consortium on 
Cooperation and Competitiveness (CCC) which ``links together scholars 
interested in long-run performance of U.S.-based companies and 
institutions'' but with a recent focus on PhD-level education, training 
and community building among PhD students from a number of programs 
(based mainly within leading Business Schools) with the involvement of 
academic faculty. As they described, ``No single U.S. university or 
graduate school contains a ``critical mass'' of scholars from diverse 
disciplinary backgrounds concerned with issues that are primary to CCC. 
Accordingly, the network structure of the Consortium is a significant 
source of strength.'' \7\ A similar argument can be made with regards 
to the SciSIP agenda, suggesting that a similar consortium could be 
invaluable in advancing the PhD education and the scholarly 
community.\8\
---------------------------------------------------------------------------
    \7\ http://businessinnovation.berkeley.edu/ccc.html
    \8\ The CCC was funded by an initial endowment of $500,000 in May 
1988 by the Walter and Elise Haas Fund. It has also been supported by 
grants from the Alfred P. Sloan Foundation in New York, the Smith 
Richardson Foundation, the Pew Foundations, the Ford Foundations, and 
the Herrick Foundation. From 1990-1995, the Sloan Foundations was the 
primary funding source for the Consortium. At the current time, the 
funding for doctoral activities is largely provided by individual 
schools supporting their students and hosting the event and by the 
Kauffman Foundation.

CONSUMERS

    The consumers of SciSIP research include Science and Technology 
policy makers as well as scientists and engineers at different stages 
in their education. Each of these groups could benefit from a deeper 
understanding of the results of SciSIP research. In particular, it 
should be a high priority of the SciSIP community to ensure that the 
SciSIP agenda is well understood within S&T Policy education; S&T 
Policy graduates are key stakeholders in the SciSIP research community 
will be leading consumers of our research, and partners in future 
research design and implementation.
    Science & Technology Policy Masters Education: As students with 
Masters-level education in science and technology policy move out into 
the policy community, into research-based public policy organizations, 
and into the funding agencies that are the subject of much SciSIP 
analysis, they should be educated to be critical consumers of SciSIP 
research and to be co-producers of that research in partnership with 
academics. Much SciSIP research is relatively new and involves novel 
methods that are highly technical in nature and are not always taught 
to public policy researchers. Therefore, SciSIP has not yet been 
incorporated as a central pillar into the S&T Policy curriculum. For 
example, I supervise a number of MIT Technology and Public Policy 
students each year and find that they do not have an extensive and 
thorough grounding in the SciSIP approach, methods and results. 
Nonetheless, the students are quick to learn and start to use this 
approach in the course of their thesis work. However, it would be more 
effective to do this in a more programmatic fashion.
    NSF therefore has an important opportunity to work with a number of 
leading S&T policy programs around the country to develop a curriculum 
for education in the imperative, methods and results of the SciSIP 
agenda. This will require a distinctive training from that provided to 
PhD social scientists for a number of reasons. First, these students 
can be expected to have less grounding in the data-oriented empirical 
methods that are common in SciSIP research. The focus should be on 
understanding the empirical approach and critiquing its validity and 
the robustness of findings rather than on replicating studies. Second, 
it is critical to share an understanding of the research design of 
SciSIP projects particularly those that are based on careful analysis 
of policy changes, policy experiments and other studies with a 
thoughtful counterfactual basis. This is a methodological approach that 
has been pioneered within SciSIP (as noted above) and is a critical 
element in the education of S&T Policy students. A greater 
understanding of the SciSIP approach will enable higher levels of 
collaboration between researchers and policy makers in the future. In 
particular, it has the potential to seed a higher willingness to work 
collaboratively with scholars to design and analyze policy experiments 
with the goal of increasing our understanding of the impact of specific 
policy interventions on scientific progress
    Education of Scientists & Engineers: As has long been recognized in 
our analysis of scientific productivity, faculty and students engaged 
in leading-edge research in science and engineering play an important 
and distinctive role in shaping the productivity and direction of their 
laboratories. Indeed the organization and direction of large and 
increasingly complex research laboratories with collaborators that 
cross disciplines, cross universities, and often cross national 
boundaries is a daunting task. Nonetheless, we provide limited 
education to our science and engineering colleagues to guide them in 
this challenging activity. Offerings for scientists and engineers 
during undergraduate and graduate education are limited. As we develop 
new knowledge regarding the factors shaping research group productivity 
and the role of lab leaders in this productivity, it provides another 
opportunity for the National Science Foundation together with other 
leading funding agencies to work to provide such education. Effective 
education for scientists and engineers would involve three elements:

        <bullet>  Teach science and engineering undergraduates about 
        the role of science and technology in society and the economy 
        and given them a broader perspective on their technical 
        education by highlighting the role of S&T policy. Focusing on 
        the results of SciSIP oriented research will emphasize the 
        importance of systematic, rigorous and data-driven approaches 
        to policy, institutions and organizations. This will also 
        provide them with tools to guide them in their subsequent 
        careers, since they will run into the problems of the science 
        and technology at every stage of their careers.

        <bullet>  Provide PhD students with short courses regarding the 
        ways in which their research can be more productive and have a 
        more rapid impact on society and the economy based on SciSIP 
        findings. Focus on the key interventions in the process of 
        knowledge production (according to the SciSIP framework)--
        government policies, regulations etc., university policies and 
        practices, organizational choices. Make this relevant through a 
        focus on the career choices they will have to stay within 
        academia, move into business or focus on policy. For those 
        staying at the bench (in academia or industry) examine how to 
        maximize productivity and impact using the results of SciSIP 
        research--organizational choices they have available, the role 
        of incentives in research teams, the most effective 
        collaborative processes they can use, etc. Highlight the key 
        processes involved in shaping commercial impact including 
        entrepreneurship and technology transfer and the SciSIP results 
        on how these are most effectively deployed. Finally highlight 
        the key role of policy in shaping some of their choices. A 
        program of this type has not, to my knowledge been developed 
        systematically for PhD students. This could be done in 
        conjunction with other career-oriented activities provided by 
        the NSF and other funding agencies to recipients of PhD grants 
        and Fellowships.

        <bullet>  Educate science and engineering faculty to have a 
        deeper understanding of how they can achieve greater 
        productivity and impact, based on the systematic, evidence-
        based results of SciSIP research by running short courses at 
        the university level (perhaps for new faculty), examining the 
        organizational and institutional activities that they could 
        undertake to increase the productivity and impact of their 
        laboratory. This could be incorporated into existing efforts on 
        grantsmanship, communications etc. Possible topics could 
        include two dimensions: factors shaping productivity including 
        lab organizational choices, lab size choices, and collaborative 
        models and factors shaping impact including patenting, 
        technology transfer, materials sharing, networking 
        communication etc. Such an approach would provide a platform 
        for sharing the findings of SciSIP research with academic 
        researchers while at the same time having an on the ground 
        impact on the productivity of investments in research. Finding 
        a possible funder of such an initiative would allow for key 
        educational materials to be developed. The participation of key 
        scientific societies in this activity would also expand the set 
        of stakeholders in the SciSIP agenda.

REFERENCES

Azoulay, P. G. Manso, J. Graff Zivin (2010) Incentives and Creativity: 
        Evidence from the Academic Life Sciences. MIT Sloan Working 
        Paper.

Angrist J. and J.S. Pischke (2008) Mostly Harmless Econometrics, 
        Princeton, NJ: Princeton University Press.

Arrow, K. and R. Nelson (1962). Rate and Direction of inventive 
        Activity: Economic and Social Factors. UMI Press.

Bertrand M., Duflo E. and Mullainathan S. (2004) ``How Much Should We 
        Trust Differences-in-Differences Estimates?'' Quarterly Journal 
        of Economics, 119(1) 249-275.

Cummings, J. N., & Kiesler, S. (2005). Collaborative research across 
        disciplinary and organizational boundaries. Social Studies of 
        Science, 35(5), 703-722.

Cummings, J. N., & Kiesler, S. (2007). Coordination costs and project 
        outcomes in multi-university collaborations. Research Policy, 
        36(10), 1620-1634.

Dahlander, Linus and Siobhan O'Mahony. Forthcoming. ``Progressing to 
        the Center: Coordinating Knowledge Work'' Organization Science.

De Solla Price, D. (1970), ``Citation Measures of Hard Science, Soft 
        Science, Technology, and Nonscience'', in C. Nelson and D. 
        Pollock, eds. Communication among Scientists and Engineers, 
        (Cambridge: Heath Lexington Books).

Ding, W. F. Murray & T. Stuart (2006). ``An Empirical Study of Gender 
        Differences in Patenting among Academic Life Scientists.'' 
        Science, Vol. 313, pp. 665-667.

Ding, W., S. Levine, P. Stephan & A. Winkler (2009). The Impact of 
        Information Technology on Scientists' Productivity, Quality and 
        Collaboration Patterns. Berkeley Institute for Research on 
        Labor and Employment Working Papre.

Fabrizio Ferraro and O'Mahony, Siobhan. Forthcoming. ``Managing the 
        Boundary of an Open Project,'' in Market Emergence and 
        Transformation, W. Powell and J. Padgett, Eds.

Furman, J. and S. Stern. (2010) ``Climbing Atop the Shoulders of 
        Giants: The Impact of Institutions on Cumulative Knowledge 
        Production,'' American Economic Review, forthcoming.

Furman, J. F. Murray (2009). ``Governing knowledge production in the 
        scientific community: Quantifying the impact of retractions''. 
        MIT Sloan Working Paper (under review).

Furman, J., F. Murray, and S. Stern. (2010) ``Growing Stem Cells: The 
        Impact of U.S. Policy on the Organization of Scientific 
        Research,'' working paper.

Garfield E. (1955) ``Citation Indexes for Science,'' Science 122: 108-
        11.

Griliches, Z. (1990) ``Patent Statistics as Economic Indicators: A 
        Survey,'' Journal of Economic Literature, 92: 630-653.

Griliches, Z. (1998) R&D and Productivity: The Econometric Evidence, 
        Chicago, IL: University of Chicago Press.

Haeussler, C., L. Jiang, J. Thursby & M. Thursby, 2009. ``Specific and 
        General Information Sharing Among Academic Scientists,'' NBER 
        Working Papers 15315.

Huang, K., F. Murray (2009). ``Does Patent Strategy Shape the Long-Run 
        Supply of Public Knowledge: Evidence from Human Genetics.'' 
        Academy of Management Journal, 52(6).

Jaffe, A. (2006) ``The `Science of Science Policy': Reflections on the 
        Important Questions and the Challenges They Present,'' Keynote 
        Address at the NSF Workshop on Advancing Measures of 
        Innovation: Knowledge Flows, Business Metrics, and Measurement 
        Strategies.

Jaffe, A., M. Trajtenberg, and R. Henderson (1993) ``Geographic 
        Localization of Knowledge Spillovers as Evidenced by Patent 
        Citations,'' The Quarterly Journal of Economics, 577-598.

Jensen, K., F. Murray (2005). ``The Intellectual Property Landscape of 
        the Human Genome''. Science, Vol. 310, 14 October 2005, pp. 
        239-240.

Jones, B.F., Wuchty, S., Uzzi, B., 2008. Multi-university research 
        teams: shifting impact, geography, and stratification in 
        science. Science 322 (5905), 1259--1262

MacCormack, A., M. J. LaMantia, Y. Cai and J. Rusnak (2008). Analyzing 
        the Evolution of Large-Scale Software Systems using Design 
        Structure Matrices and Design Rule Theory: Two Exploratory 
        Cases, Proceedings of the 7th Working IEEE/1FIP Conference on 
        Software Architecture (WICSA), Feb 2008.

MacCormack, A., J. Rusnak and C. Baldwin (2006). Exploring the 
        Structure of Complex Software Designs: An Empirical Study of 
        Open Source and Proprietary Code, Management Science, Jul 2006.

Marburger, J. (2005). ``Wanted: Better benchmarks,'' Science, 
        308(5725): 1087.

Meyer, B. (1995). ``Natural and Quasi-Natural Experiments in 
        Economics,'' Journal of Business and Economic Statistics, 13, 
        151-162.

Murray (2010). ``The Oncomouse that Roared: Hybrid Exchange Strategies 
        as a Source of Productive Tension At The Boundary Of 
        Overlapping Institutions''. American Journal of Sociology, 
        forthcoming.

Murray, F. and S. Stern (2007) ``Do Formal Intellectual Property Rights 
        Hinder the Free Flow of Scientific Knowledge? An Empirical Test 
        of the anti-Commons Hypothesis,'' Journal of Economic Behavior 
        and Organization.

Murray, F., P. Aghion, M. Dewatrapont, J. Kolev and S. Stern (2010). 
        ``Of Mice and Academics: The Role of Openness in Science''. 
        NBER Working Paper.

Murray, F and S. O'Mahony (2007). ``Exploring the Foundations of 
        Cumulative Innovation: Implications for Organization Science,'' 
        Organization Science 18 (6): 1006-1021.

O'Mahony, Siobhan and Beth Bechky. 2008. ``Boundary Organizations: 
        Enabling Collaboration Among Unexpected Allies,'' 
        Administrative Science Quarterly 53: (422-459).

Owen-Smith, Jason, and Walter W. Powell. 2003. ``The Expanding Role of 
        University Patenting in the Life Sciences: Assessing the 
        Importance of Experience and Connectivity.'' Research Policy 
        32(9): 1695-1711.

Powell, Walter W., Douglas R. White, Kenneth W. Koput, and Jason Owen-
        Smith. 2004. ``Network Dynamics and Field Evolution: The Growth 
        of Inter-organizational Collaboration in the Life Sciences.'' 
        American Journal of Sociology. 110(4): 1132-1205.

Walsh, J., C. Cho and W.M. Cohen, ``View from the Bench: Patents, 
        Research and Material Transfers,'' Science. September 23, 2005, 
        pp. 2002-2003.

Walsh, J, A. Arora and W. M. Cohen, ``Effects of Research Tool Patents 
        and Licensing on Biomedical Innovation,'' in W.M. Cohen and S. 
        Merrill, eds., Patents in the Knowledge-Based Economy, National 
        Academy Press, 2003.

Williams, H. (2010). ``Intellectual Property Rights and Innovation: 
        Evidence from the Human Genome'', MIT Working Paper.

Wuchty, S., Jones, B.F. & Uzzi, B., 2007. The Increasing Dominance of 
        Teams in Production of Knowledge. Science, 316(5827), 1036.

                       Biography for Fiona Murray

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Fiona Murray is an Associate Professor of Management in the 
Technological Innovation and Entrepreneurship Group at the MIT Sloan 
School of Management and Faculty Director of the MIT Entrepreneurship 
Center. She received BA and MA degrees in Chemistry from the University 
of Oxford before coming to the United States where she received her 
doctoral degree from Harvard University's School of Engineering and 
Applied Sciences. Her research interests moved away from the bench to 
the study of science-based entrepreneurship, the organization of 
scientific research and the role of science in national 
competitiveness. After a lectureship at Oxford's Said Business School, 
Fiona joined the MIT Sloan School of Management where she studies and 
teaches innovation and entrepreneurship with an emphasis on the life 
sciences, chemicals and materials sectors. Fiona is well-known for her 
work on how growing economic incentives, particularly intellectual 
property (IP), influence the rate and direction of scientific progress. 
Fiona works with a range of firms designing global organizations 
working with a wide range of internal and external innovators (through 
traditional contracts and ``Open Innovation'' mechanisms) that are both 
commercially successful and at the forefront of science. She is also 
actively involved in policy debates over the appropriate use of IP and 
licensing in universities and more recently debates on when and when 
not to use patents to promoted discovery research in neglected 
diseases. She is also interested in the most effective organizational 
arrangements for the rapid commercialization of science including 
start-ups, public-private partnerships, the role of venture 
philanthropy, and university-initiated seed funding. Her research has 
been widely published in a diverse range of scientific and social 
science journals including Science, New England Journal of Medicine, 
Nature Biotechnology, Research Policy, Organization Science and the 
Journal of Economic Behavior & Organization.

    Chairman Lipinski. Thank you, Dr. Murray. Dr. Teich.

  STATEMENT OF ALBERT H. TEICH, DIRECTOR OF SCIENCE & POLICY 
 PROGRAMS, AMERICAN ASSOCIATION FOR THE ADVANCEMENT OF SCIENCE

    Dr. Teich. Thank you, Chairman Lipinski, Ranking Member 
Ehlers, other Members of the Subcommittee. Thank you for the 
opportunity to testify at this hearing today. I am Al Teich, 
and I am the Director of Science and Policy Programs at the 
American Association for the Advancement of Science.
    As you know, AAAS and I myself have been deeply involved in 
science and innovation policy for many years. Although this has 
been an active field of research at least since the 1960s, and 
it has produced a large body of literature and a substantial 
number of researchers, there is a feeling that the results of 
this work are not widely known or used among those who actually 
make science and innovation policy.
    This was behind the frustration of Dr. Marburger in his 
speech, which led to the establishment of the NSF SciSIP 
Program. The SciSIP Program has a unique mandate to couple 
advances in fundamental knowledge about processes of scientific 
discovery and technological innovation with issues of relevance 
to policy makers. Among the features that differentiate the 
SciSIP Program from its predecessors is the fact that it is not 
just supporting individual research grants, but it is 
attempting to build a community of practice among researchers 
and to connect that community with potential users of the 
research, practitioners in the Federal Government.
    AAAS has played an active role in building this community 
of practice through a workshop in 2009 that brought researchers 
together to learn from one another. In that workshop, we saw 
how SciSIP researchers reflect distinct disciplinary traditions 
that can inhibit productive interdisciplinary dialogue. Even in 
this not-very-large field, they can't always talk to one 
another. They may ask different questions, use different 
theoretical frameworks that employ different methodologies even 
when they may address seemingly similar topics.
    At the same time, because of the academic reward system, 
SciSIP researchers, like many other researchers, seldom speak 
in terms that policy makers find directly useful. And as one 
speaker said at the 2009 AAAS workshop, policymakers are 
confronted with a Babel of tongues which leads them to ignore 
the experts and turn to other sources of information and 
advice. Next month AAAS will convene another workshop with NSF 
support. In that one we will try to connect researchers with 
customers in the government. We hope that that workshop will 
serve to allow the two communities to better understand each 
other's needs and expectations.
    While projects like the AAAS-NSF-SciSIP workshops are an 
important step in building a community of practice, there is 
more that can be done. Here are a couple of ideas just as food 
for thought. Regarding research, researchers tend to 
communicate directly with their peers by journals and 
conference presentations in order to gain recognition in their 
fields. But few policy makers read those journals or attend 
those conferences. We need to find ways to encourage SciSIP 
researchers to communicate with policy makers, either directly 
or through the media, and to be rewarded and not penalized by 
less policy-oriented peers in their fields for doing so.
    On the teaching side, although many of the university 
programs that provide graduate training in science and 
innovation policy are interdisciplinary, the training they 
provide is not always responsive to the needs and priorities of 
policy makers. It might be useful to strengthen ties between 
researchers and policy makers by engaging policy makers in 
helping to develop and review curricula as well as engaging 
them in teaching as adjuncts or guest lecturers. Some schools 
already do this. Others would do well to follow their lead.
    Beyond education, there is another mechanism for promoting 
greater mutual understanding between researchers and policy 
makers. It is people transfer. One approach might be to create 
a program to give SciSIP researchers the opportunity to work in 
government for perhaps a year. Providing SciSIP researchers an 
opportunity to work in a policy making setting for a while, as 
we do for scientists and engineers in our Congressional Fellows 
Program, would allow them to gain firsthand knowledge regarding 
the needs, priorities, and modes of operation of the potential 
users of their work. Like our workshops, this hearing is an 
opportunity for the science policy community to hear from you, 
as policy makers, what research questions you believe SciSIP 
researchers should be addressing. I look forward to the Q&A as 
an opportunity to exchange ideas on that subject.
    [The prepared statement of Dr. Teich follows:]
                 Prepared Statement of Albert H. Teich
    Chairman Lipinski, Ranking Member Ehlers and members of the 
Subcommittee, thank you for the opportunity to testify today on the 
evolving subject of the Science of Science and Innovation Policy.
    The American Association for the Advancement of Science (AAAS) is 
the world's largest multidisciplinary scientific society and publisher 
of the journal Science. The association, which celebrated its 162nd 
birthday earlier this week, encompasses all fields of science, 
engineering, mathematics, biomedicine and their applications. For more 
than thirty-five years, AAAS has demonstrated its commitment to and 
involvement in science policy issues with projects and activities such 
as the annual AAAS Science and Technology Policy Forum, the Science and 
Technology Policy Fellows Program, more recently with our Leadership 
Seminar in S&T Policy, and--most directly relevant to this hearing--our 
joint project with the National Science Foundation on the Science of 
Science and Innovation Policy (SciSIP). We have served the academic 
science policy community by publishing the first Guide to Graduate 
Education in Science, Engineering and Public Policy (known as the SEPP 
Guide) in 1985 and maintaining it as an online resource to the present 
day.

Background

    From one perspective the Science of Science and Innovation Policy 
is not entirely a new field. Since the 1950s--and probably earlier--
economists, sociologists, political scientists and others interested in 
public policies for science and technology have sought ways of 
measuring the value of research investments. Research articles on 
topics such as measuring Return on Investment (ROT) from research and 
development (R&D), national innovation systems, and comparisons of 
state and international standings have been published for many years. 
Government tools such as the 1993 Government Performance and Results 
Act (GPRA) and the more recent Program Assessment Rating Tool (PART) as 
well as their programmatic forebears, have attempted to quantify the 
value of government investment in various programs, although they have 
found R&D programs more difficult to assess than others.
    In the 1960s, the National Science Foundation (NSF) supported the 
development of research and graduate education programs in science and 
technology policy in a number of universities. During the 1970s, it 
created the R&D Assessment and R&D Incentives programs, which funded 
research on some aspects of S&T policy in universities and non-profit 
institutions. In addition to the SciSIP program, the Foundation 
currently funds research in science policy and related areas through a 
number of programs, including the Science, Technology, and Society 
Program in the Directorate for Social, Behavioral, and Economic 
Sciences, and the Division of Science Resources Statistics, which has 
long provided data and analysis of importance to science policymaking.
    The current Science of Science and Innovation Policy endeavor is 
unique, however, in its focus on drawing this research together into a 
systematic, coherent body of knowledge that can be brought to bear 
directly on national policy decisions. The National Science 
Foundation's SciSIP program is engaging the science policy community in 
research in theory, methods, models, and data development along four 
broad themes--workforce issues, innovation ecosystems, outcome 
measures, and data infrastructure. The program has an explicit mandate 
to couple advances in fundamental knowledge about processes of 
scientific discovery and technological innovation with issues of 
relevance to policymakers. As a field of research, the Science of 
Science and Innovation Policy has essentially been raised in relevance 
from a largely academic discourse to a field with a potential national 
impact.
    Science and technology policy research can have and has had a 
positive effect on national policy decisions. R&D data analyzed and 
reported by NSF, as well as by AAAS, for example, has provided a 
roadmap for decades for policymakers such as the Members of this 
Committee as a guide for crafting the federal R&D portfolio.
    As the NSF SciSIP program is still quite young and has been 
awarding grants for only a few years, we believe that it is premature 
to expect the results of that program's research to be incorporated 
into national policy decisions. Furthermore, the results of any science 
and technology policy research--whether within or outside SciSIP--must 
still run the gauntlet of the policy process.
    In other words, simply because the research has been done, does not 
mean that it will be used. As helpful as the AAAS R&D budget analysis 
may be to its users, policymakers still make decisions based not only 
on research and analysis, but also on constituent needs, economic and 
political considerations, public opinion, and their own perspectives on 
national priorities. The same goes for studies that measure the 
effectiveness of federal programs. Politics is not a contaminant in the 
policymaking process. It is, after all, the essence of a democracy.
    One way that policymakers can increase the likelihood that SciSIP 
research be used to inform the design of effective federal programs and 
the management of federal research investments is to conceptualize and 
design research that both advances knowledge in a discipline and 
answers specific questions relevant to policy. Some examples of such 
research topics are given in the NSF SciSIP program solicitation:

        <bullet>  examinations of the ways in which the contexts, 
        structures and processes of science and engineering research 
        are affected by policy decisions,

        <bullet>  the evaluation of the tangible and intangible returns 
        from investments in science and from investments in research 
        and development,

    It should be pointed out that science and technology policy 
research is just as unpredictable as basic research in physics, 
chemistry, or life sciences, and decision makers must take into 
consideration the fact that some studies may yield unanticipated 
results and that some may serve long-term rather than short-term needs. 
It is important to ensure that an effective SciSIP portfolio balances 
research that reflects short-term and long-term policy interests.
    Among the features that differentiate the SciSIP program from 
similar, past efforts, is its focus on building a community of practice 
among researchers in the many disciplines engaged in the study of 
science and innovation policy and its conscious effort to build bridges 
between this community and the practitioners in the federal government. 
Previous programs to support science and technology policy research 
have always focused primarily on providing grants to individual 
principal-investigators.
    AAAS has played an active role in building this community of 
practice. We organized a workshop of the grantees from SciSIP's first 
and second rounds (FY 2007 and 2008) of awards to further construct 
this community. The outcome of that workshop was a report, titled, 
Toward a Community of Practice.\1\ Next month we will convene a second 
workshop to continue building a community of practice by connecting the 
researchers with potential users of their results in the federal policy 
community.
---------------------------------------------------------------------------
    \1\ Albert H. Teich and Irwin Feller, Toward a Community of 
Practice: Report on the AAAS-NSF Grantees Workshop, March 24-25, 2009 
(Washington, DC: American Association for the Advancement of Science, 
August 2009). Available online at http://www.aaas.org/spp/scisip/
scisip<INF>-</INF>report.pdf.
---------------------------------------------------------------------------
    There are challenges to building this SciSIP community of practice. 
A sizable group of researchers working on current projects as well as a 
large body of literature already exists. To an important degree, these 
individuals and this literature reflect distinct disciplinary 
traditions that can inhibit a productive interdisciplinary dialogue. 
These disciplinary clusters may ask different questions, draw upon 
different theoretical frameworks, and employ different methodologies 
and analytical models even when they may address seemingly similar 
topics (e.g., diffusion of innovation). Sometimes it seems they even 
speak different languages.
    At the same time, as these researchers speak to an audience of 
their peers--albeit within their disciplines--they often do not speak a 
language that policymakers understand or find useful. A concern 
expressed at the first AAAS SciSIP workshop was that policymakers would 
be confronted with a ``Babel of tongues'' which would lead them to 
ignore the experts and turn to other sources of information and advice.
    Another challenge is the fact that not all SciSIP researchers have 
experience working at the interface between academic research and 
federal policymaking. Some lack an understanding of the user community 
and who the policymakers are, what information or datasets they might 
require, or what other information they might need to know in order to 
effectively address national policy priorities. This is not to imply 
that these researchers are not familiar with the organization of 
government or the legislative process. Rather, it has more to do with 
the subtleties and nuances of the ``game'' and having an insider's 
perspective on the complex policy questions that decision-makers face 
and the interplay of interests that often shapes the debate over 
science and innovation policy.
    The AAAS project is an effort to build these necessary 
relationships and to help SciSIP researchers and policymakers speak 
each other's language and better understand each other's needs and 
expectations. The goal is not to build a grand over-arching theory of 
science and innovation policy, but to seek convergences among findings 
and a higher degree of understanding within the community about new 
perspectives and paradigms regarding science and innovation policy. It 
is to build a more interdisciplinary approach with an eye towards 
practical application by practitioners.
    This community of practice is intended to assist individual 
researchers or teams of researchers by enlarging the set of variables 
and/or relationships that they consider in their work. It provides an 
opportunity to expose research findings to a wider set of critical 
perspectives and allows researchers to consider how their findings may 
relate to other disciplines and research findings in other areas.
    As you know, the NSF initiative in the science of science and 
innovation policy stemmed from a sense that the body of science and 
innovation policy research does not seem to be very widely known or 
used among those who actually make policy in these areas. The AAAS 
SciSIP project is intended to facilitate interaction between relevant 
federal agency representatives and the growing community of SciSIP 
researchers, to help the agency representatives learn about emerging 
theories and models, and to connect research results with policy 
issues. At the same time, SciSIP researchers should be able to learn 
from the user community about their policy priorities and needs, which 
can help shape the direction of future projects.
    While the SciSIP program and projects like the AAAS-NSF SciSIP 
workshop are an important step in building a community of knowledge and 
a strong foundation between research practitioners and policymakers, 
there is more that can be done.
    Communication: As noted earlier, researchers addressing questions 
of science and innovation policy have tended to direct their work to 
colleagues, peers and others within their core discipline. This 
includes presentations at professional associations and conferences, 
and publishing in specialized journals (e.g., Research Policy, Social 
Studies of Science). This is quite understandable in view of the reward 
structure of academia and desire on the part of scholars in this field 
and others to gain recognition from their peers. Relatively few 
policymakers read such journals or attend academic conferences with any 
regularity. One could approach this problem in two ways: One approach 
would be to encourage policymakers to read these journals and/or attend 
more academic conferences. Given the constraints of time and energy 
they face, this seems unlikely to work. Alternatively, SciSIP 
researchers might seek, in addition to their regular publication 
outlets, opportunities to reach out to policymaking community either 
through themselves writing for those publications that policymakers do 
read or by cultivating opportunities to have their work reported in 
popular media.
    Education and Training: This ``clustering'' of a narrow core 
discipline has not only worked its way into the presentation of 
information, but in the education and training of students studying 
science and innovation policy that only encourages self-organization of 
a research area. Although the AAAS SciSIP program may help in 
encouraging the development of a more interdisciplinary curriculum, it 
isn't the central goal of the project.
    As the committee has noted, there are about 25 U.S. universities 
that offer graduate education in science, engineering and public 
policy. There is no central organization for these programs and do not 
share a common curriculum or even a common nomenclature. The AAAS Guide 
to Graduate Education in Science, Engineering, and Public Policy 
mentioned earlier lists programs such as Science Policy; Technology 
Policy; Science and Technology Policy; Science, Technology, and Public 
Policy; and Engineering and Public Policy. In addition, many programs 
in Science and Technology Studies (STS) include a policy component, and 
some programs in public administration and public policy provide for a 
science and technology concentration. Furthermore, these graduate 
programs can be administered within different academic departments: 
Schools of Engineering, Public Administration, International Affairs, 
etc. Some programs allow for students to take coursework outside the 
traditional curriculum in other tangential fields (e.g., law), while 
other schools do not.
    Many of the graduates of these programs have gone on to very 
successful careers. Nevertheless, it might be useful to have people 
from the policy community--the potential users--involved in reviewing 
the curricula of these programs as well as engaging in teaching as 
adjuncts or guest lecturers. This is obviously easier for universities 
in the Washington, DC, area to do than for those in other regions and 
some institutions in this area do it regularly to good effect. But it 
is worth the effort and expense for all.
    Fellowships: Another potential mechanism for promoting cross-
fertilization of ideas and greater understanding of the policymaking 
community's needs, is to create a Fellowship program for SciSIP 
researchers to work in government for one year, similar to the AAAS 
Science and Engineering Policy Fellowship that allows scientists an 
opportunity to work at a federal agency or in a congressional office or 
committee. Intergovernmental Personnel Act appointments could also be 
used for this purpose. Providing science and policy researchers and/or 
graduate students an opportunity to work in a policy office of the 
federal government would allow them an opportunity to learn first-hand 
the language, needs, and priorities of an agency, department, or 
congressional committee.

Conclusion.

    I would like to thank the Members of the Subcommittee for holding 
this hearing and for their interest in the SciSIP program and the area 
of science and innovation policy research. I look forward to working 
with your staff as we prepare for the next AAAS workshop. Like our 
workshops, this hearing is an opportunity for the science policy 
community to hear from you, as policymakers, what research questions 
you believe SciSIP researchers should be addressing. I look forward to 
the Q&A as an opportunity to exchange ideas on that subject.

                     Biography for Albert H. Teich
    Al Teich is Director of Science & Policy Programs at AAAS, a 
position he has held since 1990. He is responsible for the 
Association's activities in science and technology policy and serves as 
a key spokesperson on science policy issues. Science and Policy 
Programs, which includes activities in ethics, law, science and 
religion, and human rights, as well as science policy, has a staff of 
40 and a annual budget exceeding $13 million. He also serves as 
director of the AAAS Archives.
    Teich received his bachelor's degree in physics and his PhD in 
political science, both from M.I.T. Prior to joining the AAAS staff in 
1980, he held positions at George Washington University, the State 
University of New York, and Syracuse University. Al is the author of 
numerous articles and editor of several books, including Technology and 
the Future, the most widely used college textbook on technology and 
society, the twelfth edition of which will be published in 2011 by 
Cengage Learning.
    He is a Fellow of AAAS and the recipient of the 2004 Award for 
Scientific Achievement in Science Policy from the Washington Academy of 
Sciences. He is a member of the editorial advisory boards to the 
journals, Science Communication; Science, Technology, and Human Values; 
Review of Policy Research; and Renewable Resources and has been a 
consultant to government agencies, national laboratories, industrial 
firms, and international organizations. He is past president of the 
Washington Academy of Sciences; former chair of the Board of Governors 
of the U.S.-Israel Binational Science Foundation, where he remains a 
member of the executive committee; a member of the Technical Advisory 
Committee of the Maine Space Grant Consortium; the Norwegian Research 
and Technology Forum in the United States; the Advisory Board of the 
University of Virginia's Department of Science, Technology and Society; 
the Program Committee for the 5th EuroScience Open Forum (to be held in 
Dublin, Ireland, in 2012) and the Council of Advisors for Research and 
Innovation Strategy of the National University of Singapore.
    Teich speaks frequently before audiences in the U.S., as well as 
Europe and Asia. He has appeared on National Public Radio, CNN, C-SPAN, 
as well as various other electronic media and has been quoted in 
numerous print media, including The New York Times, The Washington 
Post, National Journal, The Chronicle of Higher Education, and CQ 
Weekly Report.

    Chairman Lipinski. Thank you Dr. Teich. I am going to start 
questions. If you want to leave to get over to vote I think we 
have about four minutes left, probably, in the first vote. But 
I think this vote is going to last a long time. But we will--if 
the witnesses can come back afterwards--it is probably going to 
be about an hour though. I am not sure if any of you have--we 
will have to leave at that point, but--yes, Dr. Ehlers, yes. 
You have a suggestion?
    Mr. Ehlers. No, just a quick comment which shows the 
importance of this topic and why we should come back if we can 
depending on the votes. But I would simply observe that the 
current process in the Congress is that science policy is set 
by the Appropriations Subcommittees. Money controls everything 
and when they decide to give a certain amount of money to a 
certain project, that basically ends up being the decision. 
That totally ignores the input of other scientists and SciSIP's 
folks who have a much greater interest. So something you can 
think about in the meantime is how that could be addressed 
without throwing out the Appropriations Committee entirely 
which is probably impossible. So I just wanted to mention that, 
and I hope you will have some brilliant ideas on how we could 
practically address that particular problem. My staff just 
informed me that 300 people have not yet voted, so we could 
probably walk over instead of running over. But I hope the 
votes don't run too long. And I would be delighted if any of 
you would take on the challenge too and follow this.
    Let me add one quick last comment. When Newt Gingrich was 
here he wanted to double the funding in NIH, which did happen 
in the Appropriations Committee. I argued that we should have 
equal funding increases for NSF, treat all the sciences 
equally. He said we will do that one next. Well, unfortunately 
we lost the majority and so the next--they were happy. But 
today I have heard Newt say in numerous speeches that one big 
mistake he regrets is not having increased NSF and the other 
hard sciences at the same time when he increased NIH. So let 
that be a moral note for all of you who hope someday to be the 
Speaker of the House of Representatives. Thank you very much.
    Chairman Lipinski. I am hoping that you can make sure you 
spread that work amongst your colleagues before you leave.
    Mr. Ehlers. Yeah.
    Chairman Lipinski. So you can help us--who really wants to 
make sure we get that done, get that done in the future. Well, 
you now have your homework assignment. You will have probably 
about an hour and we will be back. Hopefully sooner than that, 
but it is going to be at least 45 minutes I would say and I 
look forward to hearing your answers. I am most interested in 
how we really make these connections. Dr. Teich, I appreciate 
some of your comments. I would like to delve maybe some more 
into how we can, having been a--now as a political scientist, 
and talk about not--policymakers don't read the journals. 
Political scientists weren't reading the journals because it 
didn't really speak to them, much less the policymakers. But I 
would like to delve into that also some more, how we can 
improve that. But the Subcommittee will be in recess.
    [Recess.]
    Chairman Lipinski. I call this hearing back in. I will now 
start the questioning. I understand Dr. Sarewitz has to leave 
at four o'clock so we will--each of us will get the chance to 
ask some question before you have to leave. So I will now 
recognize myself of five minutes and will begin with Dr. 
Sarewitz.
    You mentioned in your testimony that most of the data 
available for SciSIP analysis are input/output data, level of 
funding, number of graduate students, patents, et cetera, 
publications. And if you--data offer an incomplete view of 
societal value of S&T investments. So what would you suggest 
that we do to better characterize and measure the social 
outcomes of R&D?
    Dr. Sarewitz. Okay. Thanks for asking that. It actually--
see, how should I put this--it--my answer will reflect a 
diversity of perspectives here. I think we can all agree that 
the process--and Julia actually wrote about this wonderfully in 
Science Magazine--that the process that leads from R&D to a 
particular desired social outcome, for example more employment 
or better health, is extremely complex, with many different 
inputs into the process. But I think that measuring is one way 
to understand things but also very close case-based and textual 
analysis is another way to understand things. And my view is 
that the system is so complex that we are probably not going to 
come up with a big theory of how you can predict social 
outcomes from science and technology inputs. But we are going 
to be able to develop a number of principles that reflect our 
understanding of particular examples.
    So I think the kind of data that--and I wrote about this a 
little bit in my testimony--that we really need a kind of--data 
that we are lacking that would be very important is very 
granular case studies of both successes and failures in this 
full range of linkages from laboratories to social outcomes for 
a particular range of scientific priorities. And I think by 
doing that we will be able to elicit a set of general guiding 
principles that can help you guys distinguish between policy 
decisions that make sense and policy decisions that don't make 
sense. I guess I am a little skeptical of the idea that we will 
ever be able to actually predict with precision. But I think we 
can be a lot smarter about the basic set of assumptions if we 
can develop some really close case studies from end to end, 
case studies that show great detail.
    Let me just quickly say, one, we are looking, for example, 
at Arizona State we are looking at the development of the solar 
power industry in Arizona, because obviously we have a lot of 
sun there. And so it is not--one of the important inputs of 
course is R&D into the solar power industry, but there are all 
sorts of local dynamics, from water availability, land use, 
obviously regulatory frameworks, all of those things are 
important and they are not generalizable.
    So while I think we can develop a very rich case study 
around solar in Arizona, I don't think we should necessarily 
worry about a grand theory. So we should develop best practice 
case studies looking very closely at the full process of 
leading from the R&D activities themselves to the societal 
outcomes.
    Chairman Lipinski. Did anyone else want to--any of the 
witnesses want to comment on that? Have anything to add to 
that? If not I am--now I think about this in your answer, Dr. 
Sarewitz and I--do we have the data available right now? Would 
we need to do a better job of collecting data so that we can do 
this kind of research? The whole generalized ability of this is 
when you look at almost anything that is really a social 
process. I always go back to my days as a political scientist 
in trying to put together these theories that will predict 
outcomes and the struggle with doing that and trying to make 
political science into physics. How much can we do here when we 
are talking about doing the SciSIP research, and what we can 
really glean from the data that we have?
    Dr. Sarewitz. So let me just say this. A diversity of 
perspectives is here and that is good. I mean, I think it is a 
rich field and it needs to bring lots of perspectives together, 
from the highly quantitative model to the more case-based 
qualitative work. We need all of that. I think we know a lot. I 
think Dr. Teich's point about the problems of communicating 
what we know is really important, and that thinking about how 
to communicate more effectively the things that we already 
know, for your benefit, is an essential part of it. And so two 
things need to go on simultaneously. They are--this field is 
really only just beginning to kind of get its legs.
    Dr. Murray talked about how she's been doing it for a long 
time, didn't know there was a field out there. I have been 
doing it for a long time as well, but more or less in small 
groups. So Dr. Lane's, you know, efforts to create a community 
does two things. One is, it creates--it has created the 
intellectual momentum that we are going to need to move the 
field forward, but it also allows us to really collect what we 
know already, which I think is considerable, and present that, 
if we can figure out how to communicate effectively. I would be 
glad to talk about that a little bit, too, if you would like.
    Chairman Lipinski. Well, let us come back. Right now I am 
going to yield back my time. I assume my time is up and I want 
to yield now to recognize Dr. Ehlers for five minutes.
    Mr. Ehlers. Thank you very much and I don't have any 
questions for you Dr. Sarewitz, other than to note that we 
produce weather today that is very close to what you have back 
home. We did put a little moisture in the air as well, so that 
is a little different.
    Dr. Sarewitz. I wouldn't be dressed like this either.
    Mr. Ehlers. That is true. But I appreciate you coming. I 
don't have any questions for you that have not been either 
answered or explained already. But I would like to ask on the 
two ends of the panel, Dr. Lane, Dr. Teich, you both are quite 
familiar with the Congress and how it operates. Do you have any 
suggestions on what someone in the Congress could do to help 
educate our Members about the importance of science policy and 
what it should be, what it can do, what it cannot do, and any 
wisdom you could give us I think would be very helpful as we go 
forward in the Science Committee and try to--I hate to use the 
word modernize, but you know what I am talking about. Just try 
to get the workings of the House of Representatives and the 
Senate to reflect reality, and what should be done about the 
Science of Science Policy and in particular, what role science 
policy should have in guiding the Congress on the very 
difficult issues we have, particularly those relating to 
funding. So we will start with you, Dr. Lane, and go to Dr. 
Teich, and also Dr. Murray if you have any comments on that.
    Dr. Lane. Well, thank you very much for that thoughtful 
question. I am not as wise in the ways of Congress as you, 
obviously, so this is very much in the spirit of the suggestion 
rather than an expert approach. One of the things that I think 
is most important, that will get Congress to understand the 
value of science investments, is evidence. If there is clear 
evidence of the impact of science investments, on the four sets 
of dimensions--social, scientific, economic, and work force--
that both has a qualitative aspect, that is, that there are 
real people affected, and there are real advances that are made 
in the quality of life, but also quantitative. That is, when 
you can unambiguously say there were--this amount of investment 
led to a whole variety of different sets of outcomes, and that 
tracer is clear. I think that is what gets people in Congress's 
attention, because obviously they are serving the American 
taxpayer, and that is what the American taxpayer is interested 
in finding out.
    Mr. Ehlers. Okay. Dr. Teich.
    Dr. Teich. Yeah, I think I would turn that around a bit and 
point out that it is really very much up to us in the SciSIP 
and science policy communities to communicate effectively with 
you in the Congress. You have so many messages coming at you 
from so many different directions that somehow, what we need to 
do is differentiate the kinds of information that we have, 
hopefully evidence-based. And we have to recognize that it is 
not the only influence, the only thing that you have to take 
into account in making decisions.
    That decision--I was struck by something Chairman Lipinski 
said about making political science into physics. I started 
out, I got an undergraduate degree in physics and my Ph.D. in 
political science, and you know physics; in some respects 
physics is lot easier, you know. You start, you can--my 
freshman physics, you know, assume a frictionless plane. Okay, 
well you can assume a frictionless plane and it works in some 
respects. Assume a frictionless Congress and you know you have 
got nothing. It doesn't make any sense. So there is a--politics 
isn't neat. It is not, and data doesn't always trump a lot of 
other factors that go into decisions. We have to understand 
that we have to communicate within that framework, and then I 
think it is up to you in the policy community to make use of 
that. Best I could do on short notice.
    Mr. Ehlers. If we had a frictionless Congress, things might 
go better. Dr. Murray, do you have any wisdom to add to this?
    Dr. Murray. I am not sure it is wisdom. It is certainly a 
thought I have, is that--I think it is important for us to 
provide data that is meaningful. I think it is also important 
for us to think about studies that really show, again, sort of 
causal impact. So I think that there is some new work that has 
been funded by SciSIP and in other places where we can say, 
look, you know we did have a quite big shock to the system in 
terms of additional funding going in quite rapidly through the 
Recovery Act, and some of the spending in other countries that 
means very big shifts in research funding allocation that have 
happened relatively quickly. And so I think we have a lot of 
opportunities to both study those things and also to marshal 
that evidence--because I think you could always go in and just 
say, we want more for science and technology, and everybody has 
heard that and of course we are going to say that. And so I 
think that coming in with evidence that says--when you get 
these shifts, both in level and distribution, real things 
happen, real differences, and outcomes happen. I think if we 
can marshal that evidence in a persuasive way, then I think we 
can be much more informed and are much more likely to be 
listened to.
    Mr. Ehlers. Okay. Well, those are very good comments. I 
worry a little bit about the Congress requiring a lot of 
evidence because you know many experiments don't come out that 
well and the Congress would say, now--next time you come 
around, say, well, you know, you sold me on this project and 
nothing really good came out of it. And that is pretty hard to 
overcome.
    I really appreciate the ideas you have presented and the 
comments you have made today. And it has given me some new 
insight. And I really do think that we need more concentration 
on this not only in the Congress, but among the science policy 
community. And what I said several times earlier on about this 
was--I deliberately said ``Unlocking the Future'' because I 
wanted someone in the future to write better, something better 
about science policy and something along the line of Vannevar 
Bush's book which was probably--it could have been what we want 
today, but nevertheless he addressed a lot of issues that had 
to be taken into account. He himself was very different but 
very concerned about the fact that Congress did not pick up on 
a lot of his suggestions, and particularly one creating a 
different version of the National Science Foundation, but yet 
out of his work and his arguments, eventually, I think some ten 
years after he wrote the book, they did start establishing the 
National Science Foundation. So even though he regarded his 
work as a failure because the Congress didn't pick up on it, 
eventually it did happen.
    So I encourage the science policy community to become very 
active, and frankly, also very aggressive in your addressing 
Members of Congress. It would not hurt at all if a few people 
from the science policy committee ran for Congress and got 
elected. I just had an experience on the Floor not 10, 15 
minutes ago. Someone came up to me and had been present this 
morning at the Science Committee meeting and said Vern, what in 
the world are we going to do without you, because I had used my 
scientific knowledge in a number of statements. And I say well, 
I think, you know I don't think I do that much. They will get 
along. But the matter of fact is there won't be any scientists 
left on the Science Committee. And it is just helpful to be 
inside all the side discussions that are held. It is good to 
have someone there.
    So I repeat, as I have done with every speech I have given 
to every engineering or scientific group: run for Congress. We 
need more scientists in the Congress, and incidentally not just 
for the benefit of science, but most scientists are fairly 
clear thinkers on issues and frictionless or not, and they have 
a lot to contribute to the operation of the governing bodies of 
this country.
    I would actually say I probably got--had much more impact 
at the state level because I was truly a rarity there. And most 
state governments don't have the resources to have scientists 
on staff. And I had endless amounts of work to do trying to 
resolve things, such as resolving difficulties between 
optometrists and ophthalmologists, or dealing with questions 
such as the foam installation that was the rage for awhile 
pumping into homes and now people are sick from formaldehyde 
fumes from that. These are issues no one in the state 
legislature was equipped to deal with, and I resented all the 
time I had to spend on it, but at the same time it was very 
useful to society. So spread the word, please, and thank you 
again for being here. I appreciate it very much.
    Chairman Lipinski. Thank you, Dr. Ehlers.
    Mr. Ehlers. Chairman, I beg your pardon but I have a bill 
on the floor that has just been called up and I have to rush 
down there to speak on it, so my apologies.
    Dr. Teich. Mr. Ehlers, before you go I just want to say on 
behalf of AAAS, the science community and the SciSIP Community, 
we are going to miss you. Thank you for everything that you 
have done.
    Mr. Ehlers. Thank you very much. I appreciate that.
    Mr. Lipinski. Dr. Ehlers, we will assume I have your 
permission to continue here and wrap up. See as there was no 
objection from Dr. Ehlers I will--I was asking for your 
permission to continue on and to wrap up here. Thank you. Okay. 
You are still here, and frictionless. I will now recognize 
myself for five minutes. I--it is funny, the--talking about the 
assumptions and comparing physics to--or trying to make 
political science into physics. I had a colleague of mine in 
grad school in political science who was also, like myself, had 
a background in engineering before going to get a Ph.D. in 
political science, and he always would say that political 
science had physics envy and we were trying to be physics. Now 
it did not stop. Political scientists, and even focusing 
specifically on Congress, Congressional scholars did not--some 
were not afraid to make assumptions that wind up where they 
were talking about something that was supposed to be Congress 
but pretty much--very much not Congress anymore after all the 
assumptions that were made, and make all these assumptions that 
said, with this, we were dealing with a imaginary legislature, 
but then we are going to pretend like it is Congress. Hopefully 
that is not the type of work that is going on here in SciSIP.
    I want to make sure--one thing I wanted to ask--Dr. Murray 
talked about this, and I want to ask everyone about, if they 
have any more comments on this. Because I know Dr. Murray, in 
your testimony you talked extensively about it as training, you 
know, more people to be able to do this research in having 
programs that produce the type of, you know you, go into what 
she is talking about, Ph.D. programs, but we need to, in 
general, produce people who can do this, to do this work. And I 
know that people who are doing this, researchers in this field, 
are located--as I mentioned in my opening statement--in all 
kinds of different places.
    Dr. Murray, I know you are in the business school. Are 
there any suggestions--I don't know if there is anything else 
you wanted to add, Dr. Murray, or Dr. Teich, or if Dr. Lane 
would want to say anything about where we are right now in 
terms of programs that are producing researchers that can do 
SciSIP--where that is going. Are there programs such as this 
that are out there? If not, where are they coming from? Is this 
something that we need to, you really think we need to do more 
of and concentrate on, to found such a specific field like 
this, or can we get by with people coming from different 
fields. Is that the way to do it? So I just want to throw that 
question out there. As a, former political science academic I 
am interested, in you know, questions like this in terms of 
what we are doing out there in higher education.
    Dr. Lane. So I think that is a very interesting question. 
It is an important question. The main area--if you are going to 
train people in doing this kind of research, they are going to 
go into the field and do the kind--develop the kind of skill 
sets that we need. You want them to be able to get tenure. You 
want there to be able to be a career ladder. And the program, 
besides SciSIP, isn't sufficient to support an 
interdisciplinary field in its own right. Nor is it, I think, 
possible to develop career paths for such a narrow set of 
skills.
    So I think what is important is to convince very smart 
people in economics, and sociology, and psychology and many of 
the other areas, that feel that science policy is a really 
important and interesting field, that they can bring their 
skill sets to bear on, to answer important science policy 
questions and that they can publish and get--advance within 
their own disciplines. So I think that is what is critical 
rather than trying to establish a separate field in its own 
right. I don't think that is feasible given budget constraints 
and so on. So that is what we have been explicitly been trying 
to foster, to make it an intellectually challenging, exciting, 
and publishable type of field.
    Chairman Lipinski. You going to comment Dr. Murray?
    Dr. Murray. Yes, I think it is--I think that there are 
three different constituencies for education. One is the 
Ph.D.'s, who are probably the producers of research. The 
other--and then there are the science and technology policy, 
typically Master's students, who tend to go into policy roles 
who I think we need to educate to be better consumers [of this 
research] and also people who really understand what we do and 
can help do it with us. And then finally there are, probably, 
the scientists and engineers themselves who could benefit from 
understanding some of this. We then become a sort of bottom-up 
constituency who can shape agencies and so on. I think on the 
Ph.D. side, I think Julia is exactly right. I don't think you 
can have a new discipline of SciSIP. I think it is both too 
small, and, in fact, one of the great values of SciSIP is 
indeed the fact that people come from these other strong 
disciplinary foundations. I think what we do need to emphasize, 
though, is a serious, a sort of a field focus.
    If you think of a Ph.D. in political science or economics, 
mostly there is a field. At the moment I don't think many 
places already have a field focus in something that we would 
recognize as SciSIP. And I think that we could go a long way 
towards funding things that would help establish that. You 
know, Ph.D. education requires, especially in something like 
this, you know, significant evidence, and teaching materials, 
and data sets, and things so that students can work on this, 
and so that we can effectively collaborate across a set of 
schools to really begin to develop material, share expertise. 
And then potentially bring the Ph.D. students together as a 
community so that they recognize one another even though they 
are always going home and we know we are educating them to be 
hired by business schools' economics departments and so on.
    So I think that there is an opportunity there as long as we 
make sure we know what we're trying to accomplish, which is not 
a new discipline. I think on the science and technology 
Master's side, I am less familiar with that because even though 
I do SciSIP research I don't teach in the technology and policy 
program at MIT. But that in and of itself tells you something, 
which is that there is, I think, a little bit still of a 
disconnect--that the traditional science and technology policy 
programs have not necessarily sort of incorporated SciSIP 
research into their teaching material.
    And so again I think that there is an opportunity to do 
something about that. Not to insist that people do it, but to 
provide opportunities to develop a really effective curriculum 
so that as people go into different--into their careers as 
policy makers, they understand what we are trying to do, some 
of the methods, they know good SciSIP research from less good 
SciSIP research and they themselves can say oh, you know, we 
are doing something in our agency. We could actually run that 
as an experiment that could be studied. We could try two 
different ways of allocating funding and we could really do the 
analysis with real data. And I think if we could educate people 
to that level, we would have a much better interchange in the 
long run, and it would be a really--it would be a very vibrant 
community.
    Chairman Lipinski. And Dr. Teich.
    Dr. Teich. Yes, well, a couple of things worth noting in 
response. First of all, there are and have existed for some 
time about 25 programs in universities around the United 
States, and some outside the U.S. in addition to those 25. They 
have provided graduate education in science--in what we have 
called science, engineering and public policy, and which 
overlaps quite substantially with what we now call SciSIP. We 
had many years ago we published a guide, an old-fashioned paper 
type guide. We now have a website on the AAAS website that 
links to all of these programs which could help people find 
them.
    I don't see this as a discipline either. As was said a 
moment ago, it is a--my analogy is that it is more like a field 
of, let us say, area studies in which, like Latin American 
studies, for example, or African studies, it is a field in 
which many different disciplines contribute to an understanding 
of what is going on in this business. So that is one thing that 
I wanted to mention.
    Another thing is that there is--there are a lot of young 
people who are very interested in this, and we need to 
encourage them. There is an organization--an international non-
profit--it is incorporated as a 501(c)3 called Triple Helix, 
Inc., which has about 500 students from many universities, 
prestigious universities around the world, which provides an 
opportunity for students to educate themselves about the 
relationships between science and society, in ethics, business, 
and law. They actually publish an undergraduate journal, 
which--a couple of people from AAAS's staff serve on their 
Board of Advisors. They also have a poster session at the AAAS 
Annual Meeting.
    And then there is a group called the Science and 
Technology, or STGlobal Consortium, which is an association of 
graduate students and these programs that I mentioned, which 
also brings together people. They have a conference usually 
here in Washington in collaboration between the AAAS and the 
National Academies to provide an opportunity for younger people 
to explore this field, get into it if they're interested, and 
some of them do. We at AAAS have hired on our staff several 
people who have been graduates of these programs--master's 
degree graduates from these programs and some have been highly 
successful and are really leaders, young leaders in the field.
    So I am an advocate for this kind of education and I think 
we are doing it. I think it will be useful for Congress, and 
for Members of Congress if they were aware of this, to provide, 
I would say, moral support by speaking at their meetings and 
having staff attend and so on. So I am--I will leave it at 
that.
    Chairman Lipinski. Well, thank you, Dr. Teich, and I had 
a--when we were going out for votes, I was getting in the 
elevator and someone who had been sitting in the audience, he 
went up and thanked me for having this, the hearing on SciSIP, 
and said, how do Members really become educated? How do you 
have the time? And I said, it is very, very difficult and what 
it really takes is a dedication to, you know, being educated, 
because the incentives, other than really wanting to do a good 
job and being interested in this topic, aren't there. It is 
unfortunate.
    But the good thing is that we do have staff who are well 
educated in these things and it leaves me to thank the staff 
for all their work that you do, and all the staff on the 
Science Committee do an excellent job so that we--help us to do 
a better job here, hopefully, on the Science and Technology 
Committee, help the Members do a better job. So I thank the 
staff for all the work that they do.
    With that I want to thank the witnesses for their 
testimony. The record will remain open for two weeks for 
additional statements from the Members and for answers to any 
follow up questions the Committee may ask of the witnesses. 
With that the witnesses are excused and the hearing is now 
adjourned.
    [Whereupon, at 4:23 p.m. the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Julia Lane, Program Director of the Science of Science 
        and Innovation Policy Program, National Science Foundation

Questions submitted by Chairman Daniel Lipinski

Q1.  You describe in your testimony an effort by NSF to improve upon 
the way in which NSF interacts with its proposal and award portfolio. 
Can you please elaborate on this effort? How might the new tools you 
are developing to be utilized in the development of future NSF budget 
proposals, new programs or other aspects of policy development at NSF? 
Also, can you please elaborate on the relevance of this effort to the 
broader impact criterion?

A1. The SBE and CISE directorates have established a joint subcommittee 
of their directorate advisory committees that is exploring new ways to 
analyze and oversee NSF's portfolio of proposals and awards. The 
subcommittee is developing a report that will be available to NSF 
leadership and the broader community in November 2010. A particular 
focus of the report will be identifying tools to help NSF program staff 
better identify and support transformative and interdisciplinary 
research and gauge the broader impacts of NSF's investments. The report 
will also advise NSF on how to better structure existing data, improve 
use of existing technologies to complement human expertise, and 
characterize its programmatic data.
    These new tools and resources have many potential uses in 
establishing, justifying, and implementing budgetary priorities for 
NSF. A principal aim is to assess the alignment of NSF's priorities 
with emerging trends and opportunities in science and engineering 
research and education and to assess NSF's impact on areas of national 
priority. Other potential benefits include improving the efficiency of 
NSF's core business processes by providing program officers with new 
resources for managing the merit review process.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

  Statement of the California Healthcare Institute (CHI) submitted by 
                    Representative Brian P. Bilbray

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





</pre></body></html>
